<html>
<title> - THE CHALLENGES FACING THE DEPARTMENT OF DEFENSE</title>
<body><pre>[Senate Hearing 111-138]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-138

 
            THE CHALLENGES FACING THE DEPARTMENT OF DEFENSE

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 27, 2009

                               __________

         Printed for the use of the Committee on Armed Services


                  U.S. GOVERNMENT PRINTING OFFICE
53-123                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

            The Challenges Facing the Department of Defense

                            january 27, 2009

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense......................    10

                                 (iii)


            THE CHALLENGES FACING THE DEPARTMENT OF DEFENSE

                              ----------                              


                       TUESDAY, JANUARY 27, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, Webb, McCaskill, 
Udall, Hagan, Begich, Burris, McCain, Inhofe, Sessions, 
Chambliss, Graham, Thune, Martinez, Wicker, Burr, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; Richard W. Fieldhouse, professional 
staff member; Creighton Greene, professional staff member; 
Michael J. Kuiken, professional staff member; William G.P. 
Monahan, counsel; Michael J. Noblet, professional staff member; 
John H. Quirk V, professional staff member; Arun A. Seraphin, 
professional staff member; Russell L. Shaffer, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, research assistant; Richard H. 
Fontaine, Jr., deputy Republican staff director; Paul C. Hutton 
IV, professional staff member; David M. Morriss, minority 
counsel; Lucian L. Niemeyer, professional staff member; Diana 
G. Tabler, professional staff member; Richard F. Walsh, 
minority counsel; and Dana W. White, professional staff member.
    Staff assistants present: Jessica L. Kingston, Christine G. 
Lang, Ali Z. Pasha, and Brian F. Sebold.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; James Tuite, assistant to Senator 
Byrd; Elizabeth King, assistant to Senator Reed; Bonni Berge, 
assistant to Senator Akaka; Christopher Caple, assistant to 
Senator Bill Nelson; Jon Davey, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Stephen C. 
Hedger and Elizabeth McDermott, assistants to Senator 
McCaskill; Jennifer Barrett, assistant to Senator Udall; 
Anthony J. Lazarski, assistant to Senator Inhofe; Lenwood 
Landrum and Sandra Luff, assistants to Senator Sessions; Clyde 
A. Taylor IV, assistant to Senator Chambliss; Adam G. Brake, 
assistant to Senator Graham; Jason Van Beek, assistant to 
Senator Thune; Brian W. Walsh and Erskine W. Wells III, 
assistants to Senator Martinez; Kevin Kane, assistant to 
Senator Burr; and Rob Epplin, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. This morning is 
the first committee hearing since new committee members were 
approved, so I'd like to recognize our new committee members: 
Senator Mark Begich, Senator Richard Burr, Senator Roland 
Burris, Senator Kay Hagan, Senator Mark Udall, and Senator 
David Vitter. A warm welcome to you all. You will enjoy your 
work on this committee for many reasons, but one surely is its 
history of a bipartisan approach to our national security.
    We also want to welcome Secretary Gates, who will testify 
on the challenges facing the Department of Defense (DOD). As we 
can I'm sure notice, the Secretary has one arm a little bit 
immobile this morning. I guess the snow this morning reminds 
him of his losing combat with a snow plow a week or so ago. We 
wish you well, Mr. Secretary. We know you're on the mend, and 
this is not the first time we've seen the one-armed Secretary 
before us.
    We welcome you. When you previously testified in September, 
I suggested that it would be likely your last appearance before 
this committee. I'm glad to say I was wrong. I commend 
President Obama's decision to ask you to stay on as Secretary 
of Defense. We all appreciate your dedication, your willingness 
to continue to serve, and we appreciate your family's support 
for that decision of yours.
    Given your unique position as the only Cabinet member to 
serve across the Bush and Obama administrations, the continuity 
and experience that you provide will be of great value to our 
Nation. While this is not a nomination hearing today since you 
do not need one as a carryover, it is an opportunity to ask you 
how you plan to transition to the policies and priorities of 
the new administration.
    The challenges facing the Department at home and abroad are 
extraordinary. Foremost we will be shifting the emphasis and 
the balance between two ongoing wars, drawing down in Iraq as 
we build up in Afghanistan. Secretary Gates, you have called 
for deploying additional combat brigades and support units to 
Afghanistan, potentially doubling the current 31,000 U.S. 
troops deployed there. But making these additional forces 
available as currently scheduled is slow, slower than the 
commanding general of the North Atlantic Treaty Organization 
(NATO) International Security Assistance Force, U.S. General 
David McKiernan, said last October was needed.
    The past year has seen increasing violence in Afghanistan, 
with roadside bombs reaching an all-time high and spreading 
insecurity among the Afghan people. Secretary Gates's opening 
statement tells us this morning that there is ``little doubt 
our greatest military challenge right now is Afghanistan,'' 
where again we have 31,000 troops. President Obama has called 
Afghanistan and Pakistan the central front in America's war 
against terrorism. Admiral Mullen said recently that ``The 
availability of troops for Afghanistan is tied to the drawdown 
of our 140,000 troops from Iraq.'' Add to that the fact that 
Iraq now has 265,000 of its own trained Iraqi troops and 
310,000 trained police personnel.
    Hopefully, the Secretary this morning will address these 
disparities, which have existed for many months.
    The security challenges in Afghanistan require that the 
United States and its coalition allies not only provide 
additional combat forces, but also increased capacity and 
capabilities. We need to deploy key enablers that serve as 
force multipliers. In particular, we need more trainers, more 
quickly for the Afghan National Army (ANA), which is a highly 
motivated and effective fighting force. We also need more 
intelligence, surveillance, and reconnaissance (ISR) assets in 
Afghanistan, including unmanned aerial vehicles (UAVs), that 
are tailored to the unique requirements that the situation in 
Afghanistan presents.
    Secretary Gates has said that in the long run this conflict 
must be Afghanistan's war, and I agree. We should be doing all 
we can to enable Afghan security forces to take responsibility 
for their own country's security.
    Hopefully, Pakistan will find a way to slow the activities 
of terrorists using their borderlands as safe havens and bases 
for attacks on Afghanistan. But I'm afraid we can't count on 
that to stop cross-border incursions. We not only need to 
aggressively increase the number of trainers and mentors for 
building the capacity of the ANA and Afghan National Police 
(ANP); we need to actively seek to get the best Afghan security 
forces deployed where the greatest threat is coming from.
    That's why I have urged Secretary Gates as well as General 
McKiernan, former President Bush, his National Security Adviser 
(NSA) Stephen Hadley to seek the deployment of the ANA along 
the Afghan-Pakistan border to counter the threat of incursions 
coming across that border. Brigadier General John Nicholson, 
the Deputy Commanding General of the Regional Command South 
says that ``We're not there. The borders are wide open.''
    The challenges in Afghanistan also require that we mobilize 
the full range of U.S. power, not just our military power, but 
our civilian institutions, for diplomacy and development. 
Secretary Gates has spoken and written with great 
persuasiveness that military success is not sufficient to win, 
and that the ingredients for success in the long term include 
economic development, rule of law, good governance, training 
and equipping internal security forces, and public diplomacy. 
Yet the chronic underresourcing of the State Department and the 
U.S. Agency for International Development (USAID) has left our 
military and civilian instruments of U.S. power out of balance.
    The challenges facing the Department are not confined to 
Iraq and Afghanistan. Iran continues to be a destabilizing 
force throughout the Middle East because of uncertainty as to 
Iran's nuclear weapons goal and its support of insurgent and 
terrorist groups in the region.
    In Europe, the United States will hopefully work with our 
NATO allies in efforts to improve our relationship with Russia. 
That relationship has become strained over a proposed missile 
defense deployment in Europe and further NATO enlargement. We 
should seek common ground with Russia where it is in our mutual 
interests, including fighting terrorism, preventing the 
proliferation of weapons of mass destruction, reducing the 
number of nuclear weapons and possibly even missile defense.
    For instance, if we could work out a joint program with 
Russia on missile defense against Iranian missiles, it would 
change the entire dynamic of regional power and put pressure on 
Iran to drop any plans for nuclear weapons or long-range 
missiles to carry them.
    We need to remain vigilant in the Asian Pacific region, 
where North Korea remains a threat to regional stability and 
China's strategic influence continues to grow.
    The challenges confronting U.S. Africa Command (AFRICOM) 
are vast and complex: ungoverned or undergoverned areas that 
offer potential havens and recruiting grounds for terrorists, 
extremists, and Nations emerging from conflict, where peace is 
fragile and international forces provide much of the security 
and stability.
    In the coming months, the Secretary of Defense will have to 
make some tough decisions. The committee is interested in any 
insights that you may have, Mr. Secretary, into changes the new 
administration may be planning for major weapons systems, 
priorities, and funding. To strike a better balance between the 
needs of our deployed forces today and the requirements for 
meeting the emerging threats of tomorrow.
    Of particular interest would be plans for the Air Force's 
F-22 fighter, the C-17 cargo aircraft, combat search and rescue 
helicopter program, the Next Generation Aerial Refueling 
Tanker, the Navy's Littoral Combat Ship (LCS), the DDG-1000, 
DDG-51, the Army's Future Combat System, and missile defense 
systems. These programs require tough choices, which will be 
more difficult due to the current economic crisis.
    A top priority for the DOD and Congress must be to reform 
the acquisition system. Each year, hundreds of billions of 
dollars of products and services are purchased. Last year the 
committee received testimony that cost overruns on the 
Department's 95 largest acquisition programs now total almost 
$300 billion over the original program estimates, even though 
the Department has cut unit quantities and reduced performance 
expectations on many programs to reduce costs. Acquisition 
reform will be a top priority for this committee this Congress.
    Care for our wounded warriors must remain a priority. DOD 
needs to continue to work closely with the Department of 
Veterans Affairs (VA) in crafting and implementing policies and 
processes to ensure seamless care and transition for our 
wounded warriors and their families.
    It is also essential that the Department continue to focus 
on supporting all of our servicemembers, not only those who are 
injured or ill, but also their families, as they face the 
numerous challenges that lengthy and frequent deployments 
present.
    In the area of personnel, the Department will hopefully 
continue to address and evaluate the appropriate Active Duty 
and Reserve end strengths for all the Services. The Army and 
Marine Corps continue to grow the active Force. While the 
committee has supported growth in the active ground forces, we 
must remain vigilant that we do not sacrifice quality to 
enhance quantity. We must ensure that recruiting standards are 
high and waivers are limited.
    The Air Force and the Navy have in recent years reduced the 
size of their Active Duty end strengths, in part to pay for 
equipment, however, recently both Services halted the decline. 
The Department must work with Congress to determine the 
appropriate Active and Reserve end strengths for all the 
military Services as measured against current and future 
missions and requirements. We expect the Department to 
comprehensively address end strength levels in the upcoming 
Quadrennial Defense Review (QDR).
    Some of the Department's choices may become clearer when 
the second emergency supplemental 2009 appropriations request 
is submitted in the coming weeks. The Department has indicated 
it will provide a preliminary 2010 defense authorization budget 
request, as required by law, on the first Monday in February. 
But the more meaningful submission this year will be the 
amended budget request reflecting the priorities of the new 
administration, which are expected in the middle of April.
    [Whereupon, at 9:48 a.m., the committee proceeded to other 
business, then reconvened at 9:49 a.m.]
    Chairman Levin. Since a quorum is now present, I ask the 
committee to consider a list of 654 pending military 
nominations. All of these nominations have been before the 
committee the required length of time.
    Is there a motion to favorably report these 654 military 
nominations to the Senate? [Motion.]
    Is there a second?
    All in favor say aye.
    The motion carries.
    [The list of nominations considered and approved by the 
committee follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
  which are Proposed for the Committee's Consideration on January 27, 
                                 2009.

    1. In the Air Force Reserve, there are 27 appointments to the grade 
of major general and below (list begins with Donald A. Haught) 
(Reference No. 1).
    2. In the Air Force, there is one appointment to the grade of major 
(Edmund P. Zynda II) (Reference No. 2).
    3. In the Air Force, there is one appointment to the grade of major 
(Daniel C. Gibson) (Reference No. 3).
    4. In the Air Force, there are two appointments to the grade of 
major (list begins with Donald L. Marshall) (Reference No. 4).
    5. In the Air Force, there are three appointments to the grade of 
major (list begins with Paul J. Cushman) (Reference No. 5).
    6. In the Air Force, there are four appointments to the grade of 
lieutenant colonel and below (list begins with Christopher S. Allen) 
(Reference No. 6).
    7. In the Air Force, there is one appointment to the grade of 
lieutenant colonel (Ryan R. Pendleton) (Reference No. 7).
    8. In the Air Force, there is one appointment to the grade of 
lieutenant colonel (Howard L. Duncan) (Reference No. 8).
    9. In the Air Force Reserve, there are five appointments to the 
grade of colonel (list begins with Jeffrey R. Grunow) (Reference No. 
9).
    10. In the Air Force Reserve, there is one appointment to the grade 
of colonel (Eugene M. Gaspard) (Reference No. 10).
    11. In the Air Force Reserve, there are two appointments to the 
grade of colonel (list begins with Michael R. Powell) (Reference No. 
11).
    12. In the Air Force Reserve, there are two appointments to the 
grade of colonel (list begins with Mary Elizabeth Brown) (Reference No. 
12).
    13. In the Air Force Reserve, there are three appointments to the 
grade of colonel (list begins with Gary R. Califf) (Reference No. 13).
    14. In the Air Force Reserve, there are five appointments to the 
grade of colonel (list begins with Stephen Scott Baker) (Reference No. 
14).
    15. In the Air Force Reserve, there are nine appointments to the 
grade of colonel (list begins with Joseph Allen Banna) (Reference No. 
15).
    16. In the Air Force Reserve, there are 69 appointments to the 
grade of colonel (list begins with Keith A. Acree) (Reference No. 16).
    17. In the Army Reserve, there is one appointment to the grade of 
colonel (Scott A. Gronewold) (Reference No. 17).
    18. In the Army Reserve, there are two appointments to the grade of 
colonel (list begins with Robert L. Kaspar, Jr.) (Reference No. 18).
    19. In the Army Reserve, there is one appointment to the grade of 
colonel (Emmett W. Mosely) (Reference No. 19).
    20. In the Army Reserve, there are two appointments to the grade of 
colonel (list begins with Andrew C. Meverden) (Reference No. 20).
    21. In the Army, there are six appointments to the grade of 
lieutenant colonel and below (list begins with Douglas M. Coldwell) 
(Reference No. 21).
    22. In the Army, there is one appointment to the grade of major 
(Thomas S. Carey) (Reference No. 22).
    23. In the Army, there is one appointment to the grade of major 
(Scottie M. Eppler) (Reference No. 23).
    24. In the Army, there is one appointment to the grade of major 
(Pierre R. Pierce) (Reference No. 24).
    25. In the Army, there are two appointments to the grade of major 
(list begins with Cheryl A. Creamer) (Reference No. 25).
    26. In the Army, there are 24 appointments to the grade of major 
(list begins with Kathryn A. Belill) (Reference No. 26).
    27. In the Army, there are 73 appointments to the grade of major 
(list begins with Christopher Allen) (Reference No. 27).
    28. In the Army, there are 137 appointments to the grade of major 
(list begins with John L. Ament) (Reference No. 28).
    29. In the Army, there are 143 appointments to the grade of major 
(list begins with Terryl L. Aitken) (Reference No. 29).
    30. In the Marine Corps, there is one appointment to the grade of 
lieutenant colonel (Matthew E. Sutton) (Reference No. 30).
    31. In the Marine Corps, there is one appointment to the grade of 
lieutenant colonel (Andrew N. Sullivan) (Reference No. 31).
    32. In the Marine Corps, there is one appointment to the grade of 
lieutenant colonel (Tracy G. Brooks) (Reference No. 32).
    33. In the Marine Corps, there are two appointments to the grade of 
lieutenant colonel (list begins with Peter M. Barack, Jr.) (Reference 
No. 33).
    34. In the Marine Corps, there are two appointments to the grade of 
lieutenant colonel (list begins with David G. Boone) (Reference No. 
34).
    35. In the Marine Corps, there are two appointments to the grade of 
lieutenant colonel (list begins with William A. Burwell) (Reference No. 
35).
    36. In the Marine Corps, there are two appointments to the grade of 
lieutenant colonel (list begins with Kurt J. Hastings) (Reference No. 
36).
    37. In the Marine Corps, there are three appointments to the grade 
of lieutenant colonel (list begins with James P. Miller, Jr.) 
(Reference No. 37).
    38. In the Marine Corps, there is one appointment to the grade of 
major (David S. Pummell) (Reference No. 38).
    39. In the Marine Corps, there is one appointment to the grade of 
major (Robert M. Manning) (Reference No. 39).
    40. In the Marine Corps, there is one appointment to the grade of 
major (Michael A. Symes) (Reference No. 40).
    41. In the Marine Corps, there is one appointment to the grade of 
major (Paul A. Shirley) (Reference No. 41).
    42. In the Marine Corps, there is one appointment to the grade of 
major (Richard D. Kohler) (Reference No. 42).
    43. In the Marine Corps, there are two appointments to the grade of 
major (list begins with Julie C. Hendrix) (Reference No. 43).
    44. In the Marine Corps, there are four appointments to the grade 
of major (list begins with Christopher N. Norris) (Reference No. 44).
    45. In the Marine Corps, there are three appointments to the grade 
of major (list begins with Anthony M. Nesbit) (Reference No. 45).
    46. In the Marine Corps, there are three appointments to the grade 
of major (list begins with Gregory R. Biehl) (Reference No. 46).
    47. In the Marine Corps, there are two appointments to the grade of 
major (list begins with Travis R. Avent) (Reference No. 47).
    48. In the Marine Corps, there are four appointments to the grade 
of major (list begins with Jose A. Falche) (Reference No. 48).
    49. In the Marine Corps, there are six appointments to the grade of 
major (list begins with Keith D. Burgess) (Reference No. 49).
    50. In the Marine Corps, there are three appointments to the grade 
of major (list begins with Mark L. Hobin) (Reference No. 50).
    51. In the Marine Corps Reserve, there are 26 appointments to the 
grade of colonel (list begins with Kevin J. Anderson) (Reference No. 
51).
    52. In the Navy, there is one appointment to the grade of 
lieutenant commander (Steven J. Shauberger) (Reference No. 53).
    53. In the Navy, there is one appointment to the grade of 
lieutenant commander (Karen M. Stokes) (Reference No. 54).
    54. In the Navy, there are seven appointments to the grade of 
commander and below (list begins with Craig W. Aimone) (Reference No. 
56).
    55. In the Marine Corps Reserve, there are two appointments to the 
grade of major general (list begins with John H. Croley) (Reference No. 
59).
    56. In the Army Reserve, there are 42 appointments to the grade of 
major general and below (list begins with Peter M. Aylward) (Reference 
No. 63).
    Total: 654.

    Chairman Levin. One other personnel note. The nomination of 
Bill Lynn is before the committee and a number of additional 
questions have been asked relative to any service by Mr. Lynn. 
Those are appropriate questions and we will attempt to act on 
that nomination as soon as we can after the answers to those 
questions are received.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman. I again 
look forward to working with you and all the members of the 
committee as we begin the 111th Congress. I join you in 
welcoming all the new members of the committee. It's been a 
privilege to sit on this committee for 8 years and I've always 
appreciated its bipartisan tradition. I'm certain that the new 
members of our committee will find their participation very 
rewarding.
    I'd also like to welcome Secretary Gates back to the Senate 
Armed Services Committee. Mr. Secretary, you have been a 
tireless champion of our men and women in uniform and I cannot 
think of a more qualified person to serve as our country's 
Secretary of Defense. We all owe you a debt of gratitude for 
your outstanding service and your willingness to continue to 
serve in one of the most difficult jobs in America. I'm 
confident that you will continue to serve in an exemplary 
fashion.
    Secretary Gates, you know well the challenges that our 
country faces in the areas of national security, Afghanistan, 
the drawdown of troops in Iraq, dwell times, closing the prison 
at Guantanamo Bay, ensuring the readiness of our combat units, 
and achieving meaningful acquisition reform. In all these areas 
and more, we face enormous and difficult decisions.
    I look forward to working with you and the new 
administration as we pursue the foremost responsibility of the 
American government, to secure the security of the American 
people. Obviously, Afghanistan must be at or near the top of 
any priority list. The situation there is increasingly 
challenging and we need to develop and articulate a clear 
strategy with measurable performance goals in order to prevail 
there.
    I am pleased that the administration is moving in the right 
direction by increasing the number of U.S. troops on the 
ground, particularly in the south of Afghanistan. But more 
troops are just a piece of what is required, as you well know.
    We need to put into place a comprehensive civil-military 
plan, ensure unity of command among those fighting in 
Afghanistan, increase dramatically the size of the ANA, improve 
the police forces, and also address the corruption, governance, 
and narcotics problems much more forthrightly than we have thus 
far.
    Mr. Secretary, last year you testified before this 
committee fearing that NATO would become a two-tiered alliance 
of those willing to die to protect people's security and those 
who were not. We must convince our NATO allies and their 
citizens that a stable and prosperous Afghanistan is in all of 
our interests and therefore worthy of a greater contribution 
from each member state. I look forward to your thoughts in this 
regard.
    Undergirding the efforts of all NATO members in Afghanistan 
must be an absolute commitment to success in that country. We 
cannot allow Afghanistan to revert to a safe haven for 
terrorists who would plot attacks against the American people 
or our friends around the world. I'll do all I can to convince 
our allies that, while this war will be hard, it is necessary.
    I look forward to hearing your assessment of the NATO 
mission in Afghanistan, the viability of the Afghan government, 
the relationship and necessity of a better interaction with the 
Pakistan government, and how best to develop a comprehensive 
civil-military strategy.
    Also, Mr. Secretary, I think it's important--the most 
important thing that I have to say to you today: The American 
people must understand that this is a long, hard slog we're in 
in Afghanistan. It is complex. It is difficult. It is 
challenging. I don't see, frankly, an Anbar Awakening, a game-
changing event in Afghanistan, such as we were able to see in 
Iraq. So I think the American people need to understand what's 
at stake and they need to understand that this is going to take 
a long time to secure America's vital national security 
interests in the region.
    In Iraq, obviously, we continue to worry about too rapid a 
drawdown. I'm convinced that leaving a larger force in place in 
the short run will permit us to make greater reductions later. 
Critical elections are coming up in Iraq. The Status of Forces 
Agreement (SOFA) will be up for some kind of referendum. We are 
by no means finished with the situation in Iraq, but we can be 
proud of the enormous success, at great sacrifice, of the men 
and women who have served so nobly and so courageously.
    I'm encouraged by Vice President Biden's pledge that the 
new administration will not withdraw troops in a manner that 
will threaten Iraqi security, and I look forward to hearing 
specifically what such a commitment means.
    Mr. Secretary, I also want to mention, on the issue of 
Guantanamo Bay, I am one who said Guantanamo Bay needed to be 
closed, but I think that we should have made the tough 
decisions along with it. What do we do with those people who 
are in our custody who have no country for us to send them back 
to? What do we do with the people in our custody who we know if 
returned to their countries, in some cases failed states like 
Yemen, will be right back in the battle, as we have found out 
about former prisoners who have been released and are now 
leading members of al Qaeda? Also, I think that decisions have 
to be made as to where these inmates are going to be located.
    I believe the military commissions, after a long and 
arduous process, were starting to function effectively. I'm 
disappointed that they have been suspended.
    We all know that there will be more prisoners that will be 
kept at Bagram, so maybe we should anticipate a way to deal 
with that situation rather than be faced with one which may 
cause us more difficulties if we don't fully anticipate that 
there's going to be a situation that has to be addressed at 
Bagram in Afghanistan.
    I share the chairman's commitment to acquisition reform. 
Tough choices  are  going  to  have  to  be  made  quickly  on  
the  F-22,  the  C-17s, and others, but true acquisition reform 
is long overdue.
    Finally, Mr. Secretary, I'm pleased with the information 
that I've been receiving lately about the improvements that 
have been made both in recruiting and retention in the 
military. I'm sure there is a number of factors and I hope 
you'll cover some of those as to why we are improving 
significantly, in both retention and recruiting. Hopefully, the 
actions of Congress would be helpful there.
    I also think that it's very good for morale when you win a 
conflict and don't lose one. But I'd be very interested in your 
views about how we've been able to dramatically improve 
recruiting and retention and what we need to do to continue 
that as we face the challenges of a continued conflict in 
Afghanistan and possibly other parts of the world.
    [The information referred to follows:]

    To date, we have met the challenge of recruiting and retention 
during the global war on terror. I thank Congress for the various 
enlistment and reenlistment bonus authorities, which are critical to 
ensure recruiting, and retention success and, ultimately, our ability 
to shape the force by enlisting quality youth and retaining members 
with the correct specialties to maintain the capability of our forces. 
In fiscal year 2008 and for fiscal year 2009 to date, recruiting and 
retention programs have been successful for a variety of reasons. Not 
the least of those reasons is the great confidence and respect directed 
at those in uniform, in particular, military leadership. It is no 
coincidence that the latest Harris poll (Figure 1) continues a two-
decade trend in rating leaders of the military as the group in which 
American citizens have the greatest confidence--ahead of leaders of any 
other enterprises including small or big business, medicine, organized 
religion or a host of public sector entities. Our surveys of members 
say the same thing: those in uniform have confidence in their leaders, 
they like their colleagues, and they appreciate the support they 
receive in preparing for missions, in performing their duties, or in 
carrying out personal endeavors. Of course, those successes bear a 
direct relationship to extraordinary congressional support.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Regrettably, rising unemployment and economic uncertainty advantage 
those who are hiring, including the U.S. military. Clearly, recruiting 
and retention are less challenging in the current economic environment. 
However, the economic downturn is not the only factor affecting 
recruiting. The improving situation in Iraq (in general) and the 
reduction in casualties (in particular) over the last year certainly 
impacts propensity to join and stay.
    There have been increases in benefits that have also played a 
significant role. Military pay has increased 52 percent since 1999, 
compared to 38 percent in the private sector; the basic housing 
allowance increased 119 percent since 1999--eliminating ``out-of-
pocket'' expenses; the increased use of the Critical Skills Retention 
Bonus and Assignment Incentive Pays (discretionary incentives to target 
skills, locations and combinations of same); increases in insurance 
benefits; and the announcement of the new post-September 11 GI Bill. 
Although the Montgomery GI Bill has been a cornerstone of our active 
duty military recruiting efforts since 1985, we believe the provision 
in the new program allowing career Service members to share or transfer 
their GI Bill with immediate family members will be an added incentive 
for new recruits as well as a retention factor for existing Service 
members. We will be monitoring the effects of this implementation very 
closely, but believe it is already having a positive effect.
    On the cautionary side, there continues to be other factors that 
significantly affect our ability to attract bright, young Americans 
into the Armed Forces--the lower likelihood of influencers of youth 
(e.g., parents and teachers) to recommend service, the lower interest 
in service among youth themselves, higher numbers of youth going to 
college directly from high school, and the continuing concerns about 
the prolonged, worldwide, irregular campaign with its concomitant high 
operations tempo. We are in uncharted waters--with significant factors, 
both positive and negative, directly affecting military recruiting. As 
a result, the Department and the Services are reviewing their 
recruiting and retention programs to realign funding with current 
realities. Whatever realignments are undertaken, they will be done 
carefully and their effects closely monitored.
    The continued success of the Department relies on the many quality 
of life and standards of living improvements made with the help of 
Congress. We must continue to sustain this standard, and we thank 
Congress for its continued support of our All-Volunteer Force.

    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Secretary Gates, again our warm welcome and we turn it over 
to you for your statement.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman, Senator McCain, 
and members of the committee. Thank you for the opportunity to 
provide an overview of the challenges facing the DOD and some 
of my priorities for the coming year. In so doing, I am most 
mindful that the new administration has only been in place for 
a few days and new or changing policies will likely arise in 
the weeks and months ahead. Later this spring I will present 
President Obama's defense budget, and at that time, will be 
better equipped to discuss the details of his vision for the 
Department.
    On a personal note, I want to thank many of you for your 
very kind farewell remarks at my last hearing. I assure you, 
you are no more surprised to see me back than I am. In the 
months ahead I may need to reread some of those kind comments 
to remind myself of the warm atmosphere up here as I was 
departing.
    Seriously, I am humbled by President Obama's faith in me 
and deeply honored to continue to lead the United States 
military. I thank the committee for your confidence in my 
leadership and your enduring steadfast support of our military.
    My submitted testimony covers a range of challenges facing 
the Department: North Korea, Iran, proliferation, Russia, 
China, wounded warrior care, ground force expansion and stress 
on the force, National Guard, nuclear stewardship, defending 
space and cyberspace, and wartime procurement. But for the next 
few minutes I'd like to focus on Afghanistan, Iraq, and defense 
acquisition.
    There is little doubt that our greatest military challenge 
right now is Afghanistan. The United States has focused more on 
Central Asia in recent months. President Obama has made it 
clear that the Afghanistan theater should be our top overseas 
military priority.
    There are more than 40 nations, hundreds of nongovernmental 
organizations (NGOs), universities, development banks, the 
United Nations (U.N.), the European Union (EU), NATO, and more, 
all involved in Afghanistan, all working to help a nation beset 
by crushing poverty, a thriving drug trade fueling corruption, 
a ruthless and resilient insurgency, and violent extremists of 
many stripes, not the least of which is al Qaeda.
    Coordination of these international efforts has been 
difficult, to say the least. Based on our experience, our past 
experience in Afghanistan and applicable lessons from Iraq, 
there are assessments underway that should provide an 
integrated way forward to achieve our goals. As in Iraq, there 
is no purely military solution in Afghanistan. But it is also 
clear that we have not had enough troops to provide a baseline 
level of security in some of the most dangerous areas, a vacuum 
that has increasingly been filled by the Taliban.
    That is why the United States is considering an increase in 
our military presence in conjunction with a dramatic increase 
in the size of the Afghan security forces, and also pressing 
forward on issues like improving civil-military coordination 
and focusing efforts on the district level.
    While this will undoubtedly be a long and difficult fight, 
we can attain what I believe should be among our strategic 
objectives--above all, an Afghan people who do not provide a 
safe haven for al Qaeda, who reject the rule of the Taliban and 
support the legitimate government they have elected and in 
which they have a stake.
    Of course, it is impossible to disaggregate Afghanistan and 
Pakistan, given the porous border between them. Pakistan is a 
friend and partner and it is necessary for us to stay engaged 
and help wherever we can. I can assure you that I continue to 
watch the situation in Pakistan closely.
    The SOFA between the United States and Iraq went into 
effect on January 1. The agreement calls for U.S. combat troops 
to be out of the Iraqi cities by the end of June and all troops 
out of Iraq by the end of 2011 at the latest. It balances the 
interests of both countries as we see the emergence of a 
sovereign Iraq in full control of its territory.
    Provincial elections in just a few days is another sign of 
progress. The SOFA marks an important step forward in the 
orderly drawdown of the American presence. It is a watershed, a 
firm indication that American military involvement in Iraq is 
winding down.
    Even so, I would offer a few words of caution. Though the 
violence has remained low, there is still the potential for 
setbacks and there may be hard days ahead for our troops.
    As our military presence decreases over time, we should 
still expect to be involved in Iraq on some level for many 
years to come, assuming a sovereign Iraq continues to seek our 
partnership. The stability of Iraq remains crucial to the 
future of the Middle East, a region that multiple presidents of 
both political parties have considered vital to the national 
security of the United States.
    As I focused on the wars these past 2 years, I ended up 
toward the end of last year punting a number of procurement 
decisions that I believed would be more appropriately handled 
by my successor and a new administration. As luck would have 
it, I am now the receiver of those punts, and in this game 
there are no fair catches.
    Chief among the institutional challenges facing the 
Department is acquisition, broadly speaking how we acquire 
goods and services and manage the taxpayers' money. There are a 
host of issues that have led us to where we are, starting with 
longstanding systemic problems. Entrenched attitudes throughout 
the government are particularly pronounced in the area of 
acquisition. A risk-averse culture, a litigious process, 
parochial interests, excessive and changing requirements, 
budget churn and instability, and sometimes adversarial 
relationships within the DOD and between Defense and other 
parts of the government.
    At the same time, acquisition priorities changed from 
Defense secretary to Defense secretary, administration to 
administration, and Congress to Congress, making any sort of 
long-term procurement strategy on which we can accurately base 
costs next to impossible.
    Add to all of this the difficulty in bringing in qualified 
senior acquisition officials. Over the past 8 years, for 
example, the DOD has operated with an average percentage of 
vacancies in key acquisition positions ranging from 13 percent 
in the Army to 43 percent in the Air Force. Thus the situation 
we face today, where a small set of expensive weapons programs 
has had repeated and unacceptable problems with requirements, 
schedule, cost, and performance. The list spans all the 
Services.
    Since the end of World War II there have been nearly 130 
studies on these problems, to little avail. While there is no 
silver bullet, I do believe we can make headway, and we have 
already begun addressing these issues. First, I believe that in 
the fiscal year 2010 budget we must make hard choices. Any 
necessary changes should avoid across the board adjustments, 
which inefficiently extend all programs. We must have the 
courage to make hard choices.
    We have begun to purchase systems at more efficient rates 
for the production lines. I believe we can combine budget 
stability and order rates that take advantage of the economies 
of scale to lower costs. We will pursue greater quantities of 
systems that represent the 75 percent solution instead of 
smaller quantities of exquisite, 99 percent solution systems.
    While the military's operations have become very joint and 
impressively so, budget and procurement decisions remain 
overwhelmingly service-centric. To address a given risk, we may 
have to invest more in the future-oriented program of one 
service and less in that of another, particularly when both 
programs were conceived with the same threat in mind.
    We must freeze requirements on programs at contract award 
and write contracts that incentivize proper behavior. I feel 
that many programs that cost more than anticipated, are built 
on an inadequate initial foundation. I believe the Department 
should seek increased competition, use of prototypes, including 
competitive prototyping, and ensure technology maturity so that 
our programs are ready for the next phases of development.
    Finally, we must restore the Department's acquisition team. 
I look forward to working with you and the rest of Congress to 
establish the necessary consensus on the need to have adequate 
personnel capacity in all elements of the acquisition process. 
This is no small task and will require much work in the months 
ahead.
    Which brings me to a few final thoughts. I spent the better 
part of the last 2 years focused on the wars we are fighting 
today and making sure that the Pentagon is doing everything 
possible to ensure that America's fighting men and women are 
supported in battle and properly cared for when they come home. 
Efforts to put the bureaucracy on a war footing have, in my 
view, revealed underlying flaws in the institutional 
priorities, cultural preferences, and reward structures of 
America's defense establishment. A set of institutions largely 
arranged to plan for future wars, to prepare for a short war, 
but not to wage a protracted war.
    The challenge we face is how well we can institutionalize 
the irregular capabilities gained and means to support troops 
in the theater that have been for the most part developed ad 
hoc and funded outside the base budget. This requires that we 
close the yawning gap between the way the defense establishment 
supports current operations and the way it prepares for future 
conventional threats. Our wartime needs must have a home and 
enthusiastic constituencies in the regular budgeting and 
procurement process, while procurement and preparation for 
conventional scenarios must in turn be driven more by the 
actual capabilities of potential adversaries and less by what 
is technologically feasible given unlimited time and resources.
    As I mentioned, President Obama will present his budget 
later this spring. One thing we have known for many months is 
that the spigot of defense spending that opened on September 11 
is closing. With two major campaigns ongoing, the economic 
crisis and resulting budget pressures will force hard choices 
on this Department.
    But for all the difficulties we face, I believe this moment 
also presents an opportunity, one of those rare chances to 
match virtue to necessity, to critically and ruthlessly 
separate appetites from real requirements, those things that 
are desirable in a perfect world from those things that are 
truly needed in light of the threats America faces and the 
missions we are likely to undertake in the years ahead.
    As I've said before, we will not be able to do everything, 
buy everything. While we have all spoken at length about these 
issues, I believe now is the time to take action. I promise you 
that as long as I remain in this post I will focus on creating 
a unified defense strategy that determines our budget 
priorities. This, after all, is about more than just dollars. 
It goes to the heart of our national security.
    I will need help from the other stakeholders, from industry 
and from you, the Members of Congress. It is one thing to speak 
broadly about the need for budget discipline and acquisition 
reform. It is quite another to make tough choices about 
specific weapons systems and defense priorities based solely on 
national interests and then to stick to those decisions over 
time. The President and I need your help, as all of us together 
do what is best for America as a whole in making those 
decisions.
    I have no illusions that all of this will be solved while 
I'm at the Pentagon. Indeed, even if I am somewhat successful 
on the institutional side, the benefits of these changes may 
not be visible for years. My hope, however, is to draw a line 
and from here forward make systemic progress to put the 
Department on a glide path for future success.
    I look forward to working with each of you to gain your 
insight and your recommendations along the way. Once again, I 
thank you for all you've done to support the DOD and the men 
and women wearing our Nation's uniform.
    I look forward to your questions.
    [The prepared statement of Secretary Gates follows:]

               Prepared Statement by Hon. Robert M. Gates

    Mr. Chairman, Senator McCain, members of the committee:
    Thank you for the opportunity to provide an overview of challenges 
facing the Department of Defense (DOD) and some of my priorities for 
the coming year. In doing so, I am mindful that the new administration 
has only been in place for a few days and new or changing policies will 
likely arise in coming months. Later this spring, I will present 
President Obama's defense budget, and, at that time, will be better 
equipped to discuss the details of his vision for the Department.
    On a personal note, I want to thank many of you for your very kind 
farewell remarks at my last hearing. I assure you that you are no more 
surprised to see me back than I am. In the months ahead, I may need to 
re-read some of those kind comments to remind myself of the warm 
atmosphere up here as I was departing. Seriously, I am humbled by 
President Obama's faith in me, and deeply honored to continue leading 
the United States military. I thank the committee for your confidence 
in my leadership and your enduring, steadfast support of the military.
    I'd like to start by discussing our current operations before 
moving on to my ongoing institutional initiatives.

                        AFGHANISTAN AND PAKISTAN

    There is little doubt that our greatest military challenge right 
now is Afghanistan. The United States has focused more on Central Asia 
in recent months. President Obama has made it clear that the 
Afghanistan theater should be our top overseas military priority. The 
ideology we face was incubated there when Afghanistan became a failed 
state, and the extremists have largely returned their attention to that 
region in the wake of their reversals in Iraq. As we have seen from 
attacks across the globe--on September 11 and afterwards--the danger 
reaches far beyond the borders of Afghanistan or Pakistan.
    There are more than 40 nations, hundreds of nongovernmental 
organizations, universities, development banks, the United Nations, the 
European Union, the North Atlantic Treaty Organization (NATO), and 
more, involved in Afghanistan--all working to help a nation beset by 
crushing poverty, a thriving drug trade fueling corruption, a ruthless 
and resilient insurgency, and violent extremists of many stripes, not 
the least of which is al Qaeda. Coordination of these international 
efforts has been less than stellar, and too often the whole of these 
activities has added up to less than the sum of the parts--a concern 
I'm sure many of you share.
    Based on our past experience in Afghanistan--and applicable lessons 
from Iraq--there are assessments underway that should provide an 
integrated way forward to achieve our goals.
    As in Iraq, there is no purely military solution in Afghanistan. 
But it is also clear that we have not had enough troops to provide a 
baseline level of security in some of the most dangerous areas--a 
vacuum that increasingly has been filled by the Taliban. That is why 
the U.S. is considering an increase in our military presence, in 
conjunction with a dramatic increase in the size of the Afghan security 
forces. Because of the multi-faceted nature of the fight--and because 
of persistent International Security Assistance Force shortfalls for 
training teams--all combat forces, whether international or American, 
will have a high level of counterinsurgency training, which was not 
always the case.
    In the coming year, I also expect to see more coherence as efforts 
to improve civil-military coordination gain traction--allowing us to 
coordinate Provincial Reconstruction Teams in a more holistic fashion, 
both locally and regionally. There will be an increased focus on 
efforts at the district level, where the impact of both our military 
and rebuilding efforts will be felt more concretely by the Afghan 
people, who will ultimately be responsible for the future of their 
nation.
    While this will undoubtedly be a long and difficult fight, we can 
attain what I believe should be among our strategic objectives: an 
Afghan people who do not provide a safe haven for al Qaeda, reject the 
rule of the Taliban, and support the legitimate government that they 
elected and in which they have a stake.
    Of course, it is impossible to disaggregate Afghanistan and 
Pakistan, given the porous border between them. I do believe that the 
Pakistani Government is aware of the existential nature of the threat 
emanating from the federally Administered Tribal Areas. The U.S. 
military knows firsthand how difficult it is to wage counterinsurgency 
with a force designed for large-scale, mechanized warfare--a fact 
complicated by Pakistan's recent tensions with India. Pakistan is a 
friend and partner, and it is necessary for us to stay engaged--and 
help wherever we can. I can assure you that I am watching Pakistan 
closely, and that we are working with State, Treasury, and all parts of 
the government to fashion a comprehensive approach to the challenges 
there.

                 IRAQ AFTER STATUS OF FORCES AGREEMENT

    The Status of Forces Agreement (SOFA) between the U.S. and Iraq 
went into effect on January 1. The agreement calls for U.S. combat 
troops to be out of Iraqi cities by the end of June, and all troops out 
of Iraq by the end of 2011, at the latest. It balances the interests of 
both countries as we see the emergence of a sovereign Iraq in full 
control of its territory. Provincial elections in just a few days are 
another sign of progress.
    The SOFA marks an important step forward in the orderly drawdown of 
the American presence. It is a watershed--a firm indication that 
American military involvement is winding down. Even so, I would offer a 
few words of caution. Though violence has remained low, there is still 
the potential for setbacks--and there may be hard days ahead for our 
troops.
    As our military presence decreases over time, we should still 
expect to be involved in Iraq on some level for many years to come--
assuming a sovereign Iraq continues to seek our partnership. The 
stability of Iraq remains critical to the future of the Middle East, a 
region that multiple presidents of both political parties have 
considered vital to the national security of the United States.

                  NORTH KOREA, IRAN, AND PROLIFERATION

    Beyond these operations, one of the greatest dangers we continue to 
face is the toxic mix of rogue nations, terrorist groups, and nuclear, 
chemical, or biological weapons. North Korea and Iran present uniquely 
vexing challenges in this regard. North Korea has produced enough 
plutonium for several atomic bombs; Iran is developing the capabilities 
needed to support a nuclear weapons program. North Korea's conventional 
capability continues to degrade as it becomes more antiquated and 
starved--in some cases literally--for resources and support. Both 
countries have ballistic missile programs of increasing range and a 
record of proliferation.
    The regional and nuclear ambitions of Iran continue to pose 
enormous challenges to the U.S. Yet I believe there are non-military 
ways to blunt Iran's power to threaten its neighbors and sow 
instability throughout the Middle East. The lower price of oil deprives 
Iran of revenues and, in turn, makes U.N. economic sanctions bite 
harder. In addition, there is the growing self-sufficiency and 
sovereignty of Iraq, whose leaders--including Iraqi Shia--have shown 
they do not intend for the new, post-Saddam Iraq to become a satrapy of 
its neighbor to the east. This situation provides new opportunities for 
diplomatic and economic pressure to be more effective than in the past.
    On North Korea, the Six-Party Talks have been critical in producing 
some forward momentum--especially with respect to North Korea's 
plutonium production--although I don't think anyone can claim to be 
completely satisfied with the results so far. These talks do offer a 
way to curtail and hopefully eliminate its capacity to produce more 
plutonium or to enrich uranium, and reduce the likelihood of 
proliferation. Our goal remains denuclearization, but it is still to be 
seen whether North Korea is willing to give up its nuclear ambitions 
entirely.

                            RUSSIA AND CHINA

    Even as the DOD improves America's ability to meet unconventional 
threats, the United States must still contend with the challenges posed 
by the military forces of other countries--from the actively hostile, 
to rising powers at strategic crossroads. The security challenges faced 
by other nation-states is real, but significantly different than during 
the last century.
    The Russian invasion of Georgia last year was a reminder that the 
Russian military is a force to be reckoned with in Eastern Europe and 
the Caucasus. We should not, however, confuse Russia's attempt to 
dominate its ``near abroad'' with an ideologically driven campaign to 
dominate the globe--as was the case during the Cold War. The country's 
conventional military, although much improved since its nadir in the 
late 1990s, remains a shadow of its Soviet predecessor. Saddled with 
demographic and budget pressures, the Russians have concentrated on 
improving their strategic and nuclear forces, but recently have begun 
to devote more attention to their conventional capabilities.
    As we know, China is modernizing across the whole of its armed 
forces. The areas of greatest concern are Chinese investments and 
growing capabilities in cyber- and anti-satellite warfare, anti-air and 
anti-ship weaponry, submarines, and ballistic missiles. Modernization 
in these areas could threaten America's primary means of projecting 
power and helping allies in the Pacific: our bases, air and sea assets, 
and the networks that support them.
    We have seen some improvement in the U.S.-Chinese security 
relationship recently. Last year, I inaugurated a direct telephone link 
with the Chinese defense ministry. Military to military exchanges 
continue, and we have begun a strategic dialogue to help us understand 
each other's intentions and avoid potentially dangerous 
miscalculations.
    As I've said before, the U.S. military must be able to dissuade, 
deter, and, if necessary, respond to challenges across the spectrum--
including the armed forces of other nations. On account of Iraq and 
Afghanistan, we would be hard pressed at this time to launch another 
major ground operation. But elsewhere in the world, the United States 
has ample and untapped combat power in our naval and air forces, with 
the capacity to defeat any adversary that committed an act of 
aggression--whether in the Persian Gulf, on the Korean Peninsula, or in 
the Taiwan Strait. The risk from these types of scenarios cannot be 
ignored, but it is a manageable one in the short- to mid-term.

                          WOUNDED WARRIOR CARE

    Apart from the wars in Afghanistan and Iraq, my highest priority as 
Secretary of Defense is improving the outpatient care and transition 
experience for troops that have been wounded in combat.
    Since February 2007, when we learned about the substandard out-
patient facilities at Walter Reed, the Department has implemented a 
number of measures to improve health care for our wounded, ill, and 
injured servicemembers. We have acted on some 530 recommendations put 
forth by several major commissions and the National Defense 
Authorization Act of 2008. Notable progress includes:

        <bullet> Working closely with the Department of Veterans 
        Affairs to better share electronic health data and track 
        patients' long-term recovery process;
        <bullet> Dedicating new facilities, with the help of private 
        partners, such as the national intrepid centers in Bethesda, 
        MD, and San Antonio, TX; and
        <bullet> Improving overall case management through programs 
        such as the Army's ``Warrior Transition Units'' that shepherd 
        injured soldiers back to their units or help them transition to 
        veteran status.

    More than 3,200 permanent cadre are now dedicated to soldiers 
assigned to warrior transition units, and they have cared for more than 
21,000 men and women thus far. I have personally visited these units at 
Fort Bliss, TX, and Fort Campbell, KY.
    Post-traumatic stress disorder (PTSD), traumatic brain injury 
(TBI), and associated ailments are, and will continue to be, the 
signature military medical challenge facing the Department for years to 
come. We have made some strides to reduce the stigma associated with 
the scars of war, both seen and unseen. For instance, last February, 
the Army Inspector General identified a disturbing trend: Troops were 
hesitant to get help for mental health because they were worried about 
the impact on their security clearance, and perhaps their career. To 
resolve this problem, we worked with our interagency partners to change 
``Question 21'' on the government security clearance application so 
that, as a general matter, it excludes counseling related to service in 
combat, including PTSD. Put simply, mental health treatment, in and of 
itself, will not be a reason to revoke or deny a security clearance.
    We have invested more than $300 million in research for TBI 
prevention, diagnosis, treatment, and recovery. The Department created 
a comprehensive TBI registry and thus now has a single point of 
responsibility to track incidents and recovery. In the last year, we've 
added more than 220 new mental-health providers to treatment facilities 
across the country.
    The Services are doing more to address mental health needs. The 
Marine Corps is, for instance, embedding Operational Stress Control and 
Readiness teams in front-line units to better channel medical attention 
to those who need help quickly. All the Services have 24-hour ``hot 
lines'' available to troops. Health-care providers are being trained to 
better identify the first signs of psychological trauma.
    We are addressing PTSD and related injuries on a number of fronts 
and have made much progress. But not every servicemember returning from 
Iraq and Afghanistan is getting the treatment he or she needs. I 
believe we have yet to muster and coordinate the various legal, policy, 
medical, and budget resources across the Department to address these 
types of injuries.
    Considerable work remains as we institutionalize what has been 
successful and recalibrate what still falls short. The Disability 
Evaluation System (DES) is a useful example. In November 2007, a pilot 
program was launched to streamline the DES by providing a VA rating to 
be used by both DOD and VA. Approximately 900 servicemembers are 
currently enrolled in the pilot program, and it has enabled us to 
reduce the time required to determine their disability rating and, more 
importantly, to alleviate some frustration caused by a needlessly 
complex process.
    Overall, I remain concerned that our wounded warriors are still 
subjected to a system that is designed to serve the general military 
beneficiary population--the overwhelming majority of whom have not been 
injured in combat. Earlier this month, we implemented a policy that 
allows the Secretaries of the Services to expedite troops through the 
DES who have combat-related illnesses or injuries that are 
catastrophic. Nonetheless, we must give serious consideration to how we 
can better address the unique circumstances facing our servicemembers 
with combat-related ailments.
    As long as I am Secretary of Defense, I will continue to work to 
improve treatment and care for every single wounded warrior.

             GROUND FORCE EXPANSION AND STRESS ON THE FORCE

    In an effort to meet our Nation's commitments and relieve stress on 
our force and their troops' families, the Department continues to 
expand the end strength of the Army and Marine Corps--growth that began 
in 2007 and will continue for several years.
    The Army exceeded both recruiting and retention goals for fiscal 
year 2008, and is on path to achieve its goal of an active duty end 
strength of 547,400 by the end of this fiscal year. It will continue to 
increase the number of active Army Brigade Combat Teams (BCTs) with a 
goal of moving from 40 to 42 BCTs this year and towards an end goal of 
48 BCTs.
    Despite having fallen 5 percent short of its retention goal, the 
Marine Corps is on track to meet its end strength goal of 202,000 by 
the end of this fiscal year.
    In all, the Army and Marine Corps are undergoing the largest 
increase to their active ranks in some four decades. The expectation is 
that, with a larger total force, individual troops and units will, over 
time, deploy less frequently with longer dwell times at home. The goal 
for the Army is 3 years off for every year of deployment. The expected 
reduction of American troops in Iraq could be offset by proposed 
increases in Afghanistan, so it may take some time before we reach that 
goal. The Services are carefully managing their growth to ensure that 
it is consistent with the high standards expected from an All-Volunteer 
Force.

                             NATIONAL GUARD

    As a result of the demands of Iraq and Afghanistan, the role of the 
National Guard in America's defense has transformed from being a 
Strategic Reserve to being part of the pool of forces available for 
deployments.
    In view of the National Guard's growing operations and homeland 
security responsibilities, and to elevate the Guard in deliberations 
over policy and budget, I am pleased to say that the chief of the 
National Guard Bureau is now a full general. Another senior Guard 
officer recently became Northern Command's Deputy Commander, also a 
historic first that I hope will pave the way for a Guard officer to one 
day head that command.
    One of the challenges we face is to see that, to the extent 
possible, the Guard's critical domestic responsibilities do not suffer 
as a result of its operational missions. The demand for Guard support 
of civil authorities here at home remains high: For example, the ``man-
days'' that Guardsmen have spent fighting fires, performing rescue and 
recovery, and other duties increased by almost 60 percent in 2008 as 
compared to 2007.
    With the support of Congress, the Department has substantially 
increased support for America's Reserve component--the Guard and 
Reserves--which for decades had been considered a low priority for 
equipment, training, and readiness. Today, the standard is that the 
Guard and Reserves receive the same equipment as the active Force. For 
fiscal year 2009, the base budget request included $6.9 billion to 
continue to replace and repair the National Guard's equipment.
    The panel created by Congress 4 years ago, the Punaro commission, 
has been a useful spur to the Department's efforts to ensure that both 
Reserve components are better trained, manned, and equipped for this 
new era. We have taken, or are taking, action on more than 80 percent 
of the commission's recommendations.
    For example, the panel suggested a combined pay and personnel 
system to fix problems stemming from the shift from the Reserve pay 
system to the active Duty pay system. The Department is now launching 
that integrated system.
    Since taking this post I have tried to ease, to the extent 
possible, the stress on our Reserve components by implementing 
mobilization policies that are more predictable and conducive to unit 
cohesion. We have provided greater predictability as to when a Guard 
member will be deployed by establishing a minimum standard of 90 days 
advance notice prior to mobilization. In practice, on average, the 
notification time is about 270 days.
    There is no longer a 24-month lifetime limit on deployment, but 
each mobilization of National Guard and Reserve troops is now capped at 
12 months. The goal is 5 years of dwell time for 1 year deployed. We 
have made progress towards this goal but are not there yet. For 
example, the ratio of dwell time to mobilization for the Army National 
Guard this fiscal year is just over three to one.
    Reliance upon the Reserve component for overseas deployment has 
declined over time. For example, the percentage of Army soldiers 
serving in Iraq and Afghanistan who are guardsmen or reservists is 
about half what it was in summer 2005.

                          NUCLEAR STEWARDSHIP

    I continue to believe that as long as other nations have nuclear 
weapons, the U.S. must maintain an arsenal of some level. The 
stewardship of that arsenal is perhaps the military's most sensitive 
mission--with no margin for error.
    That there should be any question in that regard is why recent 
lapses in the handling of nuclear weapons and material were so grave. 
They were evidence of an erosion in training, expertise, resources, and 
accountability in this critical mission. They brought severe 
consequences, starting at the unit level and reaching up to the top 
leadership of the Air Force.
    Nonetheless, despite the shortcomings of the past, I do believe the 
U.S. nuclear deterrent remains safe, secure, and reliable. The Air 
Force has taken significant steps to improve its nuclear stewardship 
by:

        <bullet> Streamlining the inspection process for nuclear 
        material to ensure that it is all handled properly;
        <bullet> Standing up a new headquarters office--Strategic 
        Deterrence and Nuclear Integration--that concentrates on policy 
        oversight and staff integration for nuclear programs. The 
        office's leader reports directly to the Air Force chief of 
        staff;
        <bullet> Creating a Global Strike Command, which has brought 
        all of the Air Force's nuclear-capable bombers and 
        Intercontinental Ballistic Missiles under one entity; and
        <bullet> Reassigning the supply chain for nuclear programs to 
        the complete control of the Nuclear Weapons Center at Kirtland 
        Air Force Base, which is being overhauled and expanded.

    A task force headed by former Energy and Defense Secretary James 
Schlesinger has now reported that it has identified many trends, both 
recent and long-term, that may warrant corrective action. Among its 
recommendations:

        <bullet> A new Assistant Secretary of Defense for deterrence to 
        oversee nuclear management; and
        <bullet> Develop and maintain a strategic roadmap to modernize 
        and sustain our nuclear forces.

    I will be evaluating all of the Schlesinger Commission 
recommendations along with the new Service Secretaries and Defense 
team.

                     DEFENDING SPACE AND CYBERSPACE

    The full spectrum of U.S. military capabilities on land, sea, and 
air now depend on digital communications and the satellites and data 
networks that support them. Our communications, navigation, weather, 
missile warning, surveillance, and reconnaissance systems rely on 
unfettered access to space. At the same time, more nations--about 60 in 
all--are active in space, and there are more than 800 satellites in 
orbit. The importance of space defense was highlighted during my first 
year in this job when the Chinese successfully tested an anti-satellite 
weapon.
    In an effort to maintain our technological edge and protect access 
to this critical domain, we will continue to invest in joint space-
based capabilities such as infrared systems and global positioning 
systems. Air Force Space Command has nearly 40,000 personnel dedicated 
to monitoring space assets and is training professionals in this career 
field.
    With cheap technology and minimal investment, current and potential 
adversaries operating in cyberspace can inflict serious damage to DOD's 
vast information grid--a system that encompasses more than 15,000 
local, regional, and wide-area networks, and approximately 7 million 
information technology devices. DOD systems are constantly scanned and 
probed by outside entities, but we have developed a robust network 
defense strategy. We will continue to defend our systems against 
network attacks, intrusions, and other incidents.
    It is noteworthy that Russia's relatively crude ground offensive 
into Georgia was preceded by a sophisticated cyber attack. The massive 
cyber attack suffered by Estonia in 2007, which I discussed with our 
partners during a recent visit there, illustrates how quickly malicious 
hackers can bring even a technologically-sophisticated government to a 
standstill. To learn from this experience and share technological know-
how, the U.S. Government is co-sponsoring the NATO Cooperative Cyber 
Defense Center of Excellence.

                          WARTIME PROCUREMENT

    When we are at war, I believe the overriding priority of the DOD 
and military Services should be to do everything possible to provide 
troops in the field everything they need to be successful. To place our 
defense bureaucracies on a war footing with a wartime sense of urgency, 
I have accelerated procurement of a number of capabilities, notably:

        <bullet> Intelligence, surveillance, and reconnaissance (ISR)--
        specifically, Unmanned Aerial Systems (UASs); and
        <bullet> Mine Resistant Ambush Protected (MRAP) vehicles.

    UASs have become one of the most critical capabilities in our 
military. They give troops the tremendous advantage of seeing full-
motion, real-time, streaming video over a target--such as an insurgent 
planting an improvised explosive device (IED). Last April, I launched a 
Department-wide taskforce to speed additional UASs to theater and to 
ensure we were getting maximum use out of the assets already there. 
Since then, the Air Force has:

        <bullet> Increased Predator air patrols by nearly 30 percent;
        <bullet> Opened a second school to train personnel on UASs;
        <bullet> Created a career track for UASs; and
        <bullet> For the first time, allowed non-rated officers to 
        operate UASs.

    We've also seen how relatively low cost, off-the-shelf technology 
can have a huge impact on the battlefield. The Army's Task Force Odin 
resulted in a dramatic increase in the amount of full-motion video 
available to commanders in Iraq. We are in the process of trying to 
replicate those successes in Afghanistan. As part of the effort to 
increase ISR, we are fielding more than 50 turboprop aircraft outfitted 
with sensors.
    In Iraq, the majority of our combat deaths and injuries have been a 
result of road-side bombs, IEDs, and explosively-formed penetrators. 
The casualty rate from an attack on an MRAP vehicle is less than one-
third that of Humvees, and less than half that of an Abrams tank. In 
May 2007, I directed the Department to make MRAP vehicles our top 
acquisition priority, and, with extraordinary help from Congress, the 
Department has sent more than 12,000 MRAP vehicles to theater. The Army 
is currently developing a lighter version of the MRAP vehicle better 
suited for the difficult terrain of Afghanistan.
    The MRAP vehicle and ISR experiences raise a broader concern about 
wartime acquisition. In the past, modernization programs have sought a 
99 percent solution over a period of years, rather than a 75 percent 
solution over a period of weeks or months. Rather than forming ad hoc 
groups to field capabilities like UASs and MRAP vehicles, we must 
figure out how to institutionalize procurement of urgently-needed 
resources in wartime.
    One option is to continue to spin out components of large-scale, 
long-term modernization projects in real time for early field testing 
and use in ongoing operations, then fold the results into longer-term 
product development. We are doing so in Afghanistan and Iraq with Small 
Unmanned Ground Vehicles, a component the Army's Future Combat Systems 
(FCSs) used to clear caves, search bunkers, or cross minefields. Such 
field testing ensures that a program like FCS--whose total cost could 
exceed $200 billion if completely built out--will continue to 
demonstrate its value for both conventional and unconventional 
scenarios.

                          DEFENSE ACQUISITION

    As I focused on the wars these past 2 years, I ended up punting a 
number of procurement decisions that I believed would be more 
appropriately handled by my successor and a new administration. Well, 
as luck would have it, I am now the receiver of those punts--and in 
this game there are no fair catches.
    Chief among institutional challenges facing the Department is 
acquisitions--broadly speaking, how we acquire goods and services and 
manage the taxpayers' money. Congress, and this committee in 
particular, have rightly been focused on this issue for some time. The 
economic crisis makes the problem even more acute. Allow me to share a 
few general thoughts.
    There are a host of issues that have led us to where we are, 
starting with longstanding systemic problems:

        <bullet> Entrenched attitudes throughout the government are 
        particularly pronounced in the area of acquisition: a risk-
        averse culture, a litigious process, parochial interests, 
        excessive and changing requirements, budget churn and 
        instability, and sometimes adversarial relationships within the 
        DOD and between DOD and other parts of the government.
        <bullet> At the same time, acquisition priorities have changed 
        from Defense Secretary to Defense Secretary, administration to 
        administration, and Congress to Congress--making any sort of 
        long-term procurement strategy on which we can accurately base 
        costs next to impossible.
        <bullet> Add to all of this the difficulty in bringing in 
        qualified senior acquisition officials. Over the past 8 years, 
        for example, the DOD has operated with an average percentage of 
        vacancies in the key acquisition positions ranging from 13 
        percent in the Army to 43 percent in the Air Force.

    Thus the situation we face today, where a small set of expensive 
weapons programs has had repeated--and unacceptable--problems with 
requirements, schedule, cost, and performance.
    While the number of overturned procurements as a result of protests 
remains low in absolute numbers--13 out of more than three and a half 
million contract actions in fiscal year 2008--highly publicized issues 
persist in a few of the largest programs. The same is true of cost 
over-runs, where five programs account for more than half of total cost 
growth. The list of big-ticket weapons systems that have experienced 
contract or program performance problems spans the Services: the Air 
Force tanker, CSAR-X, VH-71, Osprey, FCS, Armed Reconnaissance 
Helicopter, Littoral Combat Ship, Joint Strike Fighter, and so on.
    Since the end of World War II, there have been nearly 130 studies 
on these problems--to little avail. I mention all this because I do not 
believe there is a silver bullet, and I do not think the system can be 
reformed in a short period of time--especially since the kinds of 
problems we face date all the way back to our first Secretary of War, 
whose navy took three times longer to build than was originally planned 
at more than double the cost.
    That said, I do believe we can make headway, and I have already 
begun addressing these issues:

        <bullet> First, I believe that the fiscal year 2010 budget must 
        make hard choices. Any necessary changes should avoid across-
        the-board adjustments, which inefficiently extend all programs.
        <bullet> We have begun to purchase systems at more efficient 
        rates for the production lines. I believe we can combine budget 
        stability and order rates that take advantage of economies of 
        scale to lower costs.
        <bullet> I will pursue greater quantities of systems that 
        represent the ``75 percent'' solution instead of smaller 
        quantities of ``99 percent,'' exquisite systems.
        <bullet> While the military's operations have become very 
        joint--and impressively so--budget and procurement decisions 
        remain overwhelmingly service-centric. To address a given risk, 
        we may have to invest more in the future-oriented program of 
        one service and less in that of another service--particularly 
        when both programs were conceived with the same threat in mind.
        <bullet> We must freeze requirements on programs at contract 
        award and write contracts that incentivize proper behavior.
        <bullet> I feel that many programs that cost more than 
        anticipated are built on an inadequate initial foundation. I 
        believe the Department should seek increased competition, use 
        of prototypes, and ensure technology maturity so that our 
        programs are ready for the next phases of development.
        <bullet> Finally, we must restore the Department's acquisition 
        team. I look forward to working with Congress to establish a 
        necessary consensus on the need to have adequate personnel 
        capacity in all elements of the acquisition process. On that 
        note, I thank you for continuing to give us the funding, 
        authorities, and support to sustain our growth plan for the 
        defense acquisition workforce.

                               CONCLUSION

    As we look ahead to the important work that we have in front of us, 
I would leave you with the following thoughts.
    I have spent the better part of the last 2 years focused on the 
wars we are fighting today, and making sure that the Pentagon is doing 
everything possible to ensure that America's fighting men and women are 
supported in battle and properly cared for when they return home.
    Efforts to put the bureaucracy on a war footing have, in my view, 
revealed underlying flaws in the institutional priorities, cultural 
preferences, and reward structures of America's defense establishment--
a set of institutions largely arranged to plan for future wars, to 
prepare for a short war, but not to wage a protracted war. The 
challenge we face is how well we can institutionalize the irregular 
capabilities gained and means to support troops in theater that have 
been, for the most part, developed ad hoc and funded outside the base 
budget.
    This requires that we close the yawning gap between the way the 
defense establishment supports current operations and the way it 
prepares for future conventional threats. Our wartime needs must have a 
home and enthusiastic constituencies in the regular budgeting and 
procurement process. Our procurement and preparation for conventional 
scenarios must, in turn, be driven more by the actual capabilities of 
potential adversaries, and less by what is technologically feasible 
given unlimited time and resources.
    The choices we make will manifest themselves in how we train, whom 
we promote, and, of course, how we spend. As I mentioned, President 
Obama will present his budget later this spring. One thing we have 
known for many months is that the spigot of defense funding opened by 
September 11 is closing. With two major campaigns ongoing, the economic 
crisis and resulting budget pressures will force hard choices on this 
department.
    But for all the difficulties we face, I believe this moment also 
presents an opportunity--one of those rare chances to match virtue to 
necessity. To critically and ruthlessly separate appetites from real 
requirements--those things that are desirable in a perfect world from 
those things that are truly needed in light of the threats America 
faces and the missions we are likely to undertake in the years ahead.
    As I've said before, we will not be able to ``do everything, buy 
everything.'' While we have all spoken at length about these issues, I 
believe now is the time to take action. I promise you that as long as I 
remain in this post I will focus on creating a unified defense strategy 
that determines our budget priorities. This is, after all, about more 
than just dollars: It goes to the heart of our national security.
    I will need help from the other stakeholders--from industry, and 
from you, the Members of Congress. It is one thing to speak broadly 
about the need for budget discipline and acquisition reform. It is 
quite another to make tough choices about specific weapons systems and 
defense priorities based solely on national interests, and then to 
stick to those decisions over time. The President and I need your help 
as all of us together do what is best for America as a whole in making 
those decisions.
    I have no illusions that all of this will be solved while I am at 
the Pentagon. Indeed, even if I am somewhat successful on the 
institutional side, the benefits of these changes may not be visible 
for years. My hope, however, is to draw a line and make systemic 
progress--to put the Department on a glide path for future success.
    I look forward to working with each of you to gain your insight and 
recommendations along the way. Once more, I thank you for all you've 
done to support the DOD and the men and women wearing our Nation's 
uniform.
    I look forward to your questions.

    Chairman Levin. Thank you, Mr. Secretary.
    We're going to have a 6-minute round of questions. We have 
a lot of members here. I don't know that we'll be able to get 
to a second round. That's going to depend on how quickly the 
first round goes. But we'll have to limit the first round to 6 
minutes.
    Mr. Secretary, what is the relationship between the speed 
of our force drawdown in Iraq and the speed of our force 
increase in Afghanistan? Let me put it another way more 
specifically. What is the earliest that a first, second, third, 
and fourth additional combat brigade can deploy to Afghanistan, 
and why is this driven by our force rotation strategy in Iraq?
    Secretary Gates. Mr. Chairman, at this point I think that 
we are actually in a position to address most of General 
McKiernan's requirements in the relatively near future. Should 
the President make the decision to, the final decision to 
deploy additional brigades to Afghanistan, we could have two of 
those brigades there probably by late spring and potentially a 
third by mid-summer.
    Quite honestly, in terms of the remaining requests that he 
has, the infrastructure requirements that are needed in 
Afghanistan, to be able to support and sustain a force that 
size would probably make it not possible for us to deploy them 
before they would be ready in any event later this year.
    Chairman Levin. Thank you.
    The SOFA with Iraq requires that U.S. forces withdraw from 
Iraqi cities and towns by the end of June. Approximately how 
many of the 140,000 troops that we have in Iraq are affected by 
that repositioning requirement?
    Secretary Gates. I don't know the answer to that, Mr. 
Chairman. I'll get it for you.
    [The information referred to follows:]

    The Status of Forces Agreement (SOFA) requires that combat forces 
withdraw from Iraqi cities and towns by the end of June. Withdrawing 
U.S. combat forces from Iraqi cities will impact approximately 13,000 
U.S. troops.
    In order to comply with that provision in the SOFA, as well as 
other provisions related to forces and basing, the United States and 
Iraq have established two joint subcommittees within the SOFA committee 
framework: the Joint Subcommittee for Agreed Facilities and Areas and 
the Joint Subcommittee for Military Operations, Training and Logistics 
to negotiate, among other items, specific procedures for the turnover 
of bases and the repositioning of U.S. forces. Because those 
negotiations are ongoing, it has not yet been determined precisely how 
many U.S. forces or which bases will be affected by the requirement to 
reposition forces.
    We have been working and will continue to work with the Government 
of Iraq (GOI) to ensure full compliance with all provisions of the 
SOFA, including the requirement to remove combat forces from cities and 
towns within the prescribed timeline. While those negotiations are 
ongoing, U.S. forces have already begun closing some bases and turning 
others over to the GOI, including some bases that previously held U.S. 
forces within Iraqi cities and towns. We are ahead of schedule to meet 
the 30 June 2009 deadline for combat forces to be out of urban areas, 
and working on an agreement with the GOI on which bases and forces may 
remain in those areas.
    Since December 2008, Multi-National Corps-Iraq (MNC-I) has either 
closed or returned 11 bases, comprising 30 percent of the 37 bases that 
MNC-I identified in urban areas. This ongoing effort will impact 
approximately 13,000 U.S. troops. The remaining 26 bases to close or 
return remain on schedule with no issues identified to meet the June 
2009 deadline.
Supporting information:
    At risk bases in December 2008: 32 <greek-e> Contingency Operating 
Locations, 5 <greek-e> Contingency Operation Sites
    Thru 28 Feb 09 - Close/transferred 11 bases - impacting 4,000 
troops
Remaining bases:
    MND-N - 13 bases and 3,800 troops
    MND-B - 10 bases and 3,500 troops
    MNID-C - 1 base and 200 troops
    MND-SE - 1 base and 1 facility and 100 troops
    MNF-W - 1 base and 200 troops
      Total estimated troop impact = 13,000 troops

    Chairman Levin. Mr. Secretary, last month, December 9, I 
sent you two letters regarding proposed contracts that seem to 
pave the way for a significant increase in the use of private 
security contractors (PSCs) in Afghanistan. I expressed concern 
in those letters about these steps and I laid out a number of 
those concerns: the extent to which the use of deadly force to 
protect government facilities and personnel should be an 
inherently governmental function that should not be performed 
by contractors; the requirement for proper oversight and 
supervision of PSCs; what are the rules applicable under the 
law of war to PSCs who exercise deadly force?
    I urged you not to enter those contracts until those 
questions and other questions had been resolved. I haven't 
received an answer yet to those letters, but let me ask some of 
the questions here this morning.
    Do you intend to conduct the requested review of the 
appropriate use of PSCs in a battlefield situation before those 
contracts are entered into?
    Secretary Gates. We will probably be doing them 
simultaneously, Mr. Chairman. We have the need for these 
protective capabilities in Afghanistan. They guard convoys, 
they guard some of our facilities. Frankly, until we can get 
additional U.S. troops into Afghanistan these capabilities are 
necessary. We are creating the supervisory structure in Iraq 
that we developed over the course of the last year--I'm sorry, 
in Afghanistan, that we developed over the course of the last 
year or so, in Iraq to ensure that the commander on the field 
sets the guidelines and the rules for the employment of these 
security forces.
    I would say that, of all the security forces, contract 
security forces in Afghanistan at this point, I think only nine 
are U.S. citizens. The rest or almost all the rest are Afghans.
    Chairman Levin. If we could get quick answers to those 
letters of mine, I'd appreciate it.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Wall Street Journal reported this morning that the U.S. 
military has come into conflict with PSCs in Afghanistan, 
Afghan-hired companies, on a number of occasions. According to 
the article, these PSCs have generally been hired either by 
Afghan authorities or by private companies, and that some of 
the employees may actually be taking orders from Taliban 
forces.
    How serious a problem do you think this is?
    Secretary Gates. This is the first I've heard of it, Mr. 
Chairman. Let me check into it.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Thank you.
    Last week, the Pakistan Foreign Ministry issued a statement 
calling U.S. missile strikes on population territory 
counterproductive and requesting that they be discontinued. 
What's your reaction to that?
    Secretary Gates. I think that the strikes that are being 
undertaken are--well, let me just say both President Bush and 
President Obama have made clear that we will go after al Qaeda 
wherever al Qaeda is, and we will continue to pursue that.
    Chairman Levin. Has that decision been transmitted to the 
Pakistan Government?
    Secretary Gates. Yes, sir.
    Chairman Levin. Secretary Gates, some time ago, I think it 
was end of 2007, you had discussions with your Russian 
counterpart on proposals for missile defense cooperation, at 
least the possibilities of that cooperation, and certain 
proposals were formulated with the assistance of your 
Department, that were then presented to Russia.
    Would you support further exploration with the Russians of 
a possible cooperative arrangement in the area of missile 
defense?
    Secretary Gates. Sure. I think that there's real potential 
there. I've outlined it to, first to President Putin and 
subsequently to President Medvedev. I think there are some real 
opportunities here. Russia is clearly not the target of our 
missile defense endeavors. Iran is. We have a mutual concern 
there. I think the Russians have an unrealistic view of the 
time line when an Iranian missile with the range to attack much 
of Russia and much of Europe will be available. But I am very 
open to the idea of pursuing further cooperation on missile 
defense with Russia.
    Chairman Levin. Is that also the position of the Obama 
administration as far as you know?
    Secretary Gates. Frankly, the subject has not been 
discussed as far as I know. I expect it'll be on the agenda 
here pretty soon.
    Chairman Levin. I had a very brief discussion with the 
Secretary, the new Secretary of State, on this subject and I 
think her thoughts are very similar to yours, and I think 
that's good news.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Secretary, how large do you believe the ANA should be?
    Secretary Gates. Well, we have, working with the Afghans, 
have just agreed to an increase in the size of the Afghan army 
from a nominal 80,000 to 134,000. I'm not sure that even that 
number will be large enough, but I believe that our highest 
priority needs to be increasing the size of that army and 
training, and that army. I think we have money in the budget, 
in the budget submissions that we have made, that would help us 
accelerate that growth.
    Senator McCain. That's a vital ingredient in any 
comprehensive strategy for success in Afghanistan, a 
dramatically increased Afghan army.
    Secretary Gates. I couldn't agree more, Senator McCain.
    I think that, as I've told our European allies, ultimately 
a strong ANA and a capable, reasonably honest ANP represents 
the exit ticket for all of us.
    Senator McCain. Do you agree with the facts on the ground 
that in Helmand and Kandahar Province the Taliban basically 
operates fairly freely?
    Secretary Gates. I must confess, Senator, that I get 
different readings on the freedom of action that they have and 
the success that they have between analysts here in Washington 
and what I hear  when  I  go  into  the  field.  When  I  
visited  Kandahar  late  last  year,  all  of  the  commanders  
in  Regional  Command-South  (RC-South) told me: ``The 
situation here is no worse; it's just different.''
    I'm not quite sure entirely what that means, but I believe 
that the relatively open border that the chairman talked about 
and the ability of not just the Taliban, but other insurgent 
groups, to cross that border easily have created an environment 
in which the Taliban have greater freedom of action than 
they've had in the last couple of years.
    Senator McCain. I think it's indicated by the charts that 
map out the increases in attacks, particularly along the Ring 
Road, that the Taliban attacks have been significantly 
increased, particularly over the last 2 or 3 years. Do you have 
any evidence that there are more or fewer Iranian-made weapons 
or explosively-formed penetrator components going into Iraq?
    Secretary Gates. My impression from the intelligence that I 
have seen is that there is some modest increase, but overall 
the number of Iranian weapons going into Afghanistan remains at 
a relatively small level.
    Senator McCain. What can you tell us about Iranian 
involvement in Afghanistan?
    Secretary Gates. I think the Iranians are trying to have it 
both ways, to cultivate a close relationship with Afghanistan 
and the Afghan Government for both political and economic 
reasons and at the same time impose the highest possible costs 
on ourselves and on our coalition partners.
    Senator McCain. How serious is the issue of corruption in 
the Afghan Government and society?
    Secretary Gates. It is a very serious problem.
    Senator McCain. It reaches the highest levels of 
government?
    Secretary Gates. I don't know about the highest levels of 
government, but it certainly reaches into high levels of 
government.
    Senator McCain. We won't be able----
    Secretary Gates. But it actually is as much the 
pervasiveness as it is the level of officials that are involved 
in the corruption that I think is a concern.
    Senator McCain. We agree we won't be able to achieve our 
goals in Afghanistan without addressing the drug problem?
    Secretary Gates. I think that's right, and I think that 
that was one of the reasons why at the defense ministerial last 
December Minister Wardak, on behalf of the Afghan Government, 
requested NATO's help in going after the drug lords and the 
rules of engagement (ROE) for those NATO nations willing to 
participate. He said that where there's a link between drug 
lords and drug labs and support for the Taliban that their 
troops were authorized to go after them both.
    Senator McCain. Thank you.
    Do you have all the legislative authorities you require to 
go after the drug labs and the drug lords in Afghanistan?
    Secretary Gates. We have changed our own ROE just in recent 
weeks to try and make sure that our commanders have that 
authority. I think we ought to let it play out for a few months 
and if we find that we need legislative help we'll be right up 
here asking for it.
    Senator McCain. Do you believe we can count on the Afghan 
central government to seriously address the drug problem during 
the upcoming election period?
    Secretary Gates. Probably not.
    Senator McCain. Is it going to take some pretty careful 
balancing of withdrawals from Iraq and at the same time a 
buildup in Afghanistan to prevent a very difficult stress on 
our combat troops?
    Secretary Gates. It does require a careful balancing, but I 
think we are on the right path. The estimates that I've been 
given are that by the end of fiscal year 2009 we should be in a 
position where our brigade combat teams have a year deployed 
and 15 months at home, in fiscal year 2010 a year deployed, 2 
years at home, and by fiscal year 2011 a year deployed, 30 
months at home.
    So I think we're on the right track. The next few months 
will continue to be hard. The last units that have the 15 month 
deployments will be coming home I think by late spring or early 
summer.
    Senator McCain. I thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thank you, Secretary Gates. Welcome back. Thanks for coming 
back.
    I'd like to begin with a few questions about Iraq. I 
appreciate what you said in your opening statement, that we've 
taken important steps forward in the orderly drawdown of the 
American presence, that American military involvement is 
winding down. Even so, words of caution. There's still the 
potential for setbacks. This is not an irreversible situation.
    I know that last week President Obama convened the NSAs and 
there was discussion about the pace of withdrawal. I gather 
that you have been charged, along with our military leaders, to 
consider various options for withdrawal from Iraq. Could you 
describe those to the committee?
    Secretary Gates. Well, I would just say that there is--we 
are working on a range of options for the President that range 
from a withdrawal of--essentially, a completion of the work of 
the brigade combat teams and a translation to an assist and 
advisory role, beginning in 16 months and then at various 
intervals proceeding further forward from that. We're drawing 
those out for him along with the risks attendant to each.
    Senator Lieberman. So my interpretation of your comments is 
that the plans range from the 16 months where there would be no 
combat forces left in Iraq to an outer point at the end of 
2011, corresponds with the end of the SOFA?
    Secretary Gates. Yes, we're looking at all of those.
    Senator Lieberman. Previously, many of us on this committee 
urged you and others to give a lot of attention and respect 
with regard to decisions of action in Iraq to the commanders on 
the ground. I assume, but I wanted to ask you, that General 
Odierno will have a significant part of the discussion of the 
various options for withdrawal from Iraq?
    Secretary Gates. Senator, it's been my approach since I 
took this job that on all these major decisions I believe it is 
important for the President to hear directly from his senior 
military commanders. So in every one of these decisions I have 
structured a process so that the President hears from the 
ground commander, who would be General Odierno, the Central 
Command (CENTCOM) Commander, General Petraeus in this case, and 
the Joint Chiefs of Staff, and then from the Chairman and 
myself.
    President Obama has agreed to that same kind of approach. I 
think you've read in the newspapers he's coming over to the 
Pentagon tomorrow to meet with the Chiefs. So I believe the 
President will have had every opportunity to hear quite 
directly from his commanders about what they can accomplish and 
what the attendant risks are under different options.
    Senator Lieberman. That's very reassuring. I thank you for 
that.
    Let me ask a quick question or two about Afghanistan. 
Clearly one of the lessons we all learned, as your testimony 
indicates this morning, is that there's no purely military 
solution to these kinds of conflicts, Iraq or Afghanistan, and 
one of the great prefaces to our success in Iraq was the 
development of a nationwide civil-military plan. It's my 
impression from my last trips to Afghanistan, twice last year, 
that there still is no nationwide joint civil-military plan in 
Afghanistan. Am I right about that, and if so why, and when can 
we expect one?
    Secretary Gates. Well, I think that part of the problem 
that we face in Afghanistan is also a reflection of our 
success. That is the number of partners that we have. As I 
mentioned in my testimony, we have 40 some countries, the U.N., 
the EU, NATO, hundreds of NGOs. So there are a lot of people 
trying to help Afghanistan come out right. But figuring out how 
to coordinate all of that and then how to coordinate it with 
the military operations is a very complex business, and I think 
a lot of the reviews that have been going on toward the end of 
the last administration and now under this administration is to 
figure out how do we get at that problem.
    Our hope had been that--and I must say still has to be--
that the U.N. Senior Special Representative, Ambassador Kai 
Eide, is perhaps in the best position to do this and finally, 
after long delays, he has begun to get both the financial and 
human resources from the U.N. that would enable him to do this.
    We're also trying an experiment in RC-South where all of 
the Nations who are participating in the security operations in 
RC-South have committed to build a civil-military cell in the 
headquarters of RC-South that would have civilian 
representatives from each of our Governments, where there could 
be better coordination of the civilian-military operations.
    So I think we're going to have to experiment with some of 
these things. But unlike in Iraq, where Ambassador Crocker and 
General Petraeus were essentially able to put together an 
integrated strategy because we were doing most of the work, the 
situation is much more complex in Afghanistan.
    Senator Lieberman. But you would say that ideally we should 
be moving toward a unified and joint civil-military plan for 
the whole country in Afghanistan?
    Secretary Gates. Absolutely.
    Senator Lieberman. A final question, very different. We're 
obviously focused very much on an economic stimulus program 
here in Congress now. We're looking directly at infrastructure 
spending around the country because it's so-called ``shovel-
ready,'' creates jobs and moves throughout the economy. There 
has been discussion about whether some defense projects might 
also fit into that. The standard that President Obama has laid 
out creates jobs, would be quick to go into the economy, and be 
consistent with national goals.
    I'm wondering how you feel about that. I'm not thinking 
about getting into controversial programs, but things we're 
going to have to spend money on anyway over the next 5, 6, or 7 
years. Should we be thinking about accelerating investments in 
those programs now?
    Secretary Gates. We were asked to make a submission to the 
White House of programs that fell within the guidelines of 
being able to be started within a matter of months. We have 
given them some suggestions in terms of military hospitals, 
clinics, barracks, some child care centers, and things like 
that, where we think the work could begin right away or is 
already underway and could be accelerated.
    Senator Lieberman. Well, I appreciate that. I hope that we 
on the Senate side--I know in the House the number of military 
projects in the stimulus is small relative to the size of the 
package, and I hope we'll take another look at your list and 
see if we can add some more.
    Thank you very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    To maximize my time, let me just ask unanimous consent that 
the very kind remarks I made about Secretary Gates at the time 
of his departure be made a part of the record today.
    Chairman Levin. Without objection.
    [The information referred to follows:]

    Secretary Gates, before I begin my questions, I add my personal 
thanks to those already given by the chairman. You took office during 
an uncertain time in the war in Iraq and successfully spearheaded plans 
that have brought the stability that country enjoys today. You improved 
conditions at the Walter Reed Army Medical Center, making the necessary 
changes in personnel and practices. I salute you for not just saying 
that we have no higher priority than taking care of our wounded 
warriors but for following through on those words. Finally, you 
consistently listened to your commanders on the ground and gave credit 
to military and their leaders for the success in Iraq, especially 
Generals Petraeus and Odierno. You have done well and I wish you and 
your family all the best in your future endeavors.

    Senator Inhofe. Secretary Gates, last July you had--I never 
quite understood the position that you were taking relative to 
increasing the State Department's authority and perhaps their 
budget in terms of things that are quasi-military. Do you have 
any thoughts on that that you'd like to share with us for 
clarification?
    The reason I ask that, there are some programs I feel very 
strong about, strongly about, such as the International 
Military Education and Training (IMET) program, which was at 
one time a program that had certain requirements. The idea was, 
we're doing these countries a favor by training their people, 
which I think they're doing us a favor, and then the expansion 
of the 1206, 1207, 1208 train and equip, that these should 
remain as DOD run programs.
    Secretary Gates. I continue to agree with that. I think 
they should be funded through the DOD. Program 1206 is 
basically a dual-key program, where nothing goes forward 
without the support of the Department of State, the Secretary 
of State. We've done a lot of good things with that program in 
Lebanon, Malaysia, Indonesia, the Philippines, and elsewhere.
    Program 1207 is more an initiative for the State 
Department, but where the funding is in the DOD and we work 
cooperatively with the State Department in implementing those 
programs. Of course, 1208 has to do with Special Forces and 
training.
    So I think these are all very important programs and I 
think that the approach that has been taken, heretofore, in the 
way they've been managed, is the way they ought to continue to 
be managed.
    Senator Inhofe. That's good.
    I've been concerned, as all of us have been up here, with 
some of our ground capabilities, where we have the Abrams tank 
and we have the Bradley Assault Vehicle, the Paladin, the 
Stryker, all on different chassis and all of that. Then along 
came the Future Combat System (FCS), and I think that there has 
been a lot of discussion on it. It is on track right now where 
we will have all of these systems with the same common chassis. 
It seems to be working pretty well right now.
    Do you maintain your commitment? I know tough decisions 
have to be made, but I'd like to know where you would rank the 
FCS in your priorities?
    Secretary Gates. Well, one of the useful things that I 
think the Army did last summer or fall was to reexamine the FCS 
and see what capabilities being developed in FCS could be 
accelerated and spun out for the use of forces in the field 
today. I have seen some of those capabilities down at Fort 
Bliss.
    I think that in terms of the longer lead time items, along 
with many other large-scale weapons systems, we're going to 
have to take a close look at it and take a look at the other 
elements of FCS. As we do the major programs of the other 
services, see what can be made available, what is useful in 
this spectrum of conflict from what I would call hybrid complex 
wars to those of counterinsurgency, where you may encounter 
high-end capabilities that have been sold to some of our 
adversaries by near-peers, but they are in use in a conflict 
such as we face in Afghanistan or in Iraq or perhaps elsewhere.
    So I think all these things are going to have to be looked 
at. I don't think anything's off the table at this point.
    Senator Inhofe. I've appreciated some of the comments that 
General Chiarelli has made concerning this. An area that has 
not been brought up yet that I have a particular interest in is 
AFRICOM. Of course, we worked through several years of the 
continent of Africa being under the Pacific Command (PACOM), 
the CENTCOM, and European Command. Now we have our own AFRICOM, 
which I think is long overdue, but I'm glad we do.
    However, I'm concerned with all the problems that are 
there, that with the squeeze of terrorism in the Middle East 
and a lot of it going down through Djibouti and the Horn of 
Africa, that there are serious problems there. Everyone talks 
about the Sudan, they're familiar with that, but there are 
other problems like Joseph Kony and the Lord's Resistance Army 
and what's happening with Mugabe down there.
    My concern with AFRICOM is it doesn't seem as if they have 
the resources that they need. I know there's a lot of 
competition for these resources. General Ward is doing a great 
job, General Wald before him was, and of course Admiral Mueller 
is right in the middle of this. I would like to ask you to 
maybe have your people evaluate the potential in AFRICOM and 
then see what kind of resources they need.
    Right now I know that they don't even have an airplane down 
there to get back and forth. A lot of us had thought that the 
headquarters should have been in Ethiopia or someplace on the 
continent. However there's resistance down there to that.
    So do you have any thoughts about AFRICOM and about their 
lack of resources and how we might address that?
    Secretary Gates. Well, it's a reality that we're having to 
deal with. I would say this, though. As we have tried to help 
African countries understand what we have in mind with AFRICOM 
and the role that we would like for it to play in terms of 
helping them create more democratically oriented, better 
trained internal security and military forces and train them 
for peacekeeping, train them to deal with humanitarian 
missions, and so forth. Clearly our eagerness to present a 
military face in terms of civil conflicts or conflicts between 
states down there has been important.
    Now, when it comes to al Qaeda I think General Ward does 
have the resources that he needs in the Horn of Africa and 
elsewhere. But this is something that we will have to continue 
to look at.
    I would say with respect to the headquarters, I made the 
decision to leave the headquarters in Europe for the time, for 
a 3 year period, because it seems to me what's key for AFRICOM 
now is building relationships in Africa, and in 3 years we may 
have a better idea of the kinds of relationships with other 
countries that will allow us to move the headquarters of 
AFRICOM onto the continent. I don't think that's possible right 
now, so I didn't want to make a permanent decision about moving 
the headquarters back to the United States.
    Senator Inhofe. I think you did the right thing and I 
appreciate that. But frankly, when you talk to President 
Museveni and some of the presidents of these countries, they 
think it would function better down there, but they can't sell 
it to their own people. So that is where we are now.
    My time has expired, but I hope you got the message I left 
at your office that, while there are a lot of us on this panel, 
and the President has talked about the closing of Guantanamo, 
some of us don't think that's a good idea and we want to at 
least be heard as well as the other side.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    First, Mr. Secretary, let me join my colleagues in thanking 
you for your continued selfless service to the Nation and the 
men and women who wear the uniform of the United States, and 
extend that appreciation to your family, who in a very real 
sense serve with you. This is a singular act of patriotism.
    We have many challenges and you have many challenges. With 
respect to the transfer of resources from Iraq to Afghanistan, 
it seems that it's not just a question of numbers of troops, 
but it's also a question of the types of forces--engineers, 
civil affairs, military police, those enablers that really 
increase your effectiveness on the ground, and particularly 
equipment like UAVs, which might in fact go a long way to help 
the situation there.
    Is there any thought of not just sheer numbers, but 
increasing specialized units, increasing the number of UAVs, 
special requests for that?
    Secretary Gates. We have pretty dramatically increased the 
number of ISR platforms in Afghanistan over the past 6 or 8 
months. We are now in the process of standing up an Afghan 
equivalent to Task Force Observe, Detect, Identify, and 
Neutralize that in Iraq enjoyed considerable success in 
locating Improvised Explosive Devices (IEDs) and people 
planting IEDs. We're establishing that kind of capability. It 
began last month to stand up in Afghanistan, particularly 
focusing on the Ring Road.
    The question you raise really is the more difficult 
question raised by the chairman in his question in terms of the 
tradeoffs. The tradeoff difficulty has been less actually at 
the brigade combat teams and the Marine regiments than it has 
been the enablers, the rotary lift capability, ISR, engineers, 
and so on. That's where we've been working very hard in terms 
of what can we afford to move from Iraq to Afghanistan or 
remission instead of going to Iraq to go to Afghanistan.
    Frankly, I think this is for the Joint Forces Command and 
the folks on the Joint Staff, the biggest challenge about 
strengthening our forces in Afghanistan, is really where to get 
these enablers to ensure that the troops have what they need.
    An aspect of this, for example, that I'm wrestling with 
right now. Philosophically or in terms of the regulations or 
however you want to put it, we have a different standard for 
medical evacuation (MedEvac) in Afghanistan than we do in Iraq. 
In Iraq our goal is to have a wounded soldier in a hospital in 
an hour. It's closer to 2 hours in Afghanistan. So what we've 
been working on the last few weeks is how do we get that 
MedEvac standard in Afghanistan down to that golden hour.
    Where our forces are thicker, in RC-South and RC-East, 
that's probably more manageable than in the more scattered 
areas of the north and west. But it's an example of the kind of 
enablers and the kinds of support capabilities where we're 
having to make some tough choices.
    Senator Reed. Another aspect, there are so many with 
respect to Afghanistan, but when there are incidents in combat 
actions with collateral casualties, disputes about whether 
they're civilians or whether they're just combatants, I think 
having more of these type of enablers, particularly the 
intelligence platforms, the UAVs, might minimize that. Is that 
something that you've considered?
    Secretary Gates. I think it would help. The truth of the 
matter is I think 40 percent of the air missions that are 
called in are called in by our allies, because they don't have 
enough forces there. So this is not strictly an American 
problem, if you will.
    But I will tell you that I believe that the civilian 
casualties are doing us enormous harm in Afghanistan, and we 
have to do better in terms of avoiding casualties. I say that 
knowing full well that the Taliban mingle among the people, use 
them as barriers. But when we go ahead and attack, we play 
right into their hands. We have to figure out a better way to 
do these things or to have the Afghans in the lead, because my 
worry is that the Afghans come to see us as part of their 
problem rather than part of their solution, and then we are 
lost.
    Senator Reed. Mr. Secretary, you stress continuously that 
this is an interagency effort, that military action will buy 
time, but without effective economic development, political 
institution capacity-building, it will be a very difficult 
challenge ahead. Can we expect legislative proposals and budget 
proposals to truly energize other Federal agencies, the 
Department of Justice, Department of Agriculture, et cetera? 
Are you and your colleagues in the Cabinet working on that?
    Secretary Gates. I have not yet had the opportunity to sit 
down with Secretary Clinton and the others, but my impression 
is that the Department of State is in fact going to have some 
proposals that will be made a part of the remaining part of the 
fiscal year 2009 supplemental.
    Senator Reed. Again, thank you for your service, Mr. 
Secretary.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Secretary Gates, I was participating in one of my favorite 
pastimes the other day, which is watching college basketball, 
and I happened to be watching Texas and Texas A&M, and you 
flashed through my mind and that you could have been sitting 
there watching that basketball game instead of coming out of 
the private sector and serving your country again, and for that 
we are all grateful.
    Secretary Gates. Probably a lot less stress here, Senator. 
[Laughter.]
    Senator Chambliss. They were wearing you out pretty good. 
Your Aggies were struggling.
    I could spend all my time talking to you about the F-22, 
but you and I have been down this road over the last couple of 
years and I know these hard choices that you're talking about 
directly implicate that program, as well as the C-17, the 
tanker program, and others. I know also that senior Air Force 
officials are going to be briefing you on these programs and 
their recommendations over the next couple of weeks.
    So I'm not going to dwell on that, except to say, along the 
lines of what Senator Lieberman alluded to, and that is from a 
stimulus standpoint. We are wrestling with an issue that's 
entirely outside the Pentagon relative to stimulating this 
economy. But if you take any one of these programs--and I just 
cite the F-22 program as an example. If we shut down that line, 
we're talking about the loss of 95,000 jobs on top of the other 
woes that we are looking at in the economy right now.
    While there were a number of folks during the campaign who 
talked about reduction in the defense budget, I would argue 
very strongly for the opposite, that if we truly want to 
stimulate the economy there is no better place to do it than in 
defense spending. When you look at the specific programs that 
are in place, you're talking about not only maintaining jobs, 
but increasing jobs. As we look at, whether it's 16 months, 22 
months or whatever, coming out of Iraq, there are going to be 
issues relative to what sort of equipment you leave there 
versus what you bring back. You have reset costs versus 
acquisition costs.
    So I think there are any number of factors that I hope you 
will discuss in great detail with the President as you talk 
about not only what we're going to do from an acquisition 
standpoint, but from a stimulus standpoint when it comes to 
truly stimulating our economy.
    I want to go back to something also that Senator McCain 
mentioned, and that is the Guantanamo issue. I am very 
skeptical of what's going to happen down there. I don't have a 
lot of confidence that the Europeans and other countries are 
going to step up and take these hardened killers that we know 
that are there. In addition to that, there's a whole separate 
issue that he alluded to somewhat and that's the issue relative 
to Bagram. I don't know whether we have any prisoners still at 
Baqubah or not, but we have thousands of prisoners in Iraq 
today that are not in Guantanamo.
    What is the thinking of this administration, entirely 
separate from Guantanamo, as to what we intend to do with those 
prisoners?
    Secretary Gates. Well, to take Iraq as an example, we have 
released probably on the order of 16 or 17,000 detainees over 
the course of the past year or so. Of course, those detainees 
under the SOFA, those that remain will fall under the 
jurisdiction of the Iraqi government pretty shortly, and we're 
working out procedures to do that.
    I'm heartened, in terms of the Afghan experience, we've 
returned probably 500 prisoners overall to Afghanistan from 
Guantanamo. The Afghans have put I think 200 of those on trial 
and have a conviction rate of about 80 percent. So I think that 
we will continue to work with the Afghan government in this 
respect. But we certainly continue to hold detainees at Bagram. 
We have about 615 there, I think something in that ballpark.
    Senator Chambliss. How many of those that have been either 
turned back to Afghanistan and not tried or have been found not 
guilty that we know have returned to the battlefield?
    Secretary Gates. I don't know the number for Afghanistan. 
The recidivism numbers that I've been told until recently from 
Guantanamo have been on the order of about 4 or 5 percent, but 
there's been an uptick in that just over the last few months.
    Senator Chambliss. May I ask you about Afghanistan. It's 
really a two-part question. I have real concerns about 
Afghanistan from a different perspective than Iraq. In Iraq at 
least we have the potential for their economy to be rejuvenated 
and I think it is being rejuvenated, primarily because of the 
natural resources that they have, versus Afghanistan where we 
don't have anything like that.
    But unless we get their economy going again, it simply is 
going to take a much longer period of time to ever hopefully 
see some sort of peaceful Afghanistan. What is your thought 
relative to the U.S. participation in stimulating that economy?
    Second, there was a quote made by John Hutton, Britain's 
defense secretary, the other day where he criticized members of 
NATO. He said they were ``freeloading on the back of U.S. 
military security.'' Do you think our NATO allies are doing 
enough, and if not what do we need to be pushing them on?
    Secretary Gates. I think that there are three areas where 
our allies need to do more. I think that there is a need for 
them to provide more caveat-free forces. I think that there is 
a need for them to provide more civilian support in terms of 
training and civil society. I also think they need to step up 
to the plate in helping to defray the costs of expanding the 
Afghan army. That cost is going to be probably $3 or $4 billion 
in the first year or 2, a steady state somewhere around $2.5 
billion. Total Afghan national government income this past year 
was probably $800 million.
    So this country is going to, as Senator McCain said, this 
is going to be a long slog. Frankly, my view is that we need to 
be very careful about the nature of the goals we set for 
ourselves in Afghanistan. My own personal view is that our 
primary goal is to prevent Afghanistan from being used as a 
base for terrorists and extremists to attack the United States 
and our allies. Whatever else we need to do flows from that 
objective. Afghanistan is the third or fourth poorest country 
in the world and if we set ourselves the objective of creating 
some sort of Central Asian Valhalla over there, we will lose 
because nobody in the world has that kind of time, patience, or 
money, to be honest.
    Now, we can help the Afghans. They are good farmers. They 
do need a lot of technical help to modernize the way they go 
about things. They have some minerals. So there is an economy 
there to be developed. But it seems to me that we need to keep 
our objectives realistic and limited in Afghanistan. Otherwise 
we will set ourselves up for failure.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Secretary, I want to add my welcome and gratitude to 
you for your leadership of our Armed Forces and look forward to 
working with you. My questions are not about Iraq and 
Afghanistan, but more about the troops. As a strong advocate 
for the readiness and quality of life for troops and their 
families, I recognize that the ability of the Armed Forces to 
attract and retain quality personnel to the future depends on 
how we meet the needs of those serving today.
    In 2008, Congress approved the Veterans Educational 
Assistance Act of 2008, which is known as the 21st Century GI 
Bill. This bill provides enhanced educational benefits for 
veterans and servicemembers who have served in our Armed Forces 
after September 11, 2001. Secretary Gates, the 21st Century GI 
Bill grants authority for servicemembers to meet certain 
criteria to transfer unused educational benefits to family 
members.
    What progress has DOD made with the VA in establishing 
policy to implement this critical part of this bill across the 
Services?
    Secretary Gates. First of all, Senator Akaka, let me say, 
with a nod to Senator Webb, I think that the bill as it finally 
was passed really hit the sweet spot. Obviously, the economy is 
helping us in recruitment over the last number of months, but 
the surveys we've taken indicate that the enhanced educational 
benefits have contributed to a greater willingness to enlist 
and to enter the Armed Forces.
    But the transferability provision that you just cited is 
also an incentive in terms of retention, in terms of people 
seeing this as an opportunity for their spouses or their 
children. My understanding, I'm not exactly familiar, and we 
can get you a precise answer, but my understanding is that the 
transferability provisions are set to be put into practice this 
fall, that the procedures are being worked out right now and 
that the first availability of that transferability provision 
would be this fall.
    Senator Akaka. Yes, and we're looking forward to that 
taking place in August.
    Mr. Secretary, in May 2007, as a result of problems 
identified at Walter Reed Army Medical Center, you and the 
Secretary of Veterans Affairs established the Senior Oversight 
Committee (SOC) to address the concerns of the treatment of 
wounded, ill, and injured members of the armed services. Based 
upon concerns about sustaining these efforts, the 2009 National 
Defense Authorization Act directed the Departments to continue 
the SOC's activities until December 2009.
    I'm concerned that in the waning days of the Bush 
administration the effort to achieve a united effort on behalf 
of the wounded warriors became fragmented due to 
interdepartmental differences on how best to organize the SOC.
    As a result of DOD's reorganization, the VA now has to 
coordinate its efforts through multiple offices within DOD.
    I greatly value the efforts of SOC. Secretary Gates, do you 
have your commitment to work with Secretary Shinseki to get 
things back on track?
    Secretary Gates. Yes, sir, Senator. In fact, I attended 
Secretary Shinseki's swearing in and it was the first time we'd 
had a chance to talk since he had been nominated and confirmed. 
I told him at his swearing in that we needed to get the SOC 
back up and running. I told him that one of my worries, as is 
often the case with the bureaucracy, is that this thing has 
been going on now for a year or a year and a half and it's done 
some amazing things, but if you take away the energy and the 
pressure from the top these things tend to get bureaucratic and 
institutionalized again and the energy goes out of continuing 
to make changes.
    So we've just expanded the pilot program in terms of trying 
to cut the time down on the disability evaluation system. 
That's now expanded out of this metropolitan area into a number 
of other areas. So I think it's important to keep the energy 
going and the creativity in addressing the recommendations with 
respect to wounded warriors, and Secretary Shinseki and I are 
in total agreement that this special operations committee be 
continued.
    Senator Akaka. I would like to ask you, Mr. Secretary, if 
you would get back to me in 30 days to let me know how you are 
proceeding on that policy.
    Secretary Gates. Sure.
    [The information referred to follows:]

    Thank you for giving me the opportunity to provide additional 
details on the ongoing collaboration of the interagency Wounded, Ill, 
and Injured Senior Oversight Committee (SOC). Through this 
unprecedented union, the Department of Defense and Department of 
Veterans Affairs are working to provide a seamless continuum of care 
that is efficient and effective in meeting the needs of our wounded, 
ill, and injured servicemembers, veterans, and their families.
    We recently realigned our SOC functional leads and support staff to 
provide permanency in our oversight of SOC taskings. The new 
organization provides us an effective means of keeping senior 
leadership focus on these important issues. In the near-term, Secretary 
Shinseki and I plan to co-chair the SOC and we look forward to our 
continued partnership in resolving wounded warrior issues.
    Next to the war itself, providing care for our wounded, ill, and 
injured servicemembers, veterans, and their families remains my highest 
priority. Thank you for your continued support of our servicemembers, 
veterans, and their families.

    Senator Akaka. Secretary, our military has experienced 
strains after nearly 7 years of warfare. It is imperative that 
we support our forward deployed forces engaged in current 
operations, but we must not overlook other important 
developments in the international system. In your opening 
statement you address China's military modernization. China's 
continued investment in its military transformation has grown 
and the balance of power in Asia and the Pacific region has 
changed. In March 2007 Beijing announced a 19.47 percent 
increase in its military budget.
    In light of China's continuing military modernization 
efforts, do you believe that the U.S. forces in PACOM are 
properly equipped to address any possible future threats 
related to China's modernization, particularly with regards to 
PACOM's forward basing strategic needs?
    Secretary Gates. Yes, sir. I think that we need to complete 
the relocation programs with respect to Guam and Okinawa, as 
well as in South Korea. But I think with the forward deployment 
of the USS George Washington to Japan, I think that the U.S. 
forces, both Navy and Air Force in particular, are well 
positioned.
    We have a number of programs underway in development that 
are intended to counter some of the Chinese technological 
advances that have the potential to put our carriers at risk, 
and I think we're making good progress on those and I think we 
have the capability in place to be able to deal with any 
foreseeable Chinese threat for some time to come.
    Senator Akaka. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your willingness to continue 
on and to serve in this very important role. Many of us, I 
think when the President was filling out his Cabinet, were very 
pleased when he announced that he was going to ask you to 
continue, and even more pleased to hear that you would agree to 
do that. So I thank, as my other colleagues have said, your 
family as well for their continued sacrifice and service to our 
country.
    I want to address briefly an issue which is of great 
concern to me and I think should be an issue of concern to all 
Americans, and that is the very dangerous overdependence that 
we have on foreign energy. In my view that is a national 
security issue. We transfer over half a trillion dollars a year 
to foreign countries to purchase oil.
    Of course, the military is one of the biggest purchasers of 
fuel. The Air Force alone in 2007 spent $5.6 billion for 
aviation fuel. As you well know, increased oil prices in the 
past couple of years have had a very negative effect on Air 
Force readiness.
    Last month, Air Force Secretary Donnelly signed an Air 
Force energy program policy memorandum establishing the goals 
of certifying the entire Air Force fleet to use a synthetic 
fuel blend by 2011 and to acquire 50 percent of the Air Force's 
domestic aviation fuel requirement via an alternative fuel 
blend by 2016.
    My question is, do you think that the Air Force's energy 
initiative regarding synthetic and alternative fuels is 
something that should be considered for Department-wide 
implementation?
    Secretary Gates. Yes, and in fact one of the transition 
papers that was prepared for my successor had to do with a 
consolidation of oversight within the DOD on energy-related 
issues, we have many individual programs in the DOD oriented 
toward energy conservation and toward alternative fuels. But 
there is no one place where it all comes together for oversight 
or for the sharing of ideas and the sharing of technologies and 
so on.
    I think that, if I'm not mistaken, there is a position 
provided for in the Department at a fairly senior level to do 
this, and it would be my intention to fill that position to 
accomplish what you just suggested, but with a broader mandate 
than that.
    Senator Thune. One of the things that I think would help 
achieve that objective and something that I have supported and 
tried to get included in the defense authorization bill up here 
is an initiative that would allow for greater private sector 
investment in synthetic fuel production, which would increase 
multi-year procurement authority for the Department.
    One of the things that we believe would incentivize private 
sector development and production of synthetic fuels is knowing 
that they would have a multi-year authority through the 
Department to actually enter into contracts that would give 
them some certainty about the future.
    I guess my question is, is that something that you could 
see the Department supporting?
    Secretary Gates. I think that there are some real 
opportunities for partnerships with the private sector. What 
you've mentioned is one. Another that I encountered at the Red 
River Depot is one. Most of the vehicles that come back from 
Iraq come back with their petroleum supply still in them, the 
oil, diesel, and so on. Previously we had to pay to have that 
material discarded. We entered into a contract with a private 
company and we now sell that material to a private company that 
rerefines that material and sells it on the open market. So all 
of this in the past waste petroleum, oil, and lubricants is now 
being converted back to useful fuels, and at the same time we 
get paid for providing it.
    I think that there are a lot of opportunities like this.
    Senator Thune. I think the multi-year procurement authority 
is one initiative that would help accomplish some of the things 
you are talking about doing, and we would like to work with you 
toward that.
    Mr. Secretary, you mentioned in a recent article that our 
ability to strike from over the horizon will be at a premium 
and will require a shift from short-range to longer-range 
systems, such as the Next Generation Bomber. In your opinion, 
how will the Next Generation Bomber fit into our national 
defense strategy and what steps do you see the Department 
taking to ensure that the Next Generation Bomber achieves 
initial operational capability by the stated goal of 2018?
    Secretary Gates. First of all, I would say that I think 
that I made that speech at a time when the economic outlook was 
rather different than it is now and the prospects for the 
defense budget perhaps differed accordingly. I think we have to 
look at all of the aspects of our strategic posture. I think 
that the role of a Next Generation Bomber along with some of 
the other systems that we've been talking about clearly have to 
be a focus of the QDR. It is my intent to launch that next 
month and to do so in an accelerated way so that it can, if not 
shape the fiscal year 2010 budget, have a dramatic impact on 
the fiscal year 2011 budget. The bomber would be looked at in 
that context.
    Senator Thune. I want to follow up on a question that 
Senator Lieberman asked you earlier about the stimulus and ask 
you if you have any unfunded requirements related to reset that 
should be included in the pending economic recover package?
    Secretary Gates. I would say that I think we do not. If the 
requests that we have put in in the context of the remaining 
fiscal year 2009 budget supplemental are attended to, I think 
that the reset requirements that we have currently are taken 
care of.
    Senator Thune. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Thune. Thank you, Mr. Secretary.
    Chairman Levin. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Gates, I want to say how great it has been over 
the last year or 2 to hear and read so much that you have said 
and so many of your thoughts about where we need to proceed 
forward as a Nation in terms of our foreign policy. I think 
your sensible and informed views have really helped calm down a 
lot of the debate here in this country.
    Your realistic views of how we need to proceed forward with 
Russia, I think are very welcome in this debate. I'm not quite 
as optimistic as you are about China. I'm probably as hopeful 
as you are about China, but, having watched that situation for 
many years and having just returned from a fairly extensive 
trip to East Asia, I hope we can have a discussion on that at 
some point.
    With respect to Afghanistan, I'm looking forward to hearing 
the views of the special emissary that the President just 
created. For the purposes of the DOD, I certainly would hope 
that we don't at this point let our operational policy get 
ahead of a clearly enunciated strategy, which I think was one 
of the big pratfalls in going into Iraq.
    But principally today I would like to comment on the last 
portion of your statement, which I haven't heard anybody 
mention, and I think it was a vitally important commitment that 
you have just made, that you are going to get into the 
procurement side of the DOD and the management side. I spent 5 
years in the Pentagon, 4 of them working under the leadership 
and with Captain Weinberger. I think the job that you have is 
the hardest job in the executive branch except for the 
President himself--every day working on three different 
budgets: implementing one, arguing one, and developing one.
    The Pentagon is, in my view, really in need of that kind of 
tightening of the process that I think pretty much got out of 
control after September 11. We need to see more discipline and 
more leadership and a clearer articulation of the priorities of 
where this money is going and why. You can look at the 
Department of the Navy as a classic example of how these 
problems have evolved.
    You'll recall last year you and I exchanged correspondence 
about this question I had with the Blackwater contract out in 
San Diego. In that process I discovered that a relatively low-
level official in the Department of the Navy had the authority 
to let a $78 million contract, contracts of $78 million or 
below, without even having the review at the Secretary of the 
Navy level, much less DOD level.
    We have the Navy coming over here telling us in the fiscal 
year 2009 budget that they have a $4.6 billion decrement in 
unfunded requirements, not priorities. They are trying to build 
their fleet up to 313 ships. They're now at 282, which is half, 
almost exactly half, the size of the Navy when I was Secretary 
of the Navy. The procurement programs in naval air are in total 
disarray, as are the shipbuilding programs. They have $450 
million in critical maintenance that's unfunded.
    Then they turn around and say they want to spend a billion 
dollars putting a nuclear aircraft carrier down in Mayport, FL. 
We haven't needed that since 1961. No one's asked about that 
since 1961. We got a commitment from the individual who, if 
confirmed, will be your deputy that this will be reviewed at 
the Office of the Secretary of Defense (OSD) level. But it's 
just a classic example, to me, of how this process has gotten 
so out of control that we're not focusing on the areas that can 
truly help the country, like rebuilding the fleet and putting 
aircraft out there into the squadrons.
    I would also like your thoughts on reviewing the notion of 
civilian contractors. Years ago when I was in the Pentagon, we 
used to talk about civilian contracting as kind of a default 
position, long-term civilian contracting. We had the Total 
Force, which was Active, Guard, and Reserve, and career 
civilian force; and then when things went wrong we'd go into 
civilian contracting. Now I keep hearing this phraseology that 
civilian contractors are a part of the Total Force.
    I would hope, with the growth of this area and the 
difficulties that we've had in terms of legal issues and these 
sorts of things, that you would put that on your plate as well.
    Secretary Gates. I think that it has to be. I think one of 
the things that's underway right now is a study on the use of 
civilian contractors in contingency operations. I think that 
the use of contractors in many respects grew willy-nilly in 
Iraq after 2003, and all of a sudden we had a very large number 
of people over there and, as became clear, inadequate capacity 
to monitor them.
    One of the benefits of the exchange you and I had last year 
was really in a way bringing to our attention through the 
Blackwater contract the way that elements of training had been 
contracted out. There are parts of the training that 
legitimately and properly and probably less expensively can be 
done by private contractors. But again, it had grown without 
any supervision or without any coherent strategy on how we were 
going to do it and without conscious decisions about what we 
will allow contractors to do and what we won't allow 
contractors to do.
    So I think we have not thought holistically or coherently 
about our use of contractors, particularly when it comes to 
combat environments or combat training, and those are the areas 
that I think we need to focus on first.
    Senator Webb. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Martinez.
    Senator Martinez. Mr. Chairman, thank you very much.
    Mr. Secretary, I might add my word of thanks to you and 
your family for continuing to serve our country so capably and 
to thank you for the continuing sacrifice that you're making in 
this service. So I add to the chorus of thanks and continued 
best wishes for all that you are doing for our country.
    In regards to NATO and its participation in Afghanistan, I 
was very taken by your comments some months ago about a two-
tiered alliance. In fact, I continue to be concerned about 
that. I know my colleague Senator Chambliss discussed this with 
you. I want to just ask if this administration has a strategy 
on how to obtain the true participation without the caveats of 
our NATO allies in the fight in Afghanistan.
    I recognize the need for us to have additional troops. I 
also recognize what you mentioned as the need, which is to 
build the Afghan army. There's going to be a need for there to 
be serious commitment. What is the strategy to get that to take 
place for this administration?
    Secretary Gates. I think, with all fairness to the new 
administration, they've been in office 6 days.
    Senator Martinez. Actually 8 today.
    Secretary Gates. Or 7. But I think that this clearly is 
going to be an issue that we will have to address very soon. I 
know it's an issue that Secretary Clinton has thought about. It 
is an issue that the President clearly has thought about. But 
there are three forcing events, I think. One is I have a 
defense ministerial, NATO defense ministerial meeting, in mid-
February. Secretary Clinton will have a foreign ministers 
ministerial, NATO ministerial, a couple weeks after that. Then 
of course there's the 60th anniversary of the alliance in 
April. These three will, I think, require us to develop a 
strategy on how we approach our European allies and at what 
level in terms of asking them to do more, and I think do more 
in each of the areas that I've talked about.
    My sense is from some of the information and diplomatic 
comments and public comments that some leaders have made in 
Europe that they are prepared to be asked and that they are 
prepared to do something. In fact, there's some indications 
that a few of our allies have been sitting on a capability so 
that they could give the new President something when he asks.
    So I think there are opportunities not only in terms of 
caveat-free troops or additional military capability, but again 
the civilian enablers, if you will, and also perhaps better, 
bigger contributions in terms of defraying the costs of the 
growth of both the police and the army in Afghanistan.
    All three areas, seem to me, to be areas where our allies 
can and should do more.
    Senator Martinez. I want to thank your Department for the 
very farsighted decision, the strategic dispersal of our 
nuclear fleet on the East Coast of the United States. I applaud 
the decision to make Mayport a nuclear-ready homeport for our 
nuclear fleet. I think that it's a matter of national security 
to understand the need for there to be more than one 
strategically situated base on the east coast. So I applaud the 
decision and look forward to working with you and others in the 
Department on the funding priorities for that to take place.
    I want to ask your thoughts on the LCS program. I recognize 
that perhaps this may be too much in the weeds, but I do think 
that the LCS is an integral part of the future of our fleet. I 
believe that getting our fleet back to that 313-ship Navy is 
essential and the LCS is a big part of that.
    I'm wondering whether any movement forward has been made in 
terms of deciding on which of the two prototypes to pursue, 
whether the Lockheed or the General Dynamics version of this 
particular vessel?
    Secretary Gates. I don't know the answer to that, Senator.
    [The information referred to follows:]

    As a result of congressional direction contained in the fiscal year 
2009 Defense Appropriations Act, the Navy amended the current littoral 
combat ship (LCS) seaframe construction solicitation to delete the 
fiscal year 2008 ship and add three fiscal year 2010 Ships. This 
solicitation seeks to procure a total of five ships, two in fiscal year 
2009 and three in fiscal year 2010 via continuation of limited 
competition between the two incumbent industry teams. The Navy intends 
to award one ship to each industry team in fiscal year 2009 and hold a 
concurrent competition for quantity in fiscal year 2010.
    The fiscal year 2009 awards will be fixed-price type contracts, 
with the Navy anticipating that each LCS prime contractor receives one 
ship. The fiscal year 2010 ship options will be a competition for 
quantity. The fiscal year 2009 ship prices will be included with the 
fiscal year 2010 ship prices in evaluating this competition.
    The acquisition strategy for fiscal year 2011 and out-year ships is 
under development, although the Navy does not intend to down-select to 
one variant at this time. The Navy's strategy will be guided by cost 
and performance of the respective designs, as well as options for 
sustaining competition throughout the life of the program. The Navy 
remains committed to effective cost control and has modified 
contracting strategies and management practices to provide program 
stability.

    Secretary Gates. But I will tell you that I think the LCS 
or LCS-like ship is really needed for us in the kinds of 
conflicts, as I look around the world, that we're likely to 
face. As I look at the Persian Gulf, as I look at various other 
places, I think it is a capability that we need.
    Senator Martinez. The strategic situation on the east 
coast, of course, also impacts our Fourth Fleet and the issue 
in the area of Latin America, which we often don't talk about, 
which I think increasingly becomes a security concern. We know 
that Venezuela did some naval exercises with Russia in recent 
days and also the continuing involvement of Iran with Cuba and 
Venezuela raises concerns for many.
    What are your thoughts on the potential threats emanating 
from our southern border?
    Secretary Gates. I'm concerned about the level of, frankly, 
subversive activity that the Iranians are carrying on in a 
number of places in Latin America, particularly in South 
America and Central America. They're opening a lot of offices 
and a lot of fronts, behind which they interfere in what is 
going on in some of these countries.
    To be honest, I'm more concerned about Iranian meddling in 
the region than I am the Russians. I felt that our best 
response to the Russian ship visits to Venezuela was 
nonchalance, and in fact if it hadn't been for the events in 
Georgia in August I probably would have tried to persuade the 
President to invite the Russian ships to pay a port call in 
Miami, because I think they'd have had a lot better time than 
they did in Caracas.
    But basically I think at $40 oil the Russian navy does not 
bother me very much. They clearly have some capabilities.
    This is the first time they've had an out-of-area exercise 
in a decade or so. It's important for us to keep perspective 
about their capabilities. When they complained about our 
escorting their Blackjack bombers to Venezuela, I wanted to say 
that we just wanted to be along for search and rescue if they 
needed it.
    So these deployments by the Russians I think should not be 
of particular concern to us. On the other hand, Iranian 
meddling is a concern.
    Senator Martinez. I love the idea of promoting Florida 
tourism. We can work together on that. [Laughter.]
    I do concur with your assessment of the Iranian situation 
and I think it's something that we need to keep a close eye on 
because I think it's going to be a potential future threat.
    Thank you very much.
    Chairman Levin. Thank you, Senator Martinez.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Mr. Secretary, I'm also thrilled that you are here today 
and I will tell you that I fully appreciate the knife fight 
that you're going to be in as it relates to procurement, 
particularly as it relates to the competition between the 
different Services and the competitions between the various 
Members of Congress to take care of the folks at home. Please 
consider me a partner in that alley in your knife fight and I 
think more of us need to get our knives out for the good of the 
whole as opposed to looking after some of the parochial 
interests that occurs around here.
    I want to start with substance abuse in the military. As 
I'm sure you're aware, we've had a 25 percent increase in 
soldiers seeking help for substance abuse. I'm sure you're also 
aware that we had a scandal of sorts at Fort Leonard Wood in 
Missouri where we discovered that over 150 soldiers who had 
wanted help had not been given help, some of them waiting for 
as long as 9 months for substance abuse treatment. We have more 
than a fourth of the slots are open military-wide for substance 
abuse counselors.
    Most important and my question to you today is the culture. 
Is this a command notification issue or is this an issue where 
we should be more supportive of the soldiers that come forward, 
particularly in light of the pain medication addictions that 
we're seeing more frequently as it relates to those who have 
been injured, and obviously the alcohol and illegal drug 
problems?
    This has always been a notify the commander culture, and so 
the culture has been don't come forward and ask for help. As we 
look at all of the mental health issues, domestic issues, as 
the operations tempo of deployment in Iraq, and of dwell time, 
I think that that's something that we need to get figured out 
at the very top. Are we going to change the culture of command 
notification for those who are seeking substance abuse help in 
the military?
    Secretary Gates. This is something that I'm happy to look 
into. I think that one of the things that I've seen just in the 
reporting that I receive is the concern that in a significant 
number of cases where we have substance abuse, it began with 
prescribed medication for physical or psychological wounds. In 
that respect it seems to me we have an obligation to these 
folks to try and help them get past this substance abuse. The 
objective is not to end their career, but to cure them and get 
them back to work.
    Senator McCaskill. I know that Secretary Geren is looking 
at all the issues surrounding this in response to a letter I 
wrote him at the end of last year. I look forward to continuing 
information about how we're going to change the ability of 
these folks to get help when they need it.
    As we talk about drawing down in Iraq, and to follow up on 
Senator Webb's question, who is the person that I can hold 
accountable for the drawing down of the contract forces? The 
Congressional Research Service said in December that we had 
200,000 contractors on the ground in Iraq. As we pull out our 
active military, who's in charge of winding up these contracts? 
What steps have you taken to make sure that the lessons that we 
learned in Bosnia, which it was admitted to me that we didn't 
follow in Iraq in terms of contracting, what are we doing to 
make sure that these incredible mistakes--I think ``willy-
nilly,'' by the way, is kind as to what happened with 
contracting in Iraq.
    What are we doing to make sure that we don't repeat these 
same mistakes in Afghanistan?
    Secretary Gates. Well, the commander in Afghanistan is in 
the process of setting up the same kind of oversight monitoring 
group for contracting that was established by the Multi-
National Forces-Iraq (MNF-I) commander last year. So we're 
trying to take the lessons learned out of Iraq over the last 
couple of years, in terms of the lack of oversight and 
transfer, to Afghanistan.
    Overall, the responsibility for DOD contracting in Iraq is 
in the hands of MNF-I and the people who work for him. This is 
one of the issues, frankly, as we withdraw that is going to be 
a challenge for us. First of all, we have been rotating troops 
into equipment that was already in Iraq. The contractors in 
Iraq are using a lot of equipment that belongs to the United 
States Government. The question as we draw down in significant 
numbers over the next 18 months or whatever the period of time 
is, 16 months, the question is we are going to have to bring 
the equipment that belongs to us back, but we have to decide 
what of the equipment that belongs to us that the contractors 
are using are we going to bring back.
    I think all of this is going to require a high level of 
supervision, and we need to think pretty quickly and with some 
agility in the DOD to make sure that we get this right.
    Senator McCaskill. I'm worried we're going to have 30,000 
troops in Iraq and 100,000 contractors. I think if we're not 
careful that could happen, if we don't pay attention to that 
side of it.
    Finally, Mr. Secretary, I wanted to bring your attention to 
a situation that I think is deserving of your attention and 
that is the scandal at the Defense Contracting Audit Agency 
(DCAA) as it relates to the incredibly negative essentially 
peer review they got from the Government Accountability Office 
(GAO), their failure to abide by the appropriate government 
auditing standards, and how that kind of shakes the timbers.
    If we don't have the DCAA with a clean report from a fellow 
auditing agency, we have serious problems. More importantly, 
when the whistleblower wanted to provide information as it 
related to the problems internally at DCAA, she received an 
incredibly threatening letter that was signed by an audit 
supervisor, but in fact I found out was drafted by a lawyer at 
DOD under the general counsel.
    I want to make sure that I bring this letter to your 
attention. Nothing strikes more fear in the heart of, I hope, 
everybody in this room and everybody in America than the idea 
that someone who is trying to fix a problem in government is 
threatened with criminal prosecution if they pursue the 
information that they need to document the claim they're making 
in terms of inappropriate auditing standards at the agency. I 
would ask you to look into that.
    I believe that lawyer is still there and I don't believe 
anything has happened to that lawyer that wrote that letter. 
The fact that his name wasn't on the letter doesn't change 
anything. There needs to be some accountability in that regard. 
I will forward a copy of the letter to you and ask for your 
follow-up on that situation.
    [The information referred to follows:]

    I share your commitment that the Department must perform quality 
audits under Generally Accepted Government Auditing Standards. I also 
share your concern that whistleblowers receive the statutorily-based 
protections they deserve when they act on our behalf to do the right 
thing. The letter in question was inappropriate and should not have 
been issued, as the Director of Defense Contracting Audit Agency (DCAA) 
has testified before the Senate Homeland Security and Government 
Affairs Committee.
    The investigation by the Office of Special Counsel (OSC) is ongoing 
and includes a review of the actions of the DCAA attorneys. I am 
advised that title 5 of the United States Code, section 1214(f), 
expressly prohibits the imposition of disciplinary action against any 
employee for any alleged prohibited activity under investigation by the 
OSC, or for any related activity, without approval of the Special 
Counsel. The Department will consider initiating appropriate 
disciplinary action after a full investigation has been completed by 
OSC to ensure that the proper measure of discipline is imposed, should 
OSC recommend corrective action.

    Secretary Gates. Okay. I agree it's important, and some 
time ago I asked the DOD Inspector General to look into these 
abuses at DCAA, and particularly the allegation of the abusive 
treatment of one of the auditors.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCaskill. Thank you very much.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service and for your 
straight answers today. I think it's just remarkable that 
someone like you could serve in the previous administration and 
be asked to stay over in the new administration. So thank you 
for your willingness to do that.
    Our chairman mentioned in his opening remarks his hope that 
we might move toward a possible joint missile defense program 
with Russia against a potential strike from Iran. I think it's 
your testimony today that you think that it indeed is important 
to pursue such an idea and that Secretary Clinton shares this 
goal.
    Do we have any indication at all that the Russian 
Government is interested in talking with us meaningfully about 
moving to something like this?
    Secretary Gates. I had the distinct impression when I 
presented a range of opportunities for cooperation and 
transparency to then-President Putin, that he was actually 
taken by some of the ideas, that there were some opportunities 
for cooperation. Being an old Kremlinologist, what got my 
attention was the fact that when Secretary Rice and I first sat 
down to meet with Putin and they brought in all the press, 
Putin basically just beat the tar out of the United States on 
every conceivable subject, and once the press left we then had 
a nice civil conversation.
    But after our meeting it was clear, his comments to the 
press were very positive, that he'd heard some very interesting 
ideas. Equally important, when we began our two-plus-two 
meeting with Foreign Minister Lavrov and my Russian 
counterpart, Lavrov, instead of opening with the same kind of 
screed against the United States, started off by talking about 
how there had been some interesting exchanges of ideas, 
interesting possibilities for cooperation, and that they looked 
forward to pursuing that subsequently.
    We've also heard informally from some of their military 
that there was interest in pursuing some of these 
possibilities. They were intrigued by the possibility of 
working together on some of this, for example a joint data 
center in Moscow and sharing the radar capability and so on.
    So, in writing, no. But in some of the things that have 
been said, some of the inferences, I think if we were able to 
get some of the political baggage out of the way that there is 
actually some potential for cooperation.
    Senator Wicker. Is it your view that, in any event, it's 
essential that the United States continue its current plans for 
missile defense deployment in Eastern Europe?
    Secretary Gates. As I said earlier, we have not had the 
opportunity to pursue this in the new administration and to 
discuss the administration's policy on it. I will say this. All 
of the NATO heads of government unanimously last April in 
Bucharest endorsed the importance of a NATO-wide, European-wide 
missile defense capability. So this is a commitment that has 
been made by the alliance and so I think we at least need to 
take it very seriously.
    Senator Wicker. Thank you.
    I note in your prepared testimony you mention working 
closely with the VA to better share electronic health data and 
track patients' long-term recovery process. I understand you 
and Senator Akaka had a conversation about the SOC and the fact 
that you attended General Shinseki's swearing in ceremony, and 
that you're determined to work together to oversee joint 
activities of the two Departments.
    A couple of weeks ago I had the opportunity to participate 
in General Shinseki's confirmation hearing and I asked him 
about the ongoing effort to create a joint electronic medical 
record between the DOD and the VA. In my judgment, our ultimate 
goal, Mr. Secretary, should be a joint electronic medical 
record, a common record shared by both Departments to allow 
this seamless transition that we all talk about.
    On the other hand, there are those people in the government 
who say that it will suffice to have an information 
interoperability plan, which would simply give us the ability 
to share information. When I asked General Shinseki about this, 
he expressed the opinion that the primary barrier to 
implementing a joint record was not technical, but a question 
of leadership. I just wondered if you've had a chance to think 
about this issue and if you'd care to respond to us about that.
    Secretary Gates. There are some technical challenges in 
terms of building the kind of joint capability that you 
describe. But I think that those challenges can be overcome 
with leadership and, frankly, I look forward to working with 
Secretary Shinseki to see if we can't make some significant 
progress on this. I think this is an area where we probably, 
instead of trying to eat the whole pizza in one bite, we 
probably need to take several steps to get us to the joint 
capability.
    I don't want to wait several years while we have a massive 
new kind of program coming into place and not do anything in 
terms of sharing and having interoperable information. So I'd 
rather get to the first and then move on to the second, rather 
than wait several years and put all our chips on a new 
technology or a new capability. But I think we can get there 
and, what's more, I think with our leadership, if we can get 
this done in the next year or two, what we achieve may in some 
respects serve as a model for what I think is the President's 
desire to look at doing this more broadly for the Nation in 
terms of the civilian health care system.
    Senator Wicker. Thank you, sir.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Udall.
    Senator Udall. Welcome, Secretary Gates. You and I had a 
chance to interact and work together on the House side. I don't 
know whether I followed you over here or you followed me over 
here, but it's excellent to see you here today. I share the 
sentiments and praise of my colleagues here today on both sides 
of the aisle for your service and am looking forward to working 
with you as we face these big challenges, but I think 
significant opportunities.
    If I might, I'd like to turn to a couple of Colorado-
specific situations and do that quickly and turn back to some 
other broader scale opportunities we have. You're familiar with 
the Pinyon Canyon Maneuver Site, I believe, in southern 
Colorado. It's been the focus of some controversy, given the 
Army's interest in expanding that facility. The GAO has 
conducted a study of the Army's report on those training needs 
and I wanted to urge you today to work with the GAO to answer 
fully all the questions that the Army posed for itself, but 
that the GAO in its follow-on report suggested hadn't been 
fully answered.
    Can you commit to me that the Army will work to answer 
fully those questions that the GAO has posed?
    Secretary Gates. Sure.
    Senator Udall. I appreciate that.
    Second, in regards to the site as well, the Army has made 
it clear, and you and I have exchanged correspondence, as to 
the use of condemnation. The indications we've received is that 
the Army won't pursue condemnation authority today, tomorrow, 
or ever when it comes to those Pinyon Canyon expansion plans. 
Can you continue that commitment?
    Secretary Gates. I'm not familiar with the details, 
Senator. But if the Army has made that commitment to you, then 
I would stand behind it.
    Senator Udall. I appreciate that. It's, I believe, an 
opportunity here for this to be worked out to the satisfaction 
of all the parties involved. But there are many ranchers and 
farmers who fear for their way of life, who ironically or 
interestingly enough, also many of them are veterans and 
they're patriots. But they want to have a clear and transparent 
process underway.
    In that spirit, let me turn more broadly. I was pleased to 
hear you talk about the importance of consolidating energy 
issues at the DOD and the position that was established in the 
Defense Authorization Act to do this. I hear you plan to fill 
the position quickly. I look forward to working with you in any 
way possible, as in many ways the military is leading in this 
cause of energy independence. The men and women in uniform know 
more than almost any American the price of having to defend oil 
supply lines and our dependence on regimes that don't 
particularly like us. So I commend you for this effort and 
again look forward to working with you.
    Let me turn to the recent article that you wrote in Foreign 
Affairs where you said ``We must not be so preoccupied with 
preparing for future conventional strategic conflicts that we 
neglect to provide all the capabilities necessary to fight and 
win conflicts, such as those the United States is in today.''
    How do you envision institutionalizing a counterinsurgency 
focus in the DOD and what can we do in the Senate and in the 
House to support you in those efforts?
    Secretary Gates. I think that there are two broad 
approaches, Senator. One is to institutionalize the thinking 
about counterinsurgency, particularly in the Army, and it's one 
of the reasons why I've worked with the Chairman and also with 
General Casey, quite frankly, to put the people in the proper 
places to make sure that the Army does institutionalize what 
it's learned both for good and ill in Iraq and Afghanistan. So 
putting General Dempsey in at the Trade and Doctrine Command, 
putting General Petraeus at CENTCOM, General Chiarelli as the 
Vice Chief of Staff of the Army, General Odierno at MNF-I, 
General Austin, all of these people really get it in terms of 
what needs to be done.
    I'm also long-time enough in the bureaucracy to know that 
an institution can always beat one or two people, but it's 
tough to beat four or five. That's a long time to wait in your 
career, to wait for all those guys to retire. So I think that 
institutionalizing the thinking is the first thing.
    The second is to figure out a better way to 
institutionalize support for the warfighter in terms of the 
regular procurement and acquisition process, development, 
acquisition, and procurement process in the DOD that we use for 
the longer term kinds of equipment. The question I keep coming 
back to is, why did I have to go outside the regular Pentagon 
bureaucracy in order to build mine-resistant ambush protected 
(MRAP) and to get additional ISR? We need to figure out a way 
where that happens within the institution and where there are 
institutional support of getting that kind of thing done in a 
prompt and timely way.
    The problem is there are two different mentalities 
involved. The one is the typical culture in the Defense 
Department, which is 99 percent exquisite solutions over a 5- 
or 6- or 10-year period; and the other is a 75 percent solution 
in weeks or months. People approach problem-solving in very 
different ways when they have that different kind of 
experience. We have to figure out how to be able to walk and 
chew gum at the same time.
    Senator Udall. Thank you for that outline.
    Let me end on this note. I commend you for your willingness 
to wade into procurement reform and count on me as an ally, as 
I think are many members on this committee.
    Your statement was compelling on the need to move forward 
in that direction.
    So thank you again for being here.
    Secretary Gates. Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, Secretary Gates, for serving longer. We 
appreciate that. I think not only does it speak well of you and 
the success of your tenure, but of President Obama in selecting 
you. I can't think of a single thing he's done that's been a 
more comforting and bipartisan act of leadership than retaining 
you as Secretary of Defense. He's seen in you some fine 
qualities that I think this entire committee has seen over the 
years. I do think that you have accomplished quite a lot and I 
look forward to working with you in the future.
    I really appreciated your thought, and we briefly discussed 
this earlier, about Afghanistan and what our goals should be 
there. The Afghani people that I've seen when I'm there are 
wonderful people, but they are not prepared to want to be like 
us now.
    Rory Stewart, who walked across Iraq and wrote the book 
``Places In Between'' and now has a foundation there, talks 
about respecting the people of Iraq, accepting them pretty much 
as they are and helping them develop and become more prosperous 
and more educated, but to be patient and a bit humble about 
that process.
    How do you see us there at this point? Is there--and I 
would ask fundamentally, where are we going with more troops?
    How far do we see that happening? Don't, in some ways, we 
just have to be more patient about what we can expect this 
country to achieve in the years to come?
    Secretary Gates. Senator, I'm perhaps more mindful of some 
of the lessons in Afghanistan than some others, both as a 
historian but also as somebody who 23 years ago was on the 
other side of that border trying to deal with the Soviets. The 
Soviets couldn't win that war with 120,000 troops and a 
completely ruthless approach to killing innocent civilians. 
They had the wrong strategy and they were regarded, properly, 
as an invader and an occupier. It's not for nothing Afghanistan 
is known as the graveyard of empires.
    I am prepared to support the requirements that General 
McKiernan has put forward in terms of being able to work with 
more additional U.S. troops, many of whom will serve as 
trainers as well as being deployed in combat. I'm willing to 
support that. I think it's necessary. But I would be very 
skeptical of any additional force levels, American force 
levels, beyond what General McKiernan has already asked for.
    The secret to success from a security standpoint is the ANA 
and the ANP and, I might add, a more effective border control 
police. So I think that we need, as has been discussed here 
before, we need a fully integrated civilian-military strategy. 
We need to, I think, have modest, realistic goals. Above all, 
there must be an Afghan face on this war. The Afghan people 
must believe this is their war and we are there to help them, 
because if they think we are there for our own purposes then we 
will go the way of every other foreign army that has been in 
Afghanistan.
    So one of the things that I've been focused on, in addition 
to trying to see what more we could do to reduce civilian 
casualties, is how do we get more of an Afghan face on every 
single one of our operations, how do we get them out in front, 
so that the villagers see that it's their army that we're 
helping; it's not us kicking down their door, it's an Afghan 
who's kicking down their door to try and find the bad guy.
    I think that the Afghan aspect of this has to be at the 
absolute forefront of any strategy going forward in that 
country for any of us to be successful over the long term. 
That's one of the reasons why I would be deeply skeptical about 
additional U.S. forces beyond those that General McKiernan has 
already asked for.
    Senator Sessions. Thank you, Mr. Secretary. I think you 
should ask tough questions. It's easy to feel we need more 
troops, and we may well. I'll defer to your decision. But, I do 
think that this country ultimately will have to make it on its 
own. It'll have to be true to its own history and its own 
culture, and it's going to be a slow thing to see one of the 
poorest nations in the world, most remote nations in the world, 
develop. We can't be too optimistic about our abilities to snap 
our fingers and make that change occur.
    Mr. Secretary, you are really focusing on defense 
acquisition. I think that's important. Senator McCain, who was 
here earlier, raised a question some time ago about, basically, 
a sole source lease arrangement to purchase the Air Force's 
number one priority, which is a refueling aircraft tanker. This 
committee, Senator Levin and everybody on the committee, 
supported a bid process. I think at that time I referred to 
Senator McCain as the seven billion dollar man. I think it was 
more than that, by GAO standards accounting review, how much it 
saved the government to bid this contract.
    So we've had some difficulties in moving forward. You 
punted it, I was disappointed to see, and now I guess you'll 
have to catch your own punt and move forward with selecting 
this aircraft.
    First, don't you think we should not depart from our 
fundamental acquisition strategy to get the best value product 
for the American warfighter on a fair and competitive basis, 
because that's what Congress has directed explicitly the 
Defense Department to do, to bid this contract? Second, what 
are your plans to move forward?
    Secretary Gates. I'm firmly committed to a competitive 
process. My plan is when a new deputy gets confirmed and when a 
new Under Secretary for Acquisition, Technology, and Logistics 
is confirmed, then I would sit down with the two of them and 
with the Secretary of the Air Force and the Chief of Staff of 
the Air Force and determine the best way forward.
    It seems to me that this is an issue that obviously arouses 
strong feelings around the country, but it seems to me that the 
key is a competitive bid, meeting technical requirements, and 
the best deal for the taxpayer. But I certainly intend to 
proceed with a competitive process.
    Senator Sessions. Thank you, and I will take that as a 
commitment that you will work to ensure we get the best product 
for the taxpayer and the warfighter.
    Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Thank you, Secretary Gates. I'm pleased that President 
Obama has asked you to remain in this position and that you've 
accepted it and that you are willing to forego witnessing 
firsthand the stress of watching those college basketball 
games.
    A lot of what the discussion around here today is 
concerning procurement and acquisition, and in some of the 
prepared remarks that you put together you said that the DOD 
has difficulty in bringing in qualified senior acquisition 
officials and that in the past 8 years the average percentage 
of vacancies in key acquisition positions has been 13 percent 
in the Army to 43 percent in the Air Force.
    When you're talking about the number of contracts, the 
number of cost overruns, etcetera, what's the problem here?
    Secretary Gates. I think that there are a couple of 
problems. The first is that there was a dramatic reduction in 
the number of people involved in the acquisition and 
procurement process in the DOD following the end of the Cold 
War. The Defense Contract Management Agency (DCMA), for 
example, fell from 27,000 people to around 8 or 9,000. The 
number of people involved in procurement in the Department 
overall fell from about 500 to 600,000 to about half that 
number. So part of the problem is just plain numbers, and we've 
been working with the committee. DCMA plans to hire 2,300 
additional people over the course of the next 18 months or so. 
The Army is adding 1,000 civilians and 400 military in this 
area. I think either the Air Force or the Navy are adding a 
thousand.
    I think the Services and OSD are beginning to address this 
problem, but it will take us some period of time to get back. 
The other factor I would tell you, Senator, I take a back seat 
to no one in terms of the ethics, in terms of the importance of 
ethics, ethical behavior, ethical standards, and the importance 
of integrity in office. But in a way, over a period of time, 
and I would say going back 20 years, in some respects we have 
worked ourselves into a box canyon, because we have created a 
situation in which it is harder and harder for people who have 
served in industry, who understand the acquisition business, 
who understand systems management, to come into the public 
service, and particularly when they are not coming in as career 
people, but perhaps at more senior levels to serve for a few 
years and then go out.
    Last thing I would do is criticize the ethics executive 
order that the new President has just signed. This is a 
cumulative problem that has taken place over many, many years. 
My own view is on a lot of these issues, transparency is the 
answer and the recusal approaches that we have, the President 
recognized the need to be able to get some of these people he 
would need to exercise a waiver and he provided for that, I 
think wisely, in the executive order.
    But there is a reason we have those kinds of vacancies and 
that they endure year after year after year. I think all of 
us--Congress and the executive branch together--need to look at 
this and see whether we're cutting off our nose to spite our 
face, if we haven't made it so tough to get people who have the 
kind of industry experience that allows them the know-how to 
manage an acquisition process to come into government, do 
public service, and then return to their careers.
    I can't pretend I have an answer to it, but I will tell you 
that's a part of the problem.
    Senator Hagan. It certainly seems like something that we 
need to work together on, because with these huge numbers of 
vacancies it's certainly posing problems and risks in this 
area.
    Secretary Gates. It's not a problem when we hire an 
accounting major or a business major out of a university and 
they decide to make a career at the DOD. It's not a problem 
when we try to create, recreate a contracting career field in 
the Army, which had basically disappeared. When we're dealing 
with career people it's not really an issue. But it's when 
you're trying to go after more senior officials, like the 
senior acquisition executives in each of the services. These 
people manage billions of dollars and you need somebody who has 
real world experience to be able to make those decisions and 
those recommendations. Getting people at that level and more 
senior levels who have the credentials to be able to do the job 
is very tough.
    Senator Hagan. Thank you.
    I also wanted to ask a question on drawing down the troops 
in Iraq. As President Obama has stated, and you've discussed 
that too, the question I have is how secure will the remaining 
troops be? I get that question all the time. Do you believe 
that we're doing all we need to do in order to ensure that the 
remaining troops are secure? Do you foresee any situation where 
we would have to put more people, more troops, in Iraq in a 
situation? Do you have contingency plans that you're preparing 
for that?
    Secretary Gates. No, I don't see a circumstance in which we 
would have to put more people into Iraq. I think that the plans 
that General Odierno has drawn up for consolidating our forces 
and the idea would be that there would be several sites in Iraq 
that would not only have our military forces, remaining 
military forces consolidated, but that that's where our 
civilian capacity would be concentrated as well, so we can 
provide protection for the civilians who are out working in the 
communities and out doing that part of the job in Iraq as well.
    I've seen General Odierno's plans to move to this advisory 
and assistance role for the United States, both civilian and 
military, and I have great confidence in the plans that he has 
drawn up.
    Senator Hagan. Thanks, Secretary Gates. I look forward to 
working with you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for staying on. I was delighted when 
I heard it, a bit surprised, but America wins when you stay. So 
we really appreciate that.
    From Iraq's point of view, let's look down the road at the 
end of the SOFA. Do you think it's in our national security 
interest long-term to have a sustained relationship with the 
people of Iraq if they are willing to do that?
    Secretary Gates. Yes, sir, I do.
    Senator Graham. It would be a stabilizing force in the 
Mideast not known today; would that be true?
    Secretary Gates. Yes, sir.
    Senator Graham. They're right between Syria and Iran and it 
would be good to have a friend in that neighborhood.
    Secretary Gates. There are a lot of our friends and 
partners in that region that I think would welcome it a lot.
    Senator Graham. Now, we have about 15,000 prisoners still 
at Camp Bucca, I believe. Are you confident that the Iraqi 
penal system, prison system, and legal system can accommodate 
all these people in the next year, 2 years?
    Secretary Gates. My hope is that the transition plans that 
are being put in place by General Odierno and with the Iraqis 
will be satisfactory. As I mentioned earlier, we have over the 
last year or so released probably 16,000 people from Camp 
Bucca. I must say that beginning about 2 or 3 years ago the 
leadership that we had, beginning with General Stone, the 
leadership we've had at Camp Bucca has been absolutely 
extraordinary in sort of separating the wheat from the chaff 
and getting some rehab programs going and reconciliation 
programs.
    So I think those programs combined with the transition 
should give us some heart that this will work out okay.
    Senator Graham. I couldn't agree with you more. I think one 
of the unsung heroes of the war would be General Stone and the 
process he's put in place at Camp Bucca.
    But I'm fairly familiar with the prison population. There 
are going to be hundreds, if not thousands, that are going to 
be hard to reconcile, that are foreign fighters, and I just 
encourage you to work with the Iraqi government to make sure 
that we are thinking long and hard about when to let these 
people go and where to let them go.
    Now let's go to Afghanistan. You said something I think 
America needs to understand, that we need to have realistic 
goals. That is to make sure that Afghanistan is not a safe 
haven for international terrorism, the Taliban, or al Qaeda, 
like it was on September 11. I understand that and I think 
people need to know that.
    But we cannot win in Afghanistan without Pakistan's help; 
do you agree with that?
    Secretary Gates. Absolutely.
    Senator Graham. Do you believe the Biden-Lugar legislation 
would be beneficial to the relationship between our country and 
Pakistan?
    Secretary Gates. Absolutely, and the amount of money is 
important, but just as important is the fact that it is a 
multi-year commitment. One of the problems that we have with 
Pakistan is that more than once in the past we have turned our 
backs on Pakistan, and so they don't have confidence that they 
can count on us over the long term. So the multi-year aspect of 
it is really important.
    Senator Graham. I think the American people need to 
understand that our economy is on its knees at home and that 
there is no end in sight. But the money that would be spent 
under Biden-Lugar and the sustained relationship that that 
would envision between us and Pakistan is worth its weight in 
gold, literally. We cannot win in Afghanistan unless Pakistan 
is on board.
    Is it fair to say that casualties in Afghanistan are likely 
to go up?
    Secretary Gates. I think that's likely.
    Senator Graham. The amount of money we spend is likely to 
go up in the short term, maybe the foreseeable future?
    Secretary Gates. Yes, sir.
    Senator Graham. Now, when you said that the goal was a 
place that did not harbor terrorists, one of the ways to 
achieve that goal is to make sure the Taliban does not fill in 
the vacuum, right? So that means you have to have a legal 
system the people can trust and not a shura court run by the 
Taliban?
    Secretary Gates. Right.
    Senator Graham. It means an economy that people can make a 
living without turning to drugs, right? It means governance, 
where people buy into the idea that their government represents 
their interests. All those things are essential to not provide 
a safe haven for the Taliban or any other group; do you agree 
with that?
    Secretary Gates. Correct.
    Senator Graham. When we say don't have unreasonable 
expectations, I agree. But the basic elements to keep the 
country from becoming a safe haven requires institutions to be 
built that don't exist today. So on behalf of my view of this 
and the new administration, I think the time, the money, and 
the casualties we're going to sustain in Afghanistan are 
necessary and important to make sure that Afghanistan does not 
become, in the future, a safe haven for terrorism to strike 
this country again.
    Bottom line is it's going to be tough, it's going to be 
difficult, in many ways harder than Iraq. Do you agree with 
that?
    Secretary Gates. Yes.
    Senator Graham. Now, when it comes to civilian casualties 
in Afghanistan, are you spending a lot of time to minimize 
that?
    Secretary Gates. Yes, sir. I have taken a lot of time with 
this myself. It was the primary subject of my conversations 
with both President Karzai and with General McKiernan and his 
staff when I last visited Kabul. I think we have, particularly 
in terms of how we respond when there are civilian casualties, 
been too bureaucratic about it. Our approach has been in a way 
classically American, which is: Let's find out all the facts 
and then we'll decide what to do. But in the meantime, we have 
lost the strategic communications war.
    So the guidance that I provided is that our first step 
should be: If civilian casualties were incurred in this 
operation we deeply regret it, and you have apologies, and if 
appropriate we will make amends. Then we will go investigate, 
and then we will figure out whether we need to do more or, 
frankly, if we paid somebody we shouldn't have, frankly I think 
that that's an acceptable cost.
    But we need to get the balance right in this in terms of 
how we interact with the Afghan people or we will lose.
    Senator Graham. I could not agree with you more. Instead of 
saying there were 14, not 16, we need to say we're sorry if 
there was one, and move forward.
    I just want to end on this note. There's two sides to this 
story. The Afghan government army doesn't have an air force. Do 
you believe that the rhetoric of President Karzai when it comes 
to civilian casualties has been helpful or hurtful? Quite 
frankly, I am very displeased with the rhetoric coming from the 
president. We're trying very hard to minimize civilian 
casualties. The enemy integrates itself among the civilian 
population on purpose. I would love an Afghan to go through 
every door in Afghanistan, not an American soldier, but they 
don't have the capacity. I would argue that our Air Force and 
our Navy is probably the best people in town to have to 
minimize casualties.
    Do you believe that his rhetoric has been helpful or 
hurtful when it comes to dealing with this issue?
    Secretary Gates. I don't believe that his rhetoric has been 
helpful. I must tell you that when I was last there and visited 
Bagram, I got a briefing on the procedures that our pilots go 
through to try and avoid civilian casualties and how, with film 
clips of how they abort missions at the last minute if a truck 
drives into a village, and things like that.
    I took a significant element of the Afghan press with me, 
with their cameras, so that they could see that briefing and 
see just how hard we do work at trying to avoid civilian 
casualties.
    Chairman Levin. Thank you, Senator Graham.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Secretary, and 
congratulations, I guess again, that you're going to continue 
on to serve. After Senator McCaskill mentioned that she wanted 
to be in the alley with you with the knife, I'm not sure I want 
to do my two parochial things here at this moment, but I will, 
and a have a broader couple questions.
    I just want to make a quick short comment to see how you 
feel. I know you're aware of the Ground-Based Midcourse Defense 
(GMD) System we have in Alaska at Fort Greeley, the GMD. I'm 
just curious to hear what your comments are on that and how you 
feel this fits into the strategic needs of the military?
    Secretary Gates. I think that we have a missile defense 
capability that is able to take on a rudimentary threat. It is 
clearly not aimed at dealing with a large-scale threat, for 
example from either Russia or from China. I happen to think 
it's important. I think that having a layered defense such as 
we are building, that includes the ground-based interceptors, 
is very important.
    Senator Begich. Very good. Thank you very much.
    The single ones are very, very small. I just want to make 
you aware that the delegation--Congressman Young, Senator 
Murkowski, and I--sent you a letter regarding an issue with 
some of our folks, our Territorial Guard. These are 26 folks 
that are probably in their mid-80s now. They have been 
receiving military retirement for some time and they were just 
notified as of February 1 they will no longer receive it 
because of some glitch in the law.
    We are working on a piece of legislation to solve that 
problem. But the reality is, this is in the middle of winter in 
Alaska. It is folks who have served our country as Territorial 
Guard. They are Alaska Native community and they are 
subsistence livers, so the cash that they receive in retirement 
is their only lifeblood to a cash economy.
    There's a letter that's been sent to you and I hope you 
would take note of it. It is a small group, but a significant 
impact to us. I just wanted to bring that to your attention 
while you were here.
    Secretary Gates. Okay, and my understanding is that 
Secretary Geren is working on this issue.
    Senator Begich. He is and he's been very supportive on the 
new legislation. Our concern is February 1 is around the 
corner, so we're concerned and we're trying to figure out how 
to ensure that they continue to receive payments.
    I am very happy that you're looking at the procurement and 
the purchasing process. As a former mayor, I had to deal with 
this more than I probably ever thought I would as an executive. 
But I do want to just give you a couple comments. I agree with 
your comments on how you deal with recruitment of those senior 
members. I guess I would be very anxious to help in any way I 
can.
    I know as a mayor we had to do that on a regular basis. 
They were high-priced folks. Sometimes they had worked in the 
private sector, people who had bid on city stuff in the past.
    But they had the experience we needed, so we had to really 
recruit aggressively in order to get them and maintain them in 
our workforce. So I recognize the struggle. I would be anxious 
to work with you on that.
    Is there also a pay issue or not with these senior levels? 
To have this kind of vacancy factor, 43 percent, that's very 
significant.
    Secretary Gates. I don't think the pay aspect is a 
significant one. That is not something that has been brought to 
my attention as an issue.
    Senator Begich. I would be very anxious to work with you on 
that.
    Also, a technique we implemented in our city. When people 
do capital projects, especially private contractors--and we did 
a $100 million plus building. What we did with them this time, 
the first time in the city's history, we required the owners of 
the company to personally guarantee any cost overruns, which 
has never been done in Anchorage, because usually they just 
come in with an order to up the amount and get their check.
    We made them personally guarantee it, and lo and behold, 
the project came in a month early. It came in $6 million under 
budget.
    We also made an incentive, that we would split the 
difference with them. They save it, we'll split it. It was a 
design and build project. So on smaller projects it's amazing 
how quickly they become responsive when they have to sign 
personally. In that project we had four owners and they were 
required to pay $8 million personally if they did not meet the 
guarantees that they had committed to in their contracts. The 
first time the city of Anchorage had ever done that, and it 
worked.
    The bigger ones are much more difficult, but it sure did 
make them responsive.
    The other thing I'll just mention, you had in your written 
testimony, you had talked about post-traumatic stress disorder 
(PTSD) and some of the issues surrounding that. Your comment 
here was, I believe, ``We have yet to muster and coordinate the 
various legal policies, medical and budget resources across the 
DOD to address these types of injuries.''
    Are you working or is it your intent to work on a plan that 
we could see what kind of resources you need? This is a strong 
interest to me and I would be very anxious to see how you 
proceed on that.
    Secretary Gates. Sure. Congress actually, Senator, has been 
very generous to us in terms of money for dealing with both 
PTSD and traumatic brain injury. I think the issue is more 
making sure that the money get spent in the right way and is 
targeted properly.
    Senator Begich. Is that something that, as your comment 
here indicates, will you then at some point report back to us 
on how you're achieving and whatever areas you need assistance 
in?
    Secretary Gates. Sure.
    Senator Begich. Last two quick ones. One is you'll hear 
from me on probably a regular basis, the status of the military 
family and how we need to do additional work and additional 
services. Are you willing to, and maybe you have already done 
it and I'm just not familiar with it, report to Congress in 
regards to the status of the military family and the needs they 
have as the military has changed dramatically over the last 30, 
40 years?
    Secretary Gates. I think we've done a lot of that over the 
last couple of years and perhaps even before, Senator. We'd be 
happy to send some folks up to brief you. The Services all have 
extremely ambitious family support programs and I can assure 
you that the leadership, both civilian and military, of the 
Services, as well as the Department, take this extremely 
seriously.
    The saying is you enlist the soldier and you reenlist the 
family. This is the longest war we have fought with an All-
Volunteer Army since the Revolution. We have learned a lot in 
terms of the stresses on the families in an All-Volunteer 
Force, and particularly with repeated deployments of the 
servicemember and so on.
    So along with the lessons we've learned about 
counterinsurgency and so on, it seems to me one of the 
important lessons we need to absorb and institutionalize is the 
importance of taking care of our military families, and that 
the range of resources that are out there for them to provide 
support both when the soldier is at home and deployed.
    Senator Begich. Thank you very much.
    My time is up. The last comment I'll just make; no answer 
at this point. But if you ever get an opportunity to move to a 
2-year budgeting cycle, I would be a big, big supporter, so you 
can manage people rather than paper. We did that in Anchorage 
and it made a huge difference. So anything I can do to help you 
in that endeavor, I will be there.
    Secretary Gates. Thank you.
    Senator Begich. Thank you.
    Chairman Levin. The first thing I would hope you would do 
is touch base with our appropriators.
    You see the kind of struggle that the Secretary has.
    I just have a few loose ends I want to pull together here. 
One, I want to commend you on the Afghan policy which you've 
enunciated, the wisdom of it, the strength of it, the passion 
you put into it; that this war has to be a war of the Afghan 
people against those who would try to destroy their country and 
their hopes and dreams. Minimizing civilian casualties is part 
of that, but the economic picture is part of it as well.
    I would just bring to your attention in terms of the 
economic hopes one program, which is called the National 
Solidarity Program (NSP). I don't know if you're familiar with 
it, but it's a program where our agency, I think it's USAID, 
gives a few tens of thousands of dollars directly to villages, 
without anything skimmed off by the central government. I 
visited near Bagram three villages that had come together to 
build a school with a few tens of thousands of dollars. The 
feeling, the possessive feeling that they had about that school 
finally in their area--it's something like ``Three Cups of 
Tea'' on the Pakistan side, that book that was written.
    These villagers, their leaders came together just to greet 
me and to tell me that the Taliban would never dare touch that 
school; they will protect that school with their lives.
    I'd like you to become familiar with the NSP because it 
fits in directly with what you have talked about.
    Second, in terms of the comments about trying to explore 
the possibilities of doing some things jointly with Russia on 
missile defense and the importance of exploring that, what it 
could mean strategically in terms of kind of reducing the 
Iranian threat if they saw us and the Russians working 
together. You mentioned that you do think it's worthy of 
continuing those explorations.
    You pointed out that NATO has been supportive of what we've 
been doing up to now with Poland and the Czech Republic. Would 
NATO, in your judgment, likely support those kind of 
explorations between us and the Russians if we undertook them?
    Secretary Gates. I think they'd welcome it.
    Chairman Levin. Finally, a number of us have raised the 
question of the use of contractors in Iraq, including security 
contractors, and that we need to look at that, particularly for 
lessons learned purposes as it might affect what we do in 
Afghanistan, and you're in the middle of looking at that and 
reviewing that, which is more than welcome.
    Again, I would in that line request that you promptly 
respond to the December 9 letter, because that's really what 
that letter from me to you is all about.
    We thank you again. Obviously, I think every member of this 
committee thanked you for continuing your service to this 
country, and that consensus I hope gives you a real boost. I 
know you're struggling with the arm wrestling that you 
undertook. But we hope that you're given a real boost by the 
support that you got from every member of this committee and 
the gratitude that we expressed for your continued service. If 
you'll pass that along to your family as well.
    With that, we will stand adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Robert C. Byrd

   FIELD MEDICAL EVACUATION AND MEDICAL AND SURGICAL CAPABILITIES IN 
                              AFGHANISTAN

    1. Senator Byrd. Secretary Gates, what steps have been implemented 
to improve field medical evacuation (MEDEVAC) and first line medical 
and surgical capabilities in Afghanistan?
    Secretary Gates. In November 2008, I directed a comprehensive 
bottom-to-top review on how to best synchronize efforts in theater and 
accomplish the goal of improving the MEDEVAC benchmark to a 1-hour 
execution standard in Afghanistan. Improving MEDEVAC response times 
requires a systematic approach and the synchronization of aircraft, 
medical capabilities, communication, infrastructure, and security to 
support these operations.
    Based on detailed analysis and coordination, we are now executing a 
course of action that achieves parity of MEDEVAC operations in both 
theaters to the mission completion planning standards currently used in 
Iraq. The specific details of this solution are classified, and were 
briefed to the Senate Armed Services Committee (SASC) staffers on 
February 12, 2009.

    2. Senator Byrd. Secretary Gates, with regard to field MEDEVAC and 
medical and surgical capabilities in Afghanistan, what measures to 
improve timeliness and effectiveness are being considered but have yet 
to be implemented?
    Secretary Gates. In October 2008, Central Command (CENTCOM) 
implemented procedural changes to MEDEVAC launch reporting requirements 
that have already significantly decreased Regional Command-East (RC-
East) and Regional Command-South (RC-South) average MEDEVAC mission 
completion times.
    To decrease these times further, CENTCOM has submitted two requests 
for forces to increase the capability currently in Afghanistan. The 
Joint Staff, in conjunction with U.S. Forces-Afghanistan and CENTCOM, 
conducted further analysis, and based on those recommendations, we are 
sourcing additional MEDEVAC and surgical assets which will further 
augment these capabilities in Afghanistan. We have also resourced a 
MEDEVAC ``bridging strategy'' to immediately increase MEDEVAC 
capability in theater prior to the arrival of these forces. According 
to General David McKiernan, these forces are sufficient to bring the 
MEDEVAC missions in RC-East and RC-South to the same standard used in 
Iraq.

    3. Senator Byrd. Secretary Gates, what are the greatest impediments 
(e.g., lack of equipment, lack of personnel, dwell time) to providing 
more expedient field medical services to our troops deployed to remote 
locations?
    Secretary Gates. The Department of Defense (DOD) currently provides 
the highest standards of lifesaving care for all of its U.S. service 
men and women deployed to remote locations in Afghanistan and Iraq--and 
we are deploying medical capabilities and assets farther forward on the 
battlefield than ever before.
    Providing the most expedient field medical services, including 
shorter MEDEVAC response times, require a systematic approach and the 
synchronization of aircraft, medical capabilities, communications, 
infrastructure, and security to support these operations. In 
Afghanistan, the challenges of extreme weather, the necessity for hoist 
operations and significant differences in terrain contour and elevation 
increases the risk and total mission time of MEDEVAC missions. However, 
our experiences in Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) suggest that far-forward resuscitation and stabilization 
rendered during the ``platinum 10 minutes'' by combat lifesavers, 
medics and corpsmen are contributing significantly to our troop 
survival rates.
    During the length of these wars, there have been a number of 
ongoing improvements to the DOD's forward medical treatment & 
stabilization capabilities, such as:

         Self-Aid/Buddy Aid: All deploying military personnel are now 
        issued an Individual First Aid Kit which includes the latest in 
        medical supply innovations (Combat Application Tourniquet, 
        Combat Gauze, Nasopharyngeal Airway, et cetera)
         Combat Lifesaver: Now trained and equipped to treat 
        penetrating chest trauma and tension pneumothorax; more 
        extensive supplies stocked as part of Combat Lifesaver bag
         Combat Medic/Corpsman: More extensive Combat Casualty Care 
        training; has skills comparable to an Emergency Medical 
        Technician-Intermediate or -Paramedic
         Forward Surgical Team/Forward Resuscitative Surgical System: 
        deploys lifesaving operating room capability to the Brigade/
        Regimental area and forward to save the lives of casualties 
        whose injuries are so severe that they would not survive 
        transport to theater hospitals

    Fighting a prolonged war on two fronts, in addition to continuing 
our global engagement in the war on terrorism, has stretched our 
military forces, especially those in low-density, high-demand areas. 
However, thru the creative use of Joint Sourcing solutions, we have 
been able to continue to support all missions and requests for forces 
with the appropriate unit fills.

    4. Senator Byrd. Secretary Gates, when will you be able to schedule 
a briefing with my staff to address the nature and scope of this 
problem, as well as measures that the DOD is taking to address this 
matter?
    Secretary Gates. The Joint Staff J3 and Joint Staff Surgeon 
provided a classified brief to the SASC staffers on February 12, 2009.
    SASC Staffers in attendance were:

         Professional Staffers: Bill Sutey, Diana Tabler, Gabriella 
        Eisen, and John Quirk
         Personal Staff: Jim Tuite (from your staff)

                     TRANSITION OF MISSION IN IRAQ

    5. Senator Byrd. Secretary Gates, the agreement negotiated with the 
Iraqi Government calls for U.S. troops to be withdrawn from Iraqi 
cities by June 2009. Once U.S. Forces have been withdrawn from the 
cities, what will be their role? What level of redeployment do you see 
occurring at that time?
    Secretary Gates. The Department is working with the Government of 
Iraq to determine mutually agreeable plans for a responsible withdrawal 
of U.S. combat forces from Iraqi cities, villages, and localities by 
June 30, 2009 in full implementation of the U.S.-Iraq Security 
Agreement (SA). The Joint Military Operations Coordination Committee, 
as provided for by the SA, is the forum for senior Iraqi and U.S. 
officers to consult and agree upon the role of U.S. forces after June 
30, 2009. Discussions continue with the Iraqis regarding mutually 
acceptable roles for U.S. forces within the structure of the SA. The 
Department is currently working with other Federal agencies, as 
requested by the President, to develop options for a responsible 
drawdown of U.S. combat forces from Iraq as we continue to seek to 
improve Iraq's ability to security itself and continue to develop a 
long-term strategic relationship.

    6. Senator Byrd. Secretary Gates, are the Iraqi security forces 
(ISF) prepared to effectively assume their responsibilities for border 
and national security, and basic civil and law enforcement? If not, 
when will the Iraqi forces be ready to do so?
    Secretary Gates. The ISF continue to improve their capabilities, 
and as we transition responsibility to them over the next 18 months, we 
believe that they will be ready in most respects. In many cases, they 
have already assumed responsibility for security with little or no 
assistance from U.S. forces.
    More than 70 percent of the Iraqi military battalions are assessed 
as being in the lead or operating with minimal assistance from U.S. 
forces. The Iraqi Air Force flies over 350 operational and training 
sorties per week and the Iraqi Navy conducts on average 42 independent 
patrols and 35 boardings per week. Over the last 18 months, the Iraqi 
military has conducted successful operations in Basrah, Baghdad and 
other places previously dominated by insurgent groups.
    The Iraqi police forces continue to improve and are assuming 
significantly more responsibility for internal security. For example, 
local Iraqi police are the primary security force in Anbar province and 
the Iraqi National Police have greatly increased security through their 
operations in the volatile Ninewa province.
    The different elements of the ISF combined recently and effectively 
provided a secure environment for the conduct of the Provincial 
Elections.
    All of these examples demonstrate that the ISF will continue to 
improve and with our continued support, will effectively secure their 
country. We believe that, though the bulk of U.S. forces will depart 
Iraq by August 2010, the transition forces who remain will be fully 
capable of helping the Iraqis achieve full responsibility in a short 
period of time.

    7. Senator Byrd. Secretary Gates, what assistance, if any, will 
they expect or receive from U.S. Forces in the interim?
    Secretary Gates. Though the ISF are becoming increasingly more 
capable, they still need our assistance providing critical enabling 
capabilities like logistics, intelligence, and fire support. They also 
require our technical advisory support to help them continue to develop 
into a force capable of providing internal and external security.
    The Government of Iraq, with our support, is working hard to 
develop and field these enabling capabilities that will reduce their 
reliance on the U.S. For example, the Iraqi Ministry of Defense is 
developing a national supply and distribution network that will support 
all their combat divisions and accelerated fielding of Iraqi motor 
transport regiments has significantly reduced their dependency on the 
U.S. to move supplies.
    The Ministry of Interior began fielding a National Police 
Sustainment Brigade in October 2008. This will be a mobile organization 
providing support to the four National Police divisions and separate 
brigades during operations.

     CONTRACT REFORM, CONTRACT OVERSIGHT, AND FRAUD AND CORRUPTION 
                             INVESTIGATIONS

    8. Senator Byrd. Secretary Gates, audits conducted by the Special 
Inspector General for Iraqi Reconstruction and the Government 
Accountability Office (GAO) have consistently revealed pervasive 
contracting and oversight problems that have resulted in the loss of 
billions of dollars due to fraud, waste, or corruption. What are you 
doing to improve contract accountability and ensure the prosecution of 
criminal acts?
    Secretary Gates. Senior leadership within the Department's 
acquisition community is combating fraud, waste and abuse. For example, 
the section 813 senior leader panel on Contracting Integrity, in 
response to GAO 06-838, stood up 10 committees to improve oversight and 
management of the contracting and acquisition process. They implemented 
20 of the 21 actions identified in 2008 and held one in abeyance to 
analyze the effect of recent legislation. The panel has commenced 
implementation of 28 additional actions in 2009. The Department has 
found the Panel on Contracting Integrity to be an effective DOD-wide 
forum to identify and deal with vulnerabilities in the defense 
contracting system.
    We are reviewing our processes to comply with regulations and avoid 
fraud, waste and abuse. The DOD Inspector General and Army Audit Agency 
(AAA) perform continual audits and theater-specific reviews of 
contracting-related issues. For the past 18 months, the AAA has audited 
the contracting processes at the Joint Contracting Command-Iraq/
Afghanistan (JCC-I/A) at the request of the JCC-I/A Commanding General. 
This ongoing review allows for the identification of issues, the 
implementation of corrective action, and a review at another 
organization to determine if the corrective action is effective. 
Additionally, the Deputy Assistant Secretary of the Army (Procurement) 
has a team of contracting professionals annually perform an in-theater 
Procurement Management Review to ensure contracting in Iraq and 
Afghanistan meets the highest professional standards.
    Contract accountability and oversight is being continually improved 
in theater. The implementation of a number of e-business systems will 
provide real-time and wide-spread access to contract data. Prior to the 
implementation of electronic systems, only a ``boots on the ground'' 
review of paperwork would allow the identification of problems. The lag 
time to discover a problem allowed the continuation of sloppy or 
improper procedures, or in a few instances, fraud. The Standard 
Procurement System (SPS), a DOD-wide automated contract writing and 
reporting tool, was implemented for the JCC-I/A on October 1, 2008. SPS 
will help to ensure consistency and completeness in the writing of 
contracts in theater and will track and provide timely reports and 
visibility of contract awards, both through the input of real-time 
contracting information into the Federal Procurement Data System-Next 
Generation and through the Army Contracting Business Intelligence 
System.

    9. Senator Byrd. Secretary Gates, the United States has in the past 
provided ISF with weapons, some of which have quickly found their way 
onto the black market and into the hands of terrorists. What have you 
done to improve the accountability of weapons transferred to ISF?
    Secretary Gates. I share your concern regarding weapons provided to 
Iraq's security forces falling into the hands of terrorist or being 
sold into the black market. The DOD has carefully reviewed all 
authorities and programs responsible for exports and transfers of 
defense articles to Iraq and implemented policies and procedures to 
improve accountability and prevent misuse of U.S.-provided weapons.
    These policies and procedures comply with the requirements of the 
registration and monitoring program prescribed in section 1228 of the 
National Defense Authorization Act for Fiscal Year 2008, Public Law 
110-181. The registration and monitoring program provides for serial 
number registration of small arms; an end-use monitoring program for 
lethal defense articles; and a detailed record of the origin, shipping, 
and distribution of defense articles transferred to Iraq under the Iraq 
Security Forces Fund or any other security assistance program.
    These policies have been implemented through a DOD issuance 
requiring all DOD components involved in export or transfer of defense 
articles to Iraq to comply with section 1228. The Department also 
verified that all organizations transferring or authorizing the export 
of defense articles to Iraq have implemented appropriate measures 
complying with section 1228. The Department is ensuring quarterly 
reporting by the Multi-National Security Transition Command-Iraq of 
lethal items transferred and compliance assessment visits when 
appropriate.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy

                       DISPLACED PERSONS IN IRAQ

    10. Senator Kennedy. Secretary Gates, many of us are concerned 
about the millions of displaced persons in Iraq and the region and are 
interested in knowing what reports or assessments DOD has prepared 
regarding the likelihood of their returning to their homes and 
communities in the short-, medium-, and long-term?
    Secretary Gates. The State Department has the lead on this issue. 
DOD does not produce formal assessments regarding the likelihood or the 
pace at which displaced persons might return. DOD monitors observable 
displacement and return trends reported by U.S. Forces or other 
agencies, especially if the volume of returns ignites renewed violence 
or degrades hard-won security gains. DOD participates in interagency 
deliberations on Iraqi displacement and returns.

    11. Senator Kennedy. Secretary Gates, we have similar concerns and 
would like the same assessment from the DOD about displaced persons and 
refugees in Afghanistan and Pakistan. Would you provide this 
information to the committee and continue to keep us apprised of 
developments and assessments in this area? Additionally, we would like 
to know which office in DOD is responsible for this area.
    Secretary Gates. Although DOD monitors these issues, the Department 
of State, with the U.S. Agency for International Development (USAID), 
generally has the lead on this issue within the U.S. Government. We at 
DOD are concerned about the situation of refugees and displaced people 
in Afghanistan. The DOD's twice annual report on Progress toward 
Security and Stability in Afghanistan (submitted pursuant to the 2008 
National Defense Authorization Act) addresses the issue of displaced 
persons and refugees. DOD supports these efforts within its means and 
capabilities.
    Within DOD, the Office of the Assistant Secretary of Defense for 
Asian and Pacific Security Affairs (APSA) oversees this issue. APSA 
coordinates closely with counterparts within DOD and in the Department 
of State and USAID. I will keep you apprised of any developments or 
assessments DOD conducts in this area.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                     ENERGY EFFICIENCY TECHNOLOGIES

    12. Senator Reed. Secretary Gates, in addressing the energy 
challenges that face the Nation, I believe the DOD can play a dual role 
of investing in advanced research and manufacturing of new energy 
technologies, and by acting as an early adopter of these technologies 
to help lower their cost and help initiate their more wide-scale 
adoption. What steps will you take to make DOD an aggressive early 
adopter of advanced energy technologies, for example by leasing or 
purchasing hybrid electric vehicles for use on DOD installations?
    Secretary Gates. We have increased our investment in developing, 
testing, and procuring energy technologies from about $400 million in 
fiscal year 2006 to $1.3 billion in fiscal year 2009. We are testing 
and validating these technologies, and expanding successful 
demonstrations for broader use. Initiatives cross a broad range of 
functional areas, focused on reducing demand, increasing assured 
supply, and improving business processes, and all could lead to greater 
commercial use. Examples include:

         Nellis Air Force Base, NV, which has the largest solar farm 
        in the Americas, providing \1/4\ of the base power.
         Insulation of tents in Iraq and Afghanistan, for a 30-60 
        percent reduction in energy consumption.
         Development of efficient jet engines with a 25 or greater 
        improvement in fuel efficiency.
         LED lights in Wedge 5 of the Pentagon, providing a net 
        savings of $4 million over life of the fixtures.
         Development and certification of affordable synthetic and 
        biofuels.
         Development of high efficiency, compact fuel cells.

    13. Senator Reed. Secretary Gates, do you plan on focusing more 
effort on energy research and on investing in manufacturing of advanced 
energy technologies?
    Secretary Gates. The Department has made a significant investment 
in developing and procuring energy technologies. Our current annual 
investment is approximately $1.3 billion and includes investments in 
manufacturing and facilitization for fuel cell components, solar power, 
and high-density energy storage devices. We recognize the value of 
energy, both financially and in terms of operational capability, and 
are developing a prudent energy program that balances requirements and 
opportunities with competing priorities.

                          DEFENSE LABORATORIES

    14. Senator Reed. Secretary Gates, what are the major challenges 
you see facing DOD laboratories and technical centers as they seek to 
stay technically competitive with their Federal, industry, academic, 
and global peers?
    Secretary Gates. The ability of the DOD laboratories and technical 
centers to support the Department's missions through research and 
technology development is important for our national security. Over 
time, specific challenges for laboratories and centers change, but 
these challenges tend to cluster around recruiting and retaining 
personnel, balancing the need for security with the need to 
collaborate, and having access to world class equipment. The Department 
needs to attract and retain a workforce that is competitive with hiring 
mechanisms that provide flexibility to recruit the best, and we need to 
maintain a workforce environment that will retain and reward them. 
Laboratories and centers must maintain modern, high-quality facilities 
both to accomplish their technical work and to retain a high-quality 
scientific and engineering workforce.

    15. Senator Reed. Secretary Gates, what steps will you take to 
improve the quality of the laboratories' technical workforce and 
research infrastructure?
    Secretary Gates. To enable laboratories to attract scientific and 
engineering personnel, I am implementing authorities granted by 
Congress for expedited hiring of highly qualified experts, medical 
personnel, acquisition personnel, and, for selected Science and 
Technology Reinvention Laboratories professional scientific and 
engineering personnel with advanced degrees.
    I will be evaluating the effectiveness of existing personnel 
demonstration programs conducted at Science and Technology Reinvention 
Laboratories to identify which approaches have proven to be effective 
in: addressing workforce recruitment, retention, technical 
qualifications and imbalances; improving laboratory quality and 
effectiveness; and assessing whether there are approaches that the DOD 
may choose to pursue across its entire science and technology 
workforce. I will also review other relevant authorities available to 
the Department to assess their effectiveness and applicability to other 
Departments.
    Beyond these steps, we have conducted the first prize challenge led 
by the DOD Research and Engineering (DDR&E) team. The Department has 
the authority to approve additional prize competitions at DOD 
laboratories. These challenges connect DOD to nontraditional providers, 
generate awareness of DOD needs and programs, and invigorate the 
creativity of our lab personnel. DOD needs to expand these programs to 
encourage creativity and innovation in our DOD labs and warfare 
centers.

                     TEST AND EVALUATION ENTERPRISE

    16. Senator Reed. Secretary Gates, how would you assess the state 
of the Department's test and evaluation enterprise, including test 
resources and ranges, instrumentation, and workforce?
    Secretary Gates. The Department views test resources as an all 
encompassing term that includes the workforce, infrastructure, funding, 
and associated processes that result in needed test and evaluation 
capabilities to support our acquisition programs and ultimately our men 
and women in uniform. To ensure adequate funding, management, and 
support of these test ranges and resources, 10 U.S.C. 196 directs the 
Secretary of Defense to establish a DOD-level resource management 
organization, the Test Resource Management Center (TRMC) to provide 
robust and flexible test and evaluation capabilities to support the 
development, acquisition, fielding, and sustainment of defense systems.
Workforce:
    There are about 13,500 military and civilian personnel located 
across some 24 activities that comprise what is known as our Major 
Range and Test Facility Base (MRTFB). The ratio is about 2-to-1 
civilian to military.
    During the past decade there has been an overall 20 percent decline 
in work years across the MRTFB due to reductions in manpower. That 
decline has stabilized during the fiscal year 2005-fiscal year 2007 
time period primarily due to increased activity in support of our two 
major conflicts. Where there have been government personnel shortfalls, 
those facilities and ranges have augmented their core workforce with 
additional contractor support to meet customer demands.
    While the workforce that supports the MRTFB continues to meet 
current demands, our concern is for the future. We will need to 
continue our efforts to attract and retain the scientists, engineers, 
and technicians to support our future testing requirement in areas such 
as Directed Energy, Unmanned Systems, and Information Operations.
Infrastructure:
    As a whole, the assessment of the current test and evaluation 
infrastructure for the Department remains healthy. Military Department 
test and evaluation accounts are primarily maintaining stable levels, 
with the exception of the Army Test and Evaluation Ranges account, but 
customer requirements are becoming more and more complex. The Military 
Departments must take a pragmatic approach to assessing capacity and 
free up existing dollars for investment by divesting of unnecessary or 
duplicate infrastructure; however, this should only occur after 
assessing impacts of such divestitures and informing the appropriate 
stakeholders prior to closure or reduction. In the past, several assets 
across the MRTFB have been reduced or mothballed without appropriate 
notification. As a result, the USD(AT&L) signed an interim policy 
memorandum on January 18, 2008 requiring any action that would result 
in a change to a test and evaluation capability be approved by the 
Director, TRMC. TRMC is working with the appropriate military 
department and Defense agency representatives to develop policy to 
eliminate this practice and ensure the test and evaluation 
infrastructure remains capable and available to support the future test 
needs of the acquisition community.
Funding:
    With the exception of a slight increase in user funding correlating 
to the post-September 11 era initiation, the overall MRTFB 
infrastructure and investment funding has changed little over the 
course of the past several years. Despite the fact that test and 
evaluation funding has remained relatively constant, it has not 
experienced an increase, which corresponds with the overall increase in 
DOD Research, Development, and Acquisition funding. In addition, given 
the significant increase in emerging, expedited requirements due to 
U.S. participation in two simultaneous wars, and the resultant increase 
in test and evaluation workload, the MRTFB buying power has lost 
ground. Though the MRTFB funding through fiscal year 2008 has been 
determined to be sufficient, the Army fiscal year 2010 test and 
evaluation operations accounts are inadequate. The Army has been tasked 
to assess the impacts of the fiscal year 2009 and fiscal year 2010 
funding reductions to acquisition programs and test and evaluation 
capabilities. By March 31 of this year, I will be providing a separate 
report to Congress on a get well plan to address Army test and 
evaluation range shortfalls.

    17. Senator Reed. Secretary Gates, what steps will you take to 
ensure that the Department has the test and evaluation capabilities 
necessary to support the development of operationally effective weapons 
systems in the most cost effective and efficient manner?
    Secretary Gates. As a result of earlier congressional action, I 
already have a process in place that assesses the adequacy of DOD's 
test and evaluation infrastructure and provides me recommendations on 
needed investments. Congress recognized the need for test and 
evaluation capabilities and to have a healthy test and evaluation 
infrastructure capable of supporting the development of complex weapon 
systems. Section 231 of the Bob Stump National Defense Authorization 
Act for Fiscal Year 2003 enacted 10 U.S.C. 196 that directed the 
Secretary of Defense to establish the TRMC, under the supervision of 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics to:

          (1) Review and provide oversight of proposed DOD budgets and 
        expenditures for the MRTFB of the DOD and all other test and 
        evaluation facilities and resources within and outside of the 
        DOD;
          (2) At least every 2 years, develop a Strategic Plan 
        reflecting the needs of the DOD with respect to test and 
        evaluation facilities and resources for the next 10 fiscal 
        years;
          (3) Conduct an annual review of the proposed test and 
        evaluation budgets of the Military Departments' and Defense 
        Agencies with test and evaluation responsibilities and certify 
        whether they are adequate and whether they provide balanced 
        support for the Department's Strategic Plan for Test and 
        Evaluation Resources; and
          (4) Administer the Central Test and Evaluation Investment 
        Program and the DOD test and evaluation science and technology 
        program.

    Besides these statutory responsibilities, I require the TRMC to 
assess the adequacy of the MRTFB to support development and testing of 
defense systems and to maintain an awareness of other test and 
evaluation facilities and resources, within and outside the Department, 
to understand the impact of any changes that occur there on DOD's test 
and evaluation capabilities. The TRMC provides me regular reports and 
recommendations on current and projected infrastructure matters to 
ensure that adequate capabilities exist to support testing of DOD 
acquisition programs, and that the DOD test and evaluation workforce, 
infrastructure, and funding will be fully capable of supporting the 
Department with quality products and services in a responsive and 
affordable manner.

                      RAPID ACQUISITION PROCESSES

    18. Senator Reed. Secretary Gates, what do you see as the major 
challenges to the rapid development and deployment of new technologies 
to warfighters?
    Secretary Gates. There are three major challenges to the rapid 
development and deployment of new technologies to the Warfighter. They 
are:

          (1) Availability and alignment of resources in the year of 
        execution. We must have funds available in the execution year 
        to rapidly react to warfighting needs with new technology from 
        commercial sources, prototyping, or accelerated maturation of 
        technology from the Science and Technology base.
          (2) Availability and training of contracting officers that 
        specialize in statutes, authorities and regulations that 
        facilitate rapid response.
          (3) Accepting solutions that are 75 percent to 95 percent 
        ready. By waiting for full development and testing, we defeat 
        the goal of rapid acquisition. With this challenge also comes 
        the difficulty in supporting the transition and sustainment of 
        these rapidly supplied capabilities including deciding which 
        will not be transitioned and sustained.

    In recent years, the Department has taken several actions to meet 
these challenges. With the support of Congress, the Mine Resistant 
Ambush Protected (MRAP) program has been funded through the MRAP 
Transfer Fund, which allowed the flexibility of funding essential to 
rapid acquisition. We have also used our experiences with MRAP to 
update acquisition training at the Defense Acquisition University in 
addition to looking at different alternatives for community management 
of contracting officers. The Army has also been very successful with 
its emphasis on contingency contracting by restructuring its 
contracting corps. The final challenge of accepting a solution that is 
less than 100 percent has been the most difficult to achieve. We have, 
however, had success with rapid prototyping and demonstration programs 
fielding solutions that continued to mature as they were being used. 
The longer-term challenge will be to transition or phase out these 
interim capabilities in a way that is equitable and cost effective

    19. Senator Reed. Secretary Gates, what steps do you plan to take 
to address these challenges?
    Secretary Gates. The Department adapts to its lessons learned; and, 
has learned a great deal with the fielding of MRAPs and new 
capabilities in intelligence, surveillance, and reconnaissance, 
counter-Improvised Explosive Device, and other emerging technologies. 
The Department is taking steps to integrate and institutionalize these 
lessons learned into the Defense Acquisition System, including its 
science and technology efforts.
    The Department intends to develop parallel processes that allow us 
to wage wars while providing rapid responses to changing threats and 
conditions, as well as plan for future wars. Additionally, section 801 
of the Duncan Hunter National Defense Authorization Act for Fiscal Year 
2009 directs the Department to study and report upon the effectiveness 
of the processes used for the generation of urgent operational need 
requirements, and the acquisition processes used to fulfill such 
requirements. The Department will evaluate findings and recommendations 
from that report and other related studies to address the challenges in 
adapting technology to quickly fulfill immediate warfighter needs.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

     NAVY DECISION TO ESTABLISH A SECOND AIRCRAFT CARRIER HOMEPORT

    20. Senator Bill Nelson. Secretary Gates, since the 1980s, the Navy 
has expressed the importance of strategic dispersal of capital ships 
like aircraft carriers, and geographic diversity of unique maintenance 
facilities like radiological work facilities. Accordingly, the Navy 
deemed one aircraft carrier homeport on the West Coast unacceptable. 
Consequently, the Navy has three nuclear aircraft carrier (CVN) 
homeports on the west coast.
    In 2005, the Navy began a study to look into the feasibility of 
homeporting additional surface ships at Naval Station Mayport, and on 
14 November 2006, in accordance with the National Environmental Policy 
Act (NEPA), the Navy began a study to determine the environmental 
impacts of moving additional ships to Naval Station Mayport. On 14 
January 2009 the final Record of Decision (ROD) was signed, 
recommending that a CVN be homeported in Mayport. Among the reasons 
stated in the ROD was the need to develop a hedge against the 
potentially crippling results of a catastrophic event at Naval Station 
Norfolk, the only East Coast CVN homeport.
    Please describe your assessment of the Navy's decision in terms of 
the Navy's mission and the Nation's security interests.
    Secretary Gates. The Navy's Title X mission is to maintain, train 
and equip combat-ready naval forces capable of winning wars, deterring 
aggression and maintaining freedom of the seas. To provide this combat-
ready and responsive force, ships, submarines, and aircraft must be 
strategically positioned and homeported. These homporting decisions 
must meet required response times to contingencies and planned 
operations, efficiently support global engagement, maximize training 
effectiveness, and protect the fleet from future threats.
    I concur with the Navy's assessment that there is significant 
national security value in establishing an additional east coast CVN 
support base. Specifically, there is a clear need to develop a hedge 
against the potentially crippling results of a catastrophic event in 
the sole Atlantic Fleet CVN capable homeport. The consolidation of CVN 
capabilities in the Hampton Roads area on the east coast presents a 
unique set of risks. CVNs assigned to the west coast are spread among 
three homeports. Maintenance and repair infrastructure exists at three 
locations as well. As a result, there are strategic options available 
to Pacific Fleet CVNs should a catastrophic event occur. In contrast, 
Naval Station Norfolk is homeport to all five of the CVNs assigned to 
the Atlantic Fleet and the Hampton Roads area is the only east coast 
location where CVN maintenance and repair infrastructure exists. The 
Hampton Roads area also houses all Atlantic Fleet CVN trained crews and 
associated community support infrastructure.
    There are many factors effecting strategic carrier dispersal such 
as future threats, the future of Navy force structure and likely cost 
effectiveness. The 2010 Quadrennial Defense Review (QDR) will assess 
these factors as well as the costs of upgrading Naval Station Mayport 
to permanently homeport a nuclear aircraft carrier including follow-on 
wharf improvements, infrastructure upgrades for nuclear propulsion 
plant maintenance facilities, and any changes required to comply with 
the NEPA. These potential costs and potential benefits will be assessed 
for an additional carrier homeport on the east coast before Defense 
puts forth the final decision.

    21. Senator Bill Nelson. Secretary Gates, please describe the risks 
to the Nation should implementation of the Navy's decision be delayed.
    Secretary Gates. The most significant risk caused by delay in 
implementing the Navy's decision is the continuing vulnerability of our 
Atlantic Fleet CVN force to the potentially crippling effects of a 
catastrophic event in the Hampton Roads area. The Nation can not wait 
for a catastrophic event to occur before recognizing the potential 
impacts of such an event and appropriately planning and preparing for 
continuity of operations. On the most aggressive schedule, it would be 
no sooner than 2014 before a CVN could be homeported in Mayport. 
Delaying the process could defer the opportunity to mitigate risk for 
several years as the process is lengthy. Having a single CVN homeport 
is not considered acceptable on the west coast and should not be 
considered acceptable on the east coast.
    The Navy will continue with the scheduled dredging of the Mayport 
channel in fiscal year 2010 to support any future decisions to 
permanently homeport a nuclear-powered aircraft carrier. Making Naval 
Station Mayport CVN-capable will be the first step towards providing a 
second naval port capable of berthing a nuclear carrier in the event of 
a catastrophic event in Hampton Roads. The final decision on whether to 
homeport a carrier in Mayport will be made by the 2010 QDR.

      SURVIVOR BENEFIT PLAN/DEPENDENCY AND INDEMNITY COMPENSATION

    22. Senator Bill Nelson. Secretary Gates, under current law, if the 
surviving spouse of a servicemember is eligible for Survivor Benefit 
Plan (SBP), that annuity is offset by the amount of Dependency and 
Indemnity Compensation (DIC) received (approximately $1,200). I would 
like to work with DOD to eliminate this offset.
    Understanding the challenges you face with balancing discretionary 
and mandatory spending, please provide your thoughts about this 
important quality-of-life issue.
    Secretary Gates. The offset to SBP for simultaneous DIC entitlement 
is fair, reasonable, and equitable. To allow receipt of both annuities 
without offset would create an unjust inequity by giving dual lifetime 
annuities to certain survivors, while survivors of other deceased 
former military members would continue to receive only one or the 
other. If current levels of the annuity for survivors of members who 
die from service-connected causes are deemed insufficient, perhaps the 
level of DIC should be reevaluated, rather than allowing dual 
compensation for a select group.
    The current offset process allows dual entitled survivors to 
receive a lifetime annuity that is the larger of SBP or DIC, while 
preventing duplication of compensation for the same purpose. It also 
allows such members to take advantage of the tax-exempt status of DIC. 
SBP was developed for the military retiree and DIC for the veteran not 
serving to retirement (to include those who die in Active service). The 
existing offset rule made it reasonable in 2001 to extend SBP to 
survivors of members who died on Active Duty before retirement 
eligibility. This was advantageous, since SBP and DIC are 
complementary. SBP is based on the pay of a member while DIC is a flat 
rate; thus, DIC sets a floor for the annuity that is advantageous for 
junior personnel with fewer years of service, while SBP offers the 
potential for a higher annuity for more senior personnel with greater 
years of service. Both programs are highly subsidized by the government 
(DIC at 100 percent and SBP from 50 to 100 percent), and to pay both 
would be double payment for the same purpose.

    23. Senator Bill Nelson. Secretary Gates, please provide plans, 
which Congress can consider, that would eliminate this offset over 
time.
    Secretary Gates. As noted in the response to question #22, I do not 
favor eliminating the SBP-DIC offset and suggest that if current 
annuity levels for survivors of former military members who die of 
service-connected causes are deemed inadequate, the level of DIC should 
be reevaluated.

                                PAKISTAN

    24. Senator Bill Nelson. Secretary Gates, last fall, the New York 
Times reported a U.S. military operation across the Afghanistan border 
into the Federally Administered Tribal Areas (FATA) in Pakistan. This 
was a new initiative for uniformed U.S. military forces to cross the 
border. It also drew outrage from the Pakistanis.
    It is important to brief any and all such operations to the full 
membership of the Senate Select Committee on Intelligence. DOD 
continues to refuse to brief anyone but the chairman and ranking member 
about this alleged operation. What is DOD's role in stabilizing the 
FATA?
    Secretary Gates. DOD is working with Pakistan's military and 
paramilitary forces to help build their counterterrorism and 
counterinsurgency capacity to deny terrorists and insurgents safe haven 
within its sovereign territory, especially in the tribal region of the 
Northwest Frontier Province and FATA. Through the Security Development 
Plan, DOD is training and equipping Pakistani military (PAK MIL) and 
paramilitary security forces to enhance their ability to conduct 
counterinsurgency operations. This is one element of a broader 
counterinsurgency initiative that includes a $750 million, 5-year 
commitment by USAID to enhance infrastructure development and social 
welfare in the border region and parallel efforts by the Department of 
State to enhance the ability of Pakistani institutions to extend their 
writ of governance into the border region.

                           WAR IN AFGHANISTAN

    25. Senator Bill Nelson. Secretary Gates, you have publicly stated 
that a new Afghanistan strategy is a high priority for the Obama 
administration. Has President Obama explicitly endorsed the Pentagon's 
plan to send up to 30,000 additional troops to Afghanistan? If the 
decision is made, when can we expect the deployment to occur and where 
in Afghanistan would the U.S. troops be deployed?
    Secretary Gates. President Obama has not yet made any decisions on 
the deployment of additional military forces to Afghanistan. The 
administration will conduct a strategic review of our policies toward 
Afghanistan. As we move forward, we will come to this committee and 
other Members of Congress for advice and support.
    Decisions on further deployments of military forces to Afghanistan 
will be informed by that review.

    26. Senator Bill Nelson. Secretary Gates, how will Special 
Representative Richard Holbrooke's new mandate coincide with that of 
General Petraeus, who was tasked with a strategic review of U.S. policy 
in Afghanistan?
    Secretary Gates. Special Representative Holbrooke will work closely 
with my office, and with General Petraeus on all matters related to 
Afghanistan and Pakistan.
    The administration will conduct a strategic review of our policies 
toward Afghanistan. I am confident that Ambassador Holbrooke and the 
Under Secretary of Defense for Policy will work together closely on the 
strategic review. As we move forward, we will come to this committee 
and other Members of Congress for advice and support.
    Early in his command, General Petraeus directed his staff at U.S. 
CENTCOM to lead an interagency assessment of his entire area of 
responsibility. I expect the findings of the CENTCOM assessment to help 
inform the new administration's comprehensive review.
                                 ______
                                 

           Questions Submitted by Senator E. Benjamin Nelson

               OUTPATIENT SERVICES FOR MILITARY PERSONNEL

    27. Senator Ben Nelson. Secretary Gates, late last year, 57 
Senators wrote to you expressing grave concern with a DOD proposal that 
would subject hospitals to sudden and severe cuts in payments for 
outpatient services provided to military personnel. In late December, 
DOD responded with a final policy that, in effect, ignored our 
concerns. I, for one, am offended and I am reasonably confident that 
the 56 other Senators who signed the letter agree.
    Will you reopen this rule per the Emanuel Memo so you can work with 
me and my colleagues to ensure implementation of a 15 percent annual 
limit on losses for all Services until the Medicare-like rates are 
reached? This will ensure a predictable and sustainable transition that 
reaches our common interest of providing quality care to military 
personnel while being stewards of the public dollar.
    Secretary Gates. Yes, the rule was reopened on February 6, 2009 for 
an additional 30-day period, even though legal counsel believes the 
decision not to reopen public comment would be fully supportable based 
on the criteria of Mr. Emanuel's Regulatory Review memorandum of 
January 20. All new comments will be evaluated. Barring any resulting 
modification of the rule, TRICARE's Outpatient Prospective Payment 
System (OPPS) will be implemented May 1, 2009.
    Transition was a key element in the development of the Department's 
implementation plan. The Senators recommended a transition to the 
Medicare OPPS rates. TRICARE has taken measures to buffer the initial 
revenue reductions that hospitals will experience upon implementation 
of OPPS. Under the final rule, temporary transitional payment 
adjustments (TTPAs) above current Medicare rates will now apply to both 
network and non-network hospitals. This is consistent with the stop 
loss transitional period over which the Centers for Medicare and 
Medicaid Services fully implemented its OPPS rate structure, providing 
hospitals with sufficient time to adjust and budget for potential 
revenue reductions. The duration of the TTPAs has also been extended 
for an additional year for network hospitals. The 4-year network 
hospital transition period will set higher payment percentages for 
emergency room and hospital clinic visits. For non-network hospitals, 
the TTPAs will cover a 3-year period. Under the TRICARE transitional 
methodology, OPPS payments would be around 80 percent of the total 
billed amounts currently allowed under TRICARE's charge based 
reimbursement system for network hospitals. This would approximate the 
15 percent stop loss provisions being promoted by the hospital 
associations. The Department believes that modification of the 
transitional payment methodology is responsive to the Senators' 
concerns.
    The Department by no means ignored the concerns of the Senators. 
Appropriate responses were promptly drafted. Circumstances of timing 
and coordination resulted in a delay, and ultimate change in the 
original position. This unusual circumstance was compounded by 
subsequent congressional staff questions, and our legal counsel's 
review of the Emanuel memorandum relative to this rule. The Department 
has gone to great lengths to comply with the Senators intent and 
desires on this issue, but agrees that an apology for our timeliness 
may be in order.

                        STRESS FROM DEPLOYMENTS

    28. Senator Ben Nelson. Secretary Gates, in an American Forces 
Press Service news article dated 21 January 2009, Admiral Mullen was 
quoted as saying:
    ``The next 2 years will be a delicate time for the U.S. military . 
. . [I] am worried about the force and the stress that repeated 
deployments place on servicemembers and their families . . . [I] will 
continue to monitor dwell time, the ability to recruit and retain the 
force and ways to maintain the balance of the military.''
    I agree with Admiral Mullen that the next 2 years will be a 
delicate time for our military. I am also very concerned about the 
stress that repeated deployments place on our servicemembers and their 
families. As we embark on these next 2 years, what do you consider are 
the top personnel issues that must be addressed and what can I do as 
the chairman of the Personnel Subcommittee to assist you with these 
issues?
    Secretary Gates. I appreciate your support of our military members 
and all the efforts of you and the committee to take care of our 
servicemembers and their families and I agree with Admiral Mullen that 
we have much to do to reduce stress on the forces. Although we face 
many challenges in the coming years, the top personnel issues should be 
protecting the totality of resources needed to attract and retain a 
robust volunteer force and ensuring we take care of our wounded 
warriors, their families and families of the fallen.
    This is the best military we've ever had and its members are making 
an extraordinary difference even as they and their families sacrifice 
on behalf of our Nation. Balancing the stress of the force with the 
health of the force becomes an imperative. We must ensure our personnel 
have the equipment, training and other resources required to win our 
Nation's wars and protect military pay and benefits. Of equal 
importance is providing for the well-being of our military families in 
ways that will encourage them to support the military members entering 
and remaining on active duty for full careers.
    We must improve and expand our existing support structures for 
families with greater sensitivity to their challenges and daily 
sacrifices. We should examine ways to increase spouse employment 
programs, and child care and development services for working families. 
Strengthening the support structure could be a decisive factor in 
helping families reduce divorce and suicide rates, and have a positive 
impact on recruiting and retention.
    We must honor our responsibility to our Wounded Warriors, their 
families, and the families of the fallen who have sacrificed 
everything. Departments of Defense and Veterans Affairs (VA) must 
partner in screening war veterans for Post Traumatic Stress Disorder 
(PTSD) and Traumatic Brain Injury (TBI) upon return from combat and 
after discharge from military service. Also, both departments should 
assist in helping the Wounded Warriors secure meaningful government 
employment and ensure their health care needs are met.
    Again, thank you for your support of our military members and their 
families.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                              AFGHANISTAN

    29. Senator McCain. Secretary Gates, in your view, should our near 
term focus in Afghanistan be protecting the population along the lines 
of a traditional counterinsurgency strategy, or should it have as its 
aim the complete elimination of the Taliban and al Qaeda?
    Secretary Gates. The administration will conduct a strategic review 
of our policies toward Afghanistan. The results of that review will 
help us establish near-, mid-, and long-term goals in Afghanistan and 
identify ways and means to achieve those goals. As we move forward, we 
will come to this committee and other Members of Congress for advice 
and support.
    As the United States and its partners work with the Government of 
Afghanistan to extend its reach into the provinces, we must continue to 
apply pressure on al Qaeda and other terrorist organizations in 
Afghanistan. I believe we can effectively degrade their capabilities, 
deprive them of significant support, and successfully mitigate the 
threat they pose to the United States and its allies.

    30. Senator McCain. Secretary Gates, I believe that we need to 
develop a comprehensive civil-military plan for Afghanistan, akin to 
that used in Iraq. I find it hard to understand why we do not have such 
a plan, and I understand that plans in the works may not encompass the 
entirety of the country. Can you comment on the need to develop a 
comprehensive civil-military plan for Afghanistan and to better 
coordinate civilian and military efforts there?
    Secretary Gates. Well-integrated civilian and military efforts in 
Afghanistan are essential to achieving U.S. objectives in the country. 
The DOD is working with other government offices and agencies to 
integrate civilian and military efforts in Afghanistan.

    31. Senator McCain. Secretary Gates, how do you assess the 
contributions of the North Atlantic Treaty Organization (NATO) allies 
to the effort in Afghanistan, and how do you believe the United States 
can persuade these allies to increase their efforts as the United 
States does so?
    Secretary Gates. Success in Afghanistan will require greater effort 
by the U.S., our Allies and our partners. NATO and non-NATO 
contributors have made notable commitments to the International 
Security Assistance Force (ISAF) mission, but more needs to be done. 
President Obama has called for greater contributions from our NATO 
Allies, either military, or, in support of governance and development. 
To ensure appropriate burdensharing, we must underscore to our partners 
the linkage between stability in Afghanistan and the security of our 
homelands, which warrants additional resources and sacrifices. By 
committing more of our own resources to the challenge, the United 
States is better positioned to persuade our Allies to do more.

    32. Senator McCain. Secretary Gates, General McKiernan has spoken 
of increasing U.S. troops in Afghanistan by something on the order of 
four combat brigades. Do you support this request? Would increasing the 
number of troops in Afghanistan require us to draw down in Iraq faster 
than we otherwise might?
    Secretary Gates. I do support General McKiernan's request. Based on 
the analysis of the Joint Staff, the CENTCOM Commander, and the Multi-
National Forces-Iraq (MNF-I) Commander, supporting General McKiernan's 
request for additional troops should not force a change in the pace of 
a responsible drawdown of forces in Iraq.

    33. Senator McCain. Secretary Gates, are we on the same page as our 
allies with respect to the need to go after narcotics traffickers and 
drug labs in Afghanistan?
    Secretary Gates. The United States supports the increased 
participation of NATO Allies in addressing the narcotics challenge in 
Afghanistan. At the Budapest Ministerial in 2008, Defense Ministers 
agreed to expand ISAF's counternarcotics mandate to conduct 
counternarcotics missions against narcotics facilities and facilitators 
supporting the insurgency. The United States supports NATO taking an 
active role in deliberate counternarcotics interdiction operations and 
in the training of specialized Afghan counternarcotics forces. However, 
some nations in ISAF have differing national authorities that may 
preclude them from participating in counternarcotics activities.

    34. Senator McCain. Secretary Gates, do you consider drug labs a 
legitimate military target?
    Secretary Gates. At the request of the Government of Afghanistan, 
during the October 2008 NATO Defense Ministerial in Budapest, Allied 
Ministers directed ISAF to take action in concert with Afghans against 
narcotics facilities and facilitators supporting the insurgency. Where 
this nexus exists, the drug labs are legitimate military targets. 
Subject to applicable rules of engagement (ROE), military commanders on 
the ground now have the flexibility to target narcotics production 
facilities and facilitators for military action if they are determined 
to provide support to insurgents.

    35. Senator McCain. Secretary Gates, do you believe that DOD should 
provide support for counternarcotics operations carried out by other 
agencies, such as the Drug Enforcement Agency?
    Secretary Gates. DOD should continue to provide support for 
counternarcotics operations carried out by other agencies. In 
accordance with section 1004 of the National Defense Authorization Act 
for Fiscal Year 1991, as amended, the DOD may provide support to the 
counterdrug activities of any other department or agency of the Federal 
Government. This support should come at the request of the supported 
department or agency in order to assist with capabilities such as 
transportation, training, intelligence analysis, or language support 
and should leverage otherwise valid military training or operations. 
Support can also maintain or repair equipment to ensure future utility 
for or compatibility and integration with the DOD. DOD may also 
establish bases of counternarcotics operations or training. The DOD 
does not provide support to other departments or agencies when such 
support adversely affects military preparedness.

    36. Senator McCain. Secretary Gates, how large do you believe the 
Afghan National Army (ANA) and the Afghan National Police (ANP) should 
ultimately be?
    Secretary Gates. The currently approved size of the ANA is based on 
the assumption that levels of violence in Afghanistan are likely to 
increase in the near future. The currently approved size of the ANA 
(134,000) included plans to reassess the overall size of the Afghan 
National Security Forces on a semi-annual basis. We will work with the 
Government of Afghanistan and the international community to determine 
the appropriate future size of the ANP based on the existing conditions 
in Afghanistan.

    37. Senator McCain. Secretary Gates, how do you believe we should 
act to enhance the civilian side of our efforts in Afghanistan?
    Secretary Gates. I support efforts to increase the number of 
civilian officials and the overall non-military level of effort in 
Afghanistan. As we consider the possibility of deploying additional 
military forces to Afghanistan, it is crucial that we also look at how 
we can leverage civilian agencies' expertise to ensure a whole-of-
government approach. However, the United States should not shoulder 
this burden alone. It is important that the international community 
also contribute more to the non-military lines of effort in 
Afghanistan.

                      SUPPLY ROUTES IN AFGHANISTAN

    38. Senator McCain. Secretary Gates, about three-quarters of 
``nonlethal'' supplies for U.S. and NATO forces in Afghanistan--food, 
fuel, construction materials and other goods--travel by road from the 
Pakistani port of Karachi and across the mountainous Afghanistan-
Pakistan border through the Khyber Pass. Pakistani transit convoys have 
repeatedly been attacked in recent months by the Taliban. Earlier this 
month, General Petraeus said that the United States had reached 
agreements to open additional logistical routes into Afghanistan 
through its neighbors to the north. This will reduce dependence on 
logistics lines through Pakistan. This is an important development. Do 
you have the resources and authorities you need to ensure that these 
logistics lines can be improved, sustained, and protected?
    Secretary Gates. Over the past 5 months, we have worked hard across 
the interagency to mature routes to sustain OEF from the north. 
Representatives from OSD Policy, CENTCOM and Transportation Command 
(TRANSCOM) continue to visit the region to garner support for our 
Northern Distribution Network efforts. CENTCOM, TRANSCOM, and Defense 
Logistics Agency are evaluating requirements and network capabilities 
to identify required resources and possible overarching areas for 
improvement. We have started shipping material through the north and 
will expand shipments to include a variety of commodities as these 
routes mature.

           NATO AND MID-EAST REGIONAL SUPPORT TO AFGHANISTAN

    39. Senator McCain. Secretary Gates, in February 2008, in testimony 
before this committee, you said: ``I worry a great deal about the NATO 
alliance evolving into a two-tiered alliance, in which you have some 
allies willing to fight and die to protect people's security, and 
others who are not.'' Earlier this month British Defense Secretary John 
Hutton criticized other NATO members for their ``limited appetite'' for 
the mission in Afghanistan and for ``freeloading on the back of U.S. 
military security.'' What is your assessment of our allies' current 
contributions to the NATO mission in Afghanistan?
    Secretary Gates. When I testified last year about the Alliance 
evolving into a two-tiered Alliance, I stated that certain Allies bear 
a disproportionate share of the fighting and the dying and others opt 
only for less dangerous or limited missions. We are moving towards 
adjusting this imbalance, but work remains to be done. We are working 
with allies, in the context of a U.S. strategic review, to identify 
shortfalls in forces and civilian assistance to Afghanistan and seeking 
greater contributions to meet those specific needs.
    NATO's mission in Afghanistan falls squarely within the Alliance's 
role of defending the security interests and values of the 
transatlantic community and NATO has repeatedly said that Afghanistan 
is its top priority.

    40. Senator McCain. Secretary Gates, what is your assessment of the 
mood in Europe on helping out in Afghanistan?
    Secretary Gates. I believe our European partners understand the 
pressing need for greater resources in Afghanistan and they have 
expressed a willingness to increase material support for our efforts to 
strengthen stabilization and reconstruction efforts there. To make this 
possible, most European leaders recognize that they need to do a better 
job of communicating the importance of Alliance strategic objectives on 
their home fronts to ensure sufficient domestic support for greater 
sacrifices in a critically important, but geographically distant, 
theater.
    In addition to providing military forces, one of Europe's great 
strengths lies in its ability to provide civilian expertise and 
development assistance to build better governance in Afghanistan and 
address the needs of Afghan people, which is the key to long-term 
stability there.

    41. Senator McCain. Secretary Gates, will they increase troop 
levels? Revise national caveats?
    Secretary Gates. President Obama has both called for greater 
civilian and military contributions with fewer restrictions from our 
NATO allies. We have had and will continue to have frank discussions 
with allies about the need for all coalition members to make 
significant contributions and sacrifices to the common cause in 
Afghanistan. Such contributions extend to both the quantity of forces 
committed as well as their ability to perform a full range of missions. 
The President will continue these exchanges with allies at the NATO 
Summit in April.

    42. Senator McCain. Secretary Gates, will they increase deployment 
time of their troops?
    Secretary Gates. We recognize and appreciate each country's 
commitment to the ISAF mission; we are working to secure greater 
involvement from our allies and partners on both the civilian and 
military side. Obviously, the length and type of contribution by any 
particular country is a decision for that country's leaders and public, 
however, we will continue to urge allies to increase the length of 
their deployments to the ISAF mission. Where we are able, we will 
assist partners through pre-deployment training, logistics, and 
transport if that helps to extend deployments.

    43. Senator McCain. Secretary Gates, will they increase the number 
of civilian experts they send to Afghanistan to help with 
reconstruction and development?
    Secretary Gates. Allies have committed money, personnel and 
equipment to reconstruction and development efforts, but the demand 
currently swamps supply in this area. As one of the poorest countries 
in the world and one that has suffered through more than a generation 
of war, Afghanistan's development challenges are daunting. Four out of 
five Afghans make their living from farming, yet widespread drought and 
a crumbling agricultural infrastructure have created an opening for 
illicit opium production to supplant the legal agricultural economy. 
While Afghanistan has made significant strides since 2001 in health 
care delivery, life expectancy is still below 45 years and more than 
half of Afghan children are growth-stunted from poor nutrition and 
disease. While progress has been made towards primary education in 
Afghanistan, fewer than half of adult males and only one in eight 
females can read, impeding the professionalization of the Afghan 
Government and security forces and limiting economic growth.
    I look forward to working with our international partners to help 
create a truly comprehensive civil-military strategy to help the 
Afghans build the necessary foundation for a stable and secure 
Afghanistan. Convincing our Allies to provide more civilian experts and 
other resources is a key priority in developing Afghan capabilities to 
sustain itself in the future.

    44. Senator McCain. Secretary Gates, do the Nations of the Middle 
East have much to offer to efforts to stabilize and rebuild 
Afghanistan?
    Secretary Gates. The nations of the Middle East have demonstrated 
they have much to offer the Afghan people. We understand from the 
Government of Afghanistan that the Gulf countries pledged a total of 
$287 million in financial support at the Paris conference in 2008. As 
we work to stabilize and rebuild Afghanistan, there are other areas in 
which other nations, including the Gulf nations, can also contribute, 
such as:

         training, equipping, and advising Afghan National Security 
        Forces--as the U.S. is doing--to improve the size and quality 
        of the ANA;
         helping fund sustainment of an expanded ANA;
         supporting the 2009 and 2010 Afghan elections through 
        increased forces, financial assistance or civilian monitors and 
        observers;
         sending civilian experts and equipment to help build Afghan 
        capacity in areas such as medical care, engineering, and 
        agriculture; and
         ensuring that their governments are doing everything they can 
        to halt financing of the Taliban, whether through the 
        legitimate banking system or illicitly through the drug trade, 
        to include strengthening counterterrorism finance laws.

    45. Senator McCain. Secretary Gates, what can you tell us about 
what Arab countries contribute to Afghanistan?
    Secretary Gates. Arab countries support the U.S.-led OEF and NATO-
led ISAF missions in various capacities, to include contributing 
resources and personnel for hospital and medical assistance. Arab 
nations have also pledged financial assistance to Afghanistan, most 
recently at the June 2008 Paris Support Conference.

               COUNTERNARCOTICS ACTIVITIES IN AFGHANISTAN

    46. Senator McCain. Secretary Gates, in August 2008, the United 
Nations' Afghanistan Opium Survey showed a 19 percent decrease in opium 
cultivation compared to 2007. While that is something of a positive 
development, the report also showed a distinct geographical overlap 
between regions of opium production and the zones of insurgency 
demonstrating the inextricable link between drugs and conflict.
    Illicit drugs and terrorists should not determine the fate of 
Afghanistan. The opium economy will continue to prosper unless there is 
a crackdown on corruption in Afghanistan. As you proceed through the 
strategic reviews on Afghanistan: here in the U.S.; with our NATO 
allies; and with the Afghan Government are we coming to the point where 
we have reached a general accord about going after poppy cultivation 
and the drug trade in Afghanistan?
    Secretary Gates. The narcotics trade is a threat to stability and 
security in Afghanistan as it feeds the insurgency and corruption. We 
are working closely with counternarcotics forces in the Afghan 
Ministries of Interior and Defense to increase their counternarcotics 
capabilities. The development of competent indigenous forces is a key 
factor in fighting the insurgency. The Government of Afghanistan and 
the United States both acknowledge the corrosive effects of opium trade 
on stability and security. At the October 2008 NATO Defense 
Ministerial, NATO Allies acknowledged the threat of the opium trade to 
stability and security in Afghanistan and issued a joint statement 
indicating willingness to provide support. As an active participant in 
the U.S. Government interagency policy formulation and review process, 
DOD supports the five-pillar counternarcotics strategy for Afghanistan 
developed and published in 2007.

    47. Senator McCain. Secretary Gates, is it clear to all parties 
that we may not be able to achieve our mutual goals in Afghanistan 
without going after the drug problem?
    Secretary Gates. The nexus between the narcotics trade and the 
insurgency is clear. We are working closely with Afghan security forces 
and our allies to tackle the problem. As long as the Afghan narcotics 
trade continues to provide material support to the insurgency, the 
counterinsurgency campaign in support of the Government of the Republic 
of Afghanistan will continue to realize uneven success.

    48. Senator McCain. Secretary Gates, in a press conference on 
January 22, 2009, you said that the pursuit of drug labs and drug lords 
is ``fair game'' for U.S. Forces in Afghanistan if there is evidence 
that those drug labs and drug lords have ties to the Taliban. Do you 
have all the legislative authorities you require to go after drug labs 
and drug lords in Afghanistan?
    Secretary Gates. At the present, DOD has the necessary legislative 
authorities to support counternarcotics operations in support of the 
counterinsurgency campaign in Afghanistan. I will keep you advised 
should we need additional authorities.

    49. Senator McCain. Secretary Gates, when will Afghan security 
forces be prepared to take this task over themselves?
    Secretary Gates. Narcotics is a major concern in Afghanistan and we 
are taking this issue seriously. The Counternarcotics Police of 
Afghanistan are being trained by the interagency to mitigate this 
problem in the long term. Although the Afghans are making great strides 
in the counternarcotics realm, it will take several years before police 
units will have the expertise required to conduct sophisticated 
investigations and interdiction operations independently.

    50. Senator McCain. Secretary Gates, what efforts are being taken 
at Afghanistan's borders to stop the smuggling into Afghanistan, of 
precursor chemicals used to process heroin?
    Secretary Gates. The Border Management Initiative through the U.S. 
Embassy Kabul's Border Management Task Force aims to improve customs 
and immigration performance at all ports of entry and customs 
facilities, to reduce illegal narcotics flow out of Afghanistan, and of 
insurgents, weapons, and precursor chemicals into Afghanistan and to 
increase revenue through proper customs procedures. Additionally, the 
construction of border crossing points in Islam Qala, Toreghondi, Shir-
Khan, Bander, and Spin Boldak as well as the refurbishment of existing 
facilities also enable the Afghan Border Police to stem the flow of 
opiates out of Afghanistan and to prevent the flow of precursor 
chemicals into Afghanistan. Finally, the DOD provides advanced training 
and additional equipment to the Afghan Border Police in order to enable 
it to counter the insurgent and narcotrafficker threat more 
effectively.

    51. Senator McCain. Secretary Gates, do you believe we can count on 
the Afghan Central Government to seriously address the drug problem 
during the upcoming election period?
    Secretary Gates. There is no alternative. The Government of 
Afghanistan has identified the drug problem as a priority. The 
Department, working with the Drug Enforcement Administration, has and 
will continue to focus on building Afghan capacity to disrupt drug 
trafficking organizations and decrease narcotics trafficking and 
processing in Afghanistan. Such assistance included building new 
counternarcotics bases of operations, and establishing and operating an 
Afghan Ministry of Interior counternarcotics helicopter squadron. The 
Department has also helped Afghanistan control its borders to stop the 
flow of illicit drugs and precursor chemicals by constructing border-
crossing checkpoints and providing necessary training and equipment to 
the Afghan Border Police.
    The Department has worked with the Department of State to help 
Afghanistan surpass last year's eradication efforts by retraining the 
Afghan Central Government's Poppy Eradication Force and assisting the 
Afghan Ministry of Defense in providing security support for 
eradication. The Department is doing everything it can to bolster the 
Afghan Government's will and capacity to counter its drug problem.

                IRANIAN ACTIVITY IN IRAQ AND AFGHANISTAN

    52. Senator McCain. Secretary Gates, do you have any evidence that 
there are more or fewer Iranian-made weapons or explosively formed 
penetrator components going into Iraq?
    Secretary Gates. [Deleted.]

    53. Senator McCain. Secretary Gates, do you anticipate Iranian 
meddling during the upcoming elections in Iraq?
    Secretary Gates. Iran has taken a multi-prong approach in Iraq, by 
covertly supplying arms to extremists, publicly supporting the Iraqi 
Government, and seeking to strengthen its connection with Shia. While 
we acknowledge Iran's right to develop a neighborly relationship with 
the government of Iraq, we do not accept their malign efforts to 
undermine U.S. and Iraqi initiatives. The administration is currently 
conducting a comprehensive review of U.S. policy toward Iran; Iran's 
malign activities are included in this review.

    54. Senator McCain. Secretary Gates, what can you tell us about 
Iranian involvement in Afghanistan?
    Secretary Gates. Iran continues to pursue a multi-pronged approach 
in Iraq and Afghanistan by covertly supplying arms to insurgents, 
publicly supporting the governments, and seeking to strengthen its 
connection with Shia.
    Such Iranian actions seem to indicate that Tehran wants greater 
influence for itself while seeking to raise the cost for the United 
States and our allies.

                                  IRAQ

    55. Senator McCain. Secretary Gates, the President has stressed the 
need for a responsible redeployment of U.S. combat forces from Iraq, 
and there are reports that he would like to withdraw combat troops 
within 16 months. Is this timeline currently under consideration?
    Secretary Gates. The President has given clear direction for the 
interagency, facilitated by the National Security Council, to review 
the current strategy in Iraq and develop a comprehensive recommendation 
to him. This recommendation is not just an assessment of possible 
drawdown scenarios but seeks to develop updated national strategic 
objectives and the proposed civilian and military force levels that 
will achieve these objectives. In this regard, all options are on the 
table and it is a consultative process where the field commanders and 
interagency partners have input into the process.

    56. Senator McCain. Secretary Gates, where do the commanders in the 
field come down on this question?
    Secretary Gates. The security agreement specifies that all U.S. 
combat forces will be out of Iraq no later than 31 December 2011. The 
field commanders first and foremost seek to establish the conditions in 
Iraq that will make this transition smooth. In doing so, they recommend 
going to a residual force some time prior to that date to test those 
conditions and posture the enduring mutually agreed upon partnership 
for success. To achieve this end, the commanders and interagency 
partners will be intimately involved in the current review process. 
This consultative process will ensure that all risks have been 
appropriately considered and addressed.

    57. Senator McCain. Secretary Gates, where does the Government of 
Iraq come down on this question?
    Secretary Gates. We have informed the Iraqi leadership how the 
United States will draw down its forces while adhering to the security 
agreement concluded with Iraq in December of last year. We will 
continue to coordinate and discuss the details of our phased drawdown 
as the ISF increasingly take the lead, and carefully consider Iraqi 
concerns as we implement the President's guidance.
    The Iraqi leadership is confident that the capabilities of the ISF 
and the capacity of its governmental institutions will continue to grow 
in the coming year, and recognizes that the long-term success of the 
sovereign Iraqi state is in the Iraqi people's hands.

    58. Senator McCain. Secretary Gates, how do you envision such a 
redeployment proceeding in a way and on a timeline that does not 
jeopardize the dramatic gains we have seen in Iraq since early 2007?
    Secretary Gates. The President's plan represents a responsible and 
reasonable drawdown of our combat units in Iraq and does not sacrifice 
the hard-fought gains that our forces and the Iraqis have made over the 
last several years.
    Because progress still remains fragile, a U.S. military presence 
will be necessary to support the Iraqis while they conduct national 
elections and further develop the capabilities of the ISF through 2009. 
Therefore, after an initial drawdown this year, U.S. force levels will 
likely hold steady from the period immediately preceding until shortly 
after the national elections expected to take place before the end of 
January 2010.
    After this period, we will see an accelerated pace of drawdown 
consistent with the anticipated conditions on the ground. This plan 
provides our military commanders with the flexibility they will require 
during this critical time in Iraq to ensure hard fought security gains 
are not lost. This plan also identifies an initial transitional force 
to help consolidate our progress to date.

                 UPCOMING PROVINCIAL ELECTIONS IN IRAQ

    59. Senator McCain. Secretary Gates, on January 22, Ambassador 
Crocker said ``I think the ISF have made enormous progress during my 
time in Iraq, both quantitatively and, more important, qualitatively. 
There is still a ways to go. And clearly, still a continuing need for 
our security support.'' The Ambassador went on to say that ``the 
conduct and outcome of those elections I think are going to be very 
important for the country.'' What role are U.S. Forces playing in the 
upcoming provincial elections?
    Secretary Gates. The Provincial Elections in Iraq are Iraqi 
planned, managed, and executed, with MNF-I, United Nations Assistance 
Mission for Iraq (UNAMI), USM-I, and nongovernment organizations in a 
supporting role. MNF-I is coordinating closely with the Iraqi Supreme 
Council for Electoral Security and will provide support to the ISF upon 
request. In coordination with the ISF, commanders are given maximum 
latitude to ensure legitimate and credible Provincial Elections in 
their battle space.
    Specific support which MNF-I is fully prepared to provide during 
the Provincial Elections will include:

         Support with a Quick Reaction Force, as well as MEDEVAC 
        capability
         Assistance with joint threat assessments of General Elections 
        Office warehouses
         Assisting Iraq with the conduct of a Command Post Exercise to 
        rehearse ballot movement, interagency coordination, and 
        reporting procedures
         Support to Provincial Reconstruction Teams, UNAMI, and the 
        Iraqi High Electoral Commission
         MNF-I will prioritize transportation, security, and critical 
        life support for International Observers and UNAMI

    I agree with Ambassador Crocker that the ISF have made enormous 
progress, and we expect that the elections will take place with a 
minimum of security incidents.

    60. Senator McCain. Secretary Gates, how important are the 
provincial elections and the national elections scheduled for later 
this year in determining your plans for the way forward?
    Secretary Gates. Iraq's ability to plan and conduct legitimate 
elections--to include the recently concluded provincial elections--is a 
significant demonstration of the Government of Iraq's development and 
maturation. The President's drawdown plan accounts for the critical 
period surrounding such major political events in Iraq. Accordingly, 
U.S. Forces will remain at a robust level until immediately after 
Iraq's national elections scheduled to take place between late 2009 and 
early 2010, and will then draw down to a level consistent with the 
anticipated conditions on the ground. The plan gives commanders the 
flexibility to pause the redeployment of combat brigades temporarily 
for the period immediately before and after the Iraqi national 
elections to assist the Iraqis in consolidating hard fought security 
gains through the political process. The Department recognizes that our 
civil and military support to the Government of Iraq and assistance to 
the ISF during these election cycles are central to achieving the U.S. 
goal of increasing the capacity and independence of Iraq's governing 
institutions.

                           ACQUISITION REFORM

    61. Senator McCain. Secretary Gates, the Defense Business Board 
(DBB), an internal management oversight board that you stood up, warned 
that the DOD's budget is ``unsustainable'' and that the Department can 
only meet its priorities, particularly those relating to military 
personnel (such as escalating health care costs), if it makes hard 
budget decisions on its largest and costliest acquisition programs. As 
indicated in a briefing to the administration's transition team, 
``[b]usiness as usual [in terms of the Department's budget decisions] 
is no longer an option.''
    Do you agree with the DBB's admonitions and what principles will 
guide your thinking on possible cuts to large acquisition programs?
    Secretary Gates. Yes, I agree that business as usual is not an 
option, and that hard choices are needed. To that end, in my statement 
for the record for this hearing January 27, 2009, I said that for 
acquisition programs, DOD needs to:

         Make hard choices, not across-the-board adjustments that 
        stretch out programs.
         Have economic production rates, budget stability, and 
        economies of scale.
         Buy more ``75 percent solution'' systems and fewer expensive 
        ``99 percent solution'' systems.
         Not let each Service buy its own system to counter a threat 
        common to all.
         Freeze requirements at contract award and incentive contract 
        performance.
         Increase competition, use prototypes more, and ensure 
        technology maturity before programs go to the next phase of 
        development.
         Restore and strengthen the DOD acquisition workforce.

    62. Senator McCain. Secretary Gates, early this year, this 
administration will be required to make what amounts to a go/no-go 
decision on the F-22A Raptor program, an increasingly expensive program 
that (as you rightly point out) has made no contribution to the global 
war on terror and may impinge on the timing and cost of when the F-35 
Joint Strike Fighter may first be operationally capable. What 
principles guide your thinking on the future direction of this program?
    Secretary Gates. The F-22 and F-35 were developed for different 
types of missions and to fill different capability gaps. The F-22 was 
developed to replace the aging F-15 aircraft inventory, while the F-35 
is being developed to replace the aging F-16, AV-8B, and F/A-18 C/D 
aircraft inventories. While the F-22 may not have made significant 
contributions to the global war on terror, it is an important asset and 
the most capable air-to-air aircraft in our military arsenal, ready to 
be used for any current and future threats that face our Nation. The 
future direction of the F-22 program lies in factors such as compliance 
with the requirements of the current National Military Strategy, the 
affordability of additional F-22 aircraft within the Department's 
resource constrained environment, and whether continued production or 
termination is in the national interest of the United States.

    63. Senator McCain. Secretary Gates, as you likely know, this 
committee has developed several legislative initiatives intended to 
reform the process by which the Department buys its largest and most 
expensive weapons systems. Most of those initiatives have addressed 
acquisition policy and the requirements system. You and your staff, 
too, have been busy on defense acquisition reform. I am gratified by 
initiatives recently undertaken by the current Under Secretary of 
Defense for Acquisition, Technology, and Logistics to help reform the 
defense acquisition system. Those initiatives (codified at DOD 
Instruction 5000.02) attempt to start major acquisition programs off 
responsibly by increasing emphasis on systems engineering and greater 
upfront planning and management of risk; call for using competitive 
prototyping in a newly-named Technology Development Phase (before 
Milestone B), to mete out risk; and establish review boards to monitor 
weapon system configuration changes. Those initiatives appear 
consistent with the knowledge-based approach to weapons development 
that the GAO has recommended for years. At this point, what other 
aspects of the defense acquisition system do you see need reform?
    Secretary Gates. As you have said, the Department has undertaken a 
broad range of initiatives designed to improve the effectiveness of the 
defense acquisition system. These initiatives were institutionalized 
via the recent update to DOD Instruction 5000.02, our primary 
acquisition policy document. Likewise, the Joint Chiefs of Staff 
continue to refine our requirements process, the system we use to 
define our warfighter capability needs. I plan to monitor the 
effectiveness of these changes over time and will, where necessary, 
make adjustments to ensure our process improvement objectives are being 
achieved.

    64. Senator McCain. Secretary Gates, among the reforms I'm calling 
for is a comprehensive audit of the DOD budget aimed at identifying the 
unnecessary, wasteful programs and procurements that should be 
terminated or suspended immediately. What is your preliminary reaction 
to that reform initiative?
    Secretary Gates. The DOD will open the fiscal year 2010 budget in 
the next few weeks and one aspect we will specifically look at is 
performance and funding for acquisition programs. Those programs not 
performing or with cost growth will be considered for suspension or 
termination. We have made several changes in the acquisition process 
reflected in the recently approved DOD 5000.02 to include a mandatory 
acquisition process entry point, competitive prototyping, more frequent 
and effective reviews, configuration steering boards and technology 
readiness assessments aimed at keeping programs on cost and schedule. 
We will also do a much more comprehensive review and possible program 
restructuring/termination in support of the President's fiscal year 
2011 budget.

                           ACQUISITION REFORM

    65. Senator McCain. Secretary Gates, another reform I'm calling for 
is putting Nunn-McCurdy (the law that requires the Department to report 
excessive cost growth on weapons programs to Congress) ``on steroids''. 
It is my hope that doing so will reinforce the process by which cost 
estimates are independently assessed and strengthen congressional 
oversight over chronically poor performing weapons programs. What ways 
do you think Nunn-McCurdy can be improved to transform it from a mere 
reporting requirement to a management tool to help the Department keep 
cost growth in check?
    Secretary Gates. Congress provided the DOD with tools that make 
Nunn-McCurdy more effective when it enacted a requirement for 
certifications in the National Defense Authorization Act for Fiscal 
Year 2006 (Pub. L. No. 109-163) and the National Defense Authorization 
Act for Fiscal Year 2008 (Pub. L. No. 110-181). The certification 
requirements in Sections 2366a (for Milestone A) and 2366b (for 
Milestone B) in Title 10, United States Code allow DOD to do the 
necessary analysis and due diligence to set programs up for success. 
For example, the certifications require a confirmation of the 
requirement, an analysis of alternatives, an estimate of cost, and a 
review of affordability. In addition, at Milestone B, the 2366b 
certification requires an assessment of technological readiness and 
assurance of compliance with statutory and regulatory policies.
    The Department has also undertaken internal initiatives to address 
contributing factors that cause programs to incur Nunn-McCurdy 
breaches. These initiatives include establishing Configuration Steering 
Boards to address requirements creep, increased emphasis on Milestone A 
and prototyping, improving knowledge available by encouraging a 
preliminary design review prior to Milestone B, when that is possible, 
and a rigorous post-breach certification process.
    There are changes that could help DOD with making the Nunn-McCurdy 
process more effective. We sometimes see Nunn-McCurdy breaches driven 
by valid requirements changes or procurement quantity changes that are 
not problems in the acquisition program. Allowing for valid adjustments 
would fix management attention on true cost increases. This could be 
fixed by allowing DOD to adjust the acquisition program baseline 
established at Milestone B (the original baseline) for program 
restructures caused by requirements changes approved by the JROC and 
Department agreed-to quantity adjustments. I do believe it is important 
for the Defense Department to retain the management discretion to 
continue programs which are necessary for our national security, even 
if the Department unexpectedly encounters technical challenges or is 
forced to recognize errors in initial cost estimates.

    66. Senator McCain. Secretary Gates, another reform I'd like to see 
is establishing (and resourcing adequately) an Office of Independent 
Assessment to provide the Department and Congress independent 
assessments of cost, technological maturity, and performance. It is my 
view that, while laudable, the cost and technological assessment 
capability provided by, respectively, that the Cost Analysis 
Improvement Group (CAIG) and DDR&E is not sufficiently robust, given 
how vital those capabilities are in the defense procurement process. 
What is your preliminary reaction to that reform initiative?
    Secretary Gates. The situation for the acquisition of weapon 
systems has been dramatically improved, and with congressional support 
the momentum will continue. By DOD Directive, the CAIG already serves 
as the principal advisor to the appropriate Milestone Decision 
Authority for acquisition program cost. Establishing an Office of 
Independent Assessment would be duplicative and wasteful of taxpayer 
dollars.

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    67. Senator McCain. Secretary Gates, Congress responded quickly to 
the Department's funding requests for armored vehicles in Iraq. MRAPs 
have saved lives and aided the execution of the surge strategy. The 
Department is currently conducting a competition to procure a smaller, 
all-terrain variant of the MRAP for use in Afghanistan known as MRAP 
all-terrain vehicle (ATV). Committee will be watching the competitive 
bidding process closely and expect it to be conducted transparently. To 
reduce the logistical burden, the MRAP program office has stated its 
intention to have only one supplier of these MRAP ATVs. Will this slow 
production and fielding?
    Secretary Gates. The acquisition strategy for the M-ATV takes into 
account the production capacity of the vendor or vendors as one of the 
factors being considered in the competition. We want to ensure we 
select the most capable vendor or vendors to produce vehicles on 
schedule. It is a strategy very similar to the one we used for MRAPs 
from 2007 to present. The mission remains the same; to get as many 
lifesaving vehicles to our men and women in harm's way as fast as we 
are able. There will be up to five vendors awarded indefinite delivery-
indefinite quantity contracts for further test articles. The request 
for proposal states that final award in mid-June 2009 will be made to 
``one or more'' vendors. This allows the Department the most 
flexibility in addressing the needs of the theater.

    68. Senator McCain. Secretary Gates, what added measures are 
necessary--on the part of the Department, industry and Congress--to 
further accelerate the delivery of these vehicles to theater?
    Secretary Gates. The Department appreciates the support that 
Congress has provided. To ensure the rapid fielding of any additional 
vehicles, we need a timely appropriation of the full amount of funding 
requested for this program in the budget submission for the Fiscal Year 
2009 Supplemental Appropriations. More than 15,000 vehicles have been 
produced in less than 2 years, with approximately 10,000 MRAP vehicles 
being fielded in Iraq and 2,000 currently in Afghanistan. On November 
3, 2008, I directed several actions to accelerate the movement of MRAPs 
to Afghanistan. In one case, the manufacturer accelerated production of 
vehicles 2 months ahead of schedule. Another effort was to redirect 
MRAPs that were used for training and sustainment to OEF. The 
combination of these two efforts provided over 1,000 additional MRAPs 
to Afghanistan in less than 3 months.

    69. Senator McCain. Secretary Gates, of the more than 10,000 MRAP 
vehicles in Iraq, how many can be redeployed for use in Afghanistan?
    Secretary Gates. The Combined Joint Task Force-101 originally 
requested to limit MRAP variants in OEF to three types of CAT I 
vehicles. These variants were determined to be the most capable for the 
mission and terrain. Of the available MRAP vehicles currently deployed 
in Iraq, 1,500 MRAP variants would be available for use throughout 
Afghanistan.
    Additionally, 1,100 of the larger CAT I and CAT II variants could 
be used in specific areas where mission and terrain permit.

                               DETAINEES

    70. Senator McCain. Secretary Gates, on January 22, President Obama 
ordered that the military detention facilities at Guantanamo Bay be 
closed ``as soon as practicable'' and in any event, no later than 1 
year from the date of his order. What is the Department doing, and 
planning to do, to implement President Obama's order?
    Secretary Gates. In accordance with the President's Executive 
order, the DOD is acting in concert with other U.S. departments and 
agencies to close the detention facilities at Guantanamo. As part of 
this process, the Department has developed a Detainee Task Force, a 
group responsible for coordinating and facilitating all issues related 
to Executive order implementation within the DOD.
    The Department is participating fully in the review team 
coordinated by the Attorney General. This team was charged with 
reviewing the files for all of the detainees currently held by the 
Department at Guantanamo Bay, Cuba. Once the team is chosen, it will 
move forward expeditiously with its review of the status of each 
individual currently detained at Guantanamo and its determinations 
regarding each individual.

    71. Senator McCain. Secretary Gates, how will you approach your 
role on the cabinet-level review panel in sorting the detainees into 
groups of those who can be transferred or released; those who can be 
tried; and those in the most difficult third category who can neither 
be released or tried in regular Federal courts?
    Secretary Gates. The DOD looks forward to supporting fully the 
Attorney General-coordinated review of the detainees at Guantanamo Bay 
pursuant to the President's Executive order, and I have directed my 
staff to work closely with the Justice Department and other U.S. 
departments and agencies in completing this review.

    72. Senator McCain. Secretary Gates, what options do you think 
exist for disposition of the third group?
    Secretary Gates. The ultimate disposition of those detainees who 
cannot be released, transferred, or tried in Federal Court will depend 
upon the determination of the President's Executive order review 
coordinated by the Attorney General. The DOD looks forward to working 
with the Justice Department and other U.S. departments and agencies in 
completing this review.

    73. Senator McCain. Secretary Gates, do you believe that once a 
detainee's status has been established as an ``enemy combatant'' they 
can be held indefinitely? What other alternatives are there?
    Secretary Gates. In Hamdi v. Rumsfeld, the Supreme Court recognized 
that enemy combatants may lawfully be held for the duration of 
hostilities. The DOD's practice has been to conduct periodic reviews of 
the cases of detainees held as enemy combatants, and the Department is 
currently participating in the ongoing interagency review of the 
detention of every individual at Guantanamo required by the President's 
January 22, 2009 Executive order titled ``Review and Disposition of 
Individuals Detained at the Guantanamo Bay Naval Base and Closure of 
Detention Facilities.''
    Other lawful alternatives to detention as an enemy combatant may be 
appropriate depending on the circumstances, including criminal 
prosecution, transfer, and release. The Department is participating in 
the Special Interagency Task Force on Detainee Disposition established 
by the President's January 22, 2009, Executive Order titled ``Review of 
Detention Policy Options.'' The Task Force is charged with:

         Conduct[ing] a comprehensive review of the lawful options 
        available to the Federal Government with respect to the 
        apprehension, detention, trial, transfer, release, or other 
        disposition of individuals captured or apprehended in 
        connection with armed conflicts and counterterrorism 
        operations, and to identify such options as are consistent with 
        the national security and foreign policy interests of the 
        United States and the interests of justice.

    74. Senator McCain. Secretary Gates, is the current Annual Review 
Board process sufficient to continue to evaluate whether detainees 
should be released?
    Secretary Gates. The President's Executive order, Review and 
Disposition of Individuals Detained at the Guantanamo Bay Naval Base 
and Closure of Detention Facilities, January 22, 2009, directed the 
review of the status of each individual currently detained at 
Guantanamo. The President's Executive order, Review of Detention Policy 
Options, January 22, 2009, directed a comprehensive review of the 
lawful options available to the Federal Government with respect to the 
apprehension, detention, trial transfer, or other disposition of 
individuals captured or apprehended in connection with armed conflicts 
and counterterrorism operations, and to identify such options as are 
consistent with the national security and foreign policy interests of 
the United States and the interests of justice. Given the comprehensive 
nature of these ongoing U.S. Government reviews, the annual 
Administrative Review Board (ARB) process was suspended until after 
their completion. The Department anticipates reviewing the ARB process, 
but it would be premature to provide an assessment of the process at 
this time.

    75. Senator McCain. Secretary Gates, should a review process that 
includes more due process, including the participation of lawyers and 
judges, be established by Congress?
    Secretary Gates. Detainees at Guantanamo currently have access to 
U.S. Courts through habeas petitions.

    76. Senator McCain. Secretary Gates, should the review process be 
solely under the executive branch, or should it include oversight or 
appeal to the judicial branch?
    Secretary Gates. The current Combatant Status Review Tribunal 
process is properly a function to be conducted under the executive 
branch. Moreover, detainees at Guantanamo have access to the U.S. 
Courts through habeas petitions to challenge the lawfulness of their 
detention.
    In addition, the President's Executive order directed that the 
Attorney General lead a review of the status of each individual 
currently detained at Guantanamo. The review will examine the factual 
and legal basis for the continued detention of all individuals 
currently held at Guantanamo, and whether their continued detention is 
in the national security and foreign policy interests of the U.S. and 
in the interests of justice.

    77. Senator McCain. Secretary Gates, should some sort of 
rehabilitative program be established at Guantanamo Bay, similar to 
some of the programs recently implemented in Iraq, to mitigate the risk 
of releasing some of the less dangerous detainees?
    Secretary Gates. The Department regularly examines its detention 
operations and policies, and assesses the viability of applying lessons 
learned from one detention facility to others, as well as to future 
conflicts. Many of the approximately 15,000 detainees currently in Iraq 
participated in the insurgency in response to economic reasons, or for 
other reasons not associated with Islamic extremist agendas. Education 
programs have proven to be valuable in encouraging detainees in Iraq to 
reject participation in the insurgency and to recognize the value of 
working within Iraqi society.
    In contrast, many of the Guantanamo detainees are motivated by an 
extremist ideology. Many traveled from their home countries to receive 
training in terrorist camps in Afghanistan. Others are professed 
members of terrorist organizations. Many of these detainees 
participated in or supported violent acts of terrorism to further 
extremist objectives. Nonetheless, the detention facilities at 
Guantanamo Bay already offer literary classes and a library with books, 
DVDs, magazines, and other educational publications in the detainees' 
native languages for those detainees who choose to participate. The 
Department continues to assess the benefits of the education programs 
available at Guantanamo Bay.

    78. Senator McCain. Secretary Gates, what can the United States do 
to convince some of our friends and allies to help solve this problem 
by taking some of the detainees who we have evaluated are no longer a 
threat?
    Secretary Gates. The Department has seen some encouraging 
indicators that nations across the world, in Europe in particular, are 
potentially more open to the idea of accepting non-nationals who have 
previously been approved for transfer or release from detention at 
Guantanamo. As the Attorney General-led case-by-case review continues, 
it will be necessary to remain in dialogue with those nations. The 
State Department has an engagement strategy with those nations and we 
will continue to urge them to consider taking detainees currently under 
the control of the Department at Guantanamo.

    79. Senator McCain. Secretary Gates, is the administration 
examining the logistics associated with the transfer of Guantanamo 
detainees to the United States?
    Secretary Gates. Consistent with the President's Executive order to 
close the detention facility at Guantanamo Bay, the DOD is assessing 
the logistical requirements that would be necessary should the 
Department be required to transfer detainees to the United States.

    80. Senator McCain. Secretary Gates, president Obama's order also 
charges you with evaluating whether the conditions of detention at 
Guantanamo Bay comply with Common Article III of the Geneva Convention 
and reporting back within 30 days. Do you think changes will be 
necessary?
    Secretary Gates. In response to the President's Executive order 
signed on January 22, 2009, I directed Admiral Patrick Walsh, Vice 
Chief of Naval Operations, to assemble a team to conduct a 
comprehensive review. The purpose of the review was to ensure that all 
detainees at Guantanamo are held ``in conformity with all applicable 
laws governing the conditions of confinement, including Common Article 
3 of the Geneva Conventions.'' Admiral Walsh and his team had 
unrestricted access to the detention facility and the camp authorities 
at Guantanamo.
    Admiral Walsh concluded ``that the conditions of confinement in 
Guantanamo are in conformity with Common Article 3 of the Geneva 
Conventions.'' Specifically, his team determined that there were no 
violations of prohibited acts listed in Common Article 3. In addition, 
in assessing whether detainees are treated ``humanely,'' he concluded 
that ``the conditions of confinement in Guantanamo also meet the 
directive requirements of Common Article 3 of the Geneva Conventions.''
    In addition, his team noted that the chain of command responsible 
for the detention mission at Guantanamo consistently seeks to go beyond 
a minimalist approach to comply with Common Article 3, and endeavors to 
enhance conditions in a manner as humane as possible consistent with 
security concerns. In that regard, his report identifies several areas 
in which the Department could further enhance the conditions of 
detention.
    I have directed the Department to conduct an immediate review of 
the recommendations in the report and provide me with an implementation 
plan.

    81. Senator McCain. Secretary Gates, would you support the 
continued use of military commissions if the cabinet-level review panel 
concludes that some detainees cannot be tried in normal Federal 
criminal courts or in courts-martial?
    Secretary Gates. In his Executive order titled ``Review of 
Detention Policy Options,'' dated January 22, 2009, the President has 
directed the establishment of a Special Interagency Task Force on 
Detainee Disposition (Special Task Force) to ``identify lawful options 
for the disposition'' of individuals captured or apprehended in 
connection with armed conflicts and counterterrorism operations.
    Further, President Obama's Executive order titled ``Review and 
Disposition of Individuals Detained at the Guantanamo Bay Naval Base 
and Closure of Detention Facilities,'' dated January 22, 2009, finds 
that some detainees may have committed offenses for which they should 
be prosecuted. In this Executive order, the President ordered a review 
to determine ``whether and how any such individuals can and should be 
prosecuted.'' Moreover, his Executive order specifically directed this 
review to address ``whether it is feasible to prosecute such 
individuals before a court established pursuant to Article III of the 
United States Constitution.'' The Executive order also states that this 
review shall select other ``lawful means, consistent with the national 
security and foreign policy interests of the United States and the 
interests of justice, for the disposition of'' individuals who cannot 
be tried in an Article III court.
    If the review of individual detainees and the Special Task Force 
conclude that some detainees should be tried by military commissions 
because they cannot be tried by an Article III Federal criminal court 
or a court-martial, I will support that recommendation.

    82. Senator McCain. Secretary Gates, do you believe the Army Field 
Manual will be adequate for interrogations conducted by the Central 
Intelligence Agency (CIA)?
    Secretary Gates. While the Army Field Manual has proven adequate 
for the DOD, I think the CIA is in the best position to judge whether 
or not the Army Field Manual is adequate for interrogations conducted 
by the CIA.

    83. Senator McCain. Secretary Gates, would you consider making the 
changes to the Field Manual that are consistent with Common Article III 
to accommodate the CIA?
    Secretary Gates. Army Field Manual 2-22.3, Human Intelligence 
Collector Operations, September 6, 2006, is designed to be used by 
military intelligence collectors. I would be willing to consider any 
changes to the manual that are consistent with U.S. domestic law and 
U.S. obligations under international law, including Common Article 3, 
and are compatible with military practices and procedures.

    84. Senator McCain. Secretary Gates, what role will DOD play in 
detaining the most dangerous and sensitive terrorists now that the CIA 
is prohibited from operating its own detention facilities?
    Secretary Gates. The Department will continue to detain captured 
enemy combatants, consistent with law and policy. Any requests to hold 
detainees captured during non-DOD operational activities would require 
careful, case-by-case considerations within the U.S. Government.

    85. Senator McCain. Secretary Gates, how should we approach the 
issue of habeas corpus at places like Bagram where we may have al Qaeda 
detainees who were captured both within Afghanistan and Pakistan, and 
also during operations elsewhere, such as in the Horn of Africa, 
Europe, or Indonesia?
    Secretary Gates. Bagram Air Field is a military base used by U.S. 
Forces, leased from the Government of Afghanistan, and located in a 
theater of active combat. The Department has consistently maintained 
that extending habeas corpus review to such a location would pose 
numerous practical and legal problems and could have a crippling effect 
on war efforts. The writ of habeas corpus has never before been 
extended to such a location, and doing so would inject domestic courts 
into the conduct and supervision of ongoing military operations, a role 
they were never intended to fulfill. Further, attempting to support 
domestic civil litigation in the midst of such ongoing operations could 
impose serious, potentially unsupportable security and logistical 
burdens on forward-deployed U.S. Forces.
    The Department is participating in the Special Interagency Task 
Force on Detainee Disposition established by the President's January 
22, 2009, Executive order titled ``Review of Detention Policy Options'' 
to review and identify lawful detention options available to the 
government, including places like Bagram. The outcome of this review 
will determine the ultimate disposition of detainees at Bagram.

    86. Senator McCain. Secretary Gates, does it concern you that if we 
had captured Mohammad Atta in Germany before September 11 and taken him 
to Bagram for questioning that some would argue that he should have 
immediate habeas rights?
    Secretary Gates. If, in the context of the currently ongoing 
military efforts against al Qaeda and the Taliban abroad, U.S. Forces 
were to capture a person engaged in planning another September 11-type 
attack, the ability to detain and question that person would be 
essential to U.S. national security. If that person were transported to 
an overseas military installation located in an active theater of 
operations, the same concerns regarding habeas corpus review stated 
above (in response to question 85) would also apply.
    Moreover, the Supreme Court in Boumediene v. Bush specifically 
rejected the notion that ``a habeas court should intervene the moment 
an enemy combatant steps foot in a territory where the writ runs.'' 
Instead, the Court held that ``[t]he Executive is entitled to a 
reasonable period of time to determine a detainee's status before a 
court entertains that detainee's habeas corpus petition.''

                COUNTERINSURGENCY AND CULTURAL KNOWLEDGE

    87. Senator McCain. Secretary Gates, you recently wrote that the 
``capabilities needed to deal with [terrorist attacks] cannot be 
considered exotic distractions or temporary diversions. The United 
States does not have the luxury of opting out because these scenarios 
do not conform to preferred notions of the American way of war.'' Is 
the Department postured to deliver counterinsurgency expertise to the 
troops?
    Secretary Gates. Counterterrorism, unconventional warfare, foreign 
internal defense, counterinsurgency, and stability operations are not 
new missions to the DOD. Yet, the Department's force development 
processes and programs, including professional military education, have 
primarily focused on the ability to defeat the conventional military 
forces of an adversary state. In an era when the character of warfare 
is blurring, and current and future adversaries are more likely to pose 
irregular and asymmetric threats, the Department is broadening the 
aperture of its force development efforts to account for strategies and 
capabilities needed to conduct irregular and hybrid forms of warfare. 
Many of the capabilities and expertise required to execute these 
missions are resident in Special Operations Forces (SOF), but not with 
sufficient capacity to meet current, or expected future, demand. In 
other cases, the Department must develop new capabilities to address 
the range of irregular challenges.
    Rebalancing the overall Defense portfolio to ensure that the U.S. 
Armed Forces are as expert and proficient in irregular warfare as they 
are in traditional warfare requires focused efforts in three key areas: 
growing the capacity of SOF, reorienting General Purpose Force (GPF) 
expertise and capabilities toward irregular warfare while maintaining 
their ability to prevail in traditional campaigns, and promoting 
increased integration between SOF and GPF.
    Although there is more to be done, to date, the Department has 
taken significant strides toward achieving lasting institutional 
change. For example, it has invested in SOF growth; produced an 
irregular warfare Joint Operating Concept; published a DOD directive to 
establish policies and assign responsibilities for the development of 
irregular warfare-relevant capabilities; and completed a comprehensive 
review of the capability and capacity demands for GPF to conduct long-
duration counterinsurgency operations and to train, advise, and assist 
foreign security forces. Various other initiatives are underway to 
integrate and coordinate U.S. military efforts with civilian agencies 
more effectively, and U.S. Joint Forces Command has established an 
irregular warfare center to collaborate with the military departments 
and U.S. Special Operations Command to develop joint irregular warfare 
doctrine, education, and training programs for the GPF. These efforts 
contribute toward ensuring that the joint force has the capabilities, 
knowledge, and skills needed to counter the range of irregular threats 
from state and non-state actors.

    88. Senator McCain. Secretary Gates, what specific programs have 
you put in place to give field commanders understanding of the cultural 
environment in which they operate?
    Secretary Gates. The Department recognizes that not all personnel 
will be able or required to demonstrate intermediate or advanced level 
language skills and cultural expertise. However, we do recognize the 
need for personnel to acquire the language skills and cultural 
knowledge to interact effectively with the local population and their 
leaders. Therefore, Department policy requires that military units 
deploying into, or in transit through, foreign territories be equipped, 
to the greatest extent practicable, with an appropriate capability to 
communicate in the languages of the territories of deployment or 
transit and to operate with an appropriate knowledge of the cultural 
norms.
    The Services have taken great efforts to prepare members to achieve 
optimum outcomes by understanding the regions in which they deploy and 
being culturally aware. The Services have established Centers of 
Excellence to oversee and standardize training and impart essential and 
mission-targeted cultural training to their members. The Army Training 
and Doctrine Command Culture Center, the Navy Center for Language 
Regional Expertise and Culture, the Air University Cultural Studies 
Center, and the Marine Corps Center for Advanced Operational Culture 
Learning all focus on offering information and training that best 
supports their deployment model and is compliant with Joint 
Professional Military Education (PME) guidelines. Additionally, the 
2005 Defense Language Transformation Roadmap required the Joint Staff 
and Military Departments to ensure regional area content was 
incorporated into language training, PME and development, pre-
deployment training, and, in some cases, mid- or intra-deployment 
training. In response, the Joint Staff and Military Departments have 
made tremendous progress--cultural training and regional area content 
are now included in the curriculum at the Service Academies, Reserve 
Officer Training Corps, during the officer and enlisted accession 
training pipeline, and throughout PME and development.
    ``Just-In-Time'' training is getting the right information to 
deploying personnel in time to be useful, but not so early that it is 
forgotten before they arrive. We have significantly improved our means 
of providing language and regional familiarization training to units 
during their deployment cycles. The Defense Language Institute Foreign 
Language Center's (DLIFLC) foreign language and cultural instruction 
extends beyond the classroom to servicemembers and civilians preparing 
for deployment by offering Mobile Training Teams (MTTs), Video Tele-
Training, Language Survival Kits (LSK), and online instructional 
materials. Since 2001, DLIFLC has dispatched more than 380 MTTs to 
provide targeted training to more than 66,000 personnel. Deploying 
units have received over 1,000,000 LSKs (mostly Iraqi, Dari, and 
Pashto). Field Support Modules outlining the geopolitical situation, 
regional and cultural information, and fundamental language skills, key 
phrases and commands are available for 34 countries in 49 languages on 
the DLIFLC Web site.
    Additionally, the use of the Human Terrain System was developed in 
response to identified gaps in commanders' understanding of the local 
population and culture and its impact on operational decisions. The 
Human Terrain Teams use the expertise and experience of social 
scientists and regional experts and, coupled with reach back and open 
source research, integrate and apply the socio-cultural knowledge of 
the indigenous civilian population to military operations in support of 
the commanders' objectives.
    The Department is working hard to enhance and expand regional and 
cultural education and training for the GPFs. More specifically, we are 
focusing on providing cross-culturally competent personnel to our 
commanders--personnel with the ability to quickly and accurately 
comprehend, then appropriately and effectively interact, to achieve the 
desired effect in a culturally complex environment. This translates to 
a force that is ready and available to respond effectively to any 
operational contingency, whether it is combat, humanitarian, or in 
response to other national security emergencies, anywhere in the world.

    89. Senator McCain. Secretary Gates, during the Cold War there 
existed a large group of researchers both inside and outside of the 
Department whose expertise was the Soviet Union. Does the Department 
have a similar set of experts today who can offer specific insight into 
the social and cultural fabric of Afghanistan and Iraq?
    Secretary Gates. There is no specific body of experts on 
Afghanistan and Iraq within the DOD. However, various individuals 
employed in the DOD have a wealth of experience and a depth of 
understanding regarding Afghanistan and Iraq. These individuals play 
important roles in informing the development of our policies. Moreover, 
the Department frequently consults with outside experts who contribute 
insights and experiences from the private sector, academia, and 
elsewhere. Additionally, the Joint Staff and Services have brought onto 
their staffs cultural anthropologists and sociologists. Indeed, the 
independent insights from foreign area experts in academia are 
particularly valuable, which is why the Department launched the Minerva 
Initiative last year to cultivate and solicit academic social science 
expertise in areas that will inform policymaking.

          MILITARY REQUIREMENTS IN THE ECONOMIC RECOVERY BILL

    90. Senator McCain. Secretary Gates, our colleagues in the Senate 
Appropriations Committee are marking up this morning their version of a 
National Economic Recovery Bill. The House's version of the bill 
released last week includes over $6.6 billion for military construction 
(MILCON) requirements which were offered to the House Appropriations 
Committee (HAC) by certain representatives of the DOD as being ``shovel 
ready'' and able to create jobs in the next 12 months. Over the past 2 
weeks, my staff has repeatedly asked for a copy of the documents 
justifying the MILCON request with no response. Furthermore, my staff 
has obtained DOD documents that state in order for certain MILCON 
projects to be shovel ready, ``fast execution would require waiver of 
competitive bidding and environmental impact statements,'' and that 
``under extraordinary circumstances, projects could be started in under 
12 months.'' Not very reassuring caveats for job creation, I must 
admit. Were you aware of these conditions?
    Secretary Gates. Back in late December I was aware that the 
President Elect's economic team, led by Larry Summers, was putting 
together the President-Elect's stimulus bill proposal, and was sorting 
out what it would do regarding conditions for projects to be included 
in the proposal. But my Department and I were not directly involved in 
preparing the proposal. Any DOD documents your staff might have 
obtained would not necessarily contain conditions or projects that the 
President Elect's team took into account in preparing its stimulus 
proposal.

    91. Senator McCain. Secretary Gates, how were the military 
requirements submitted to the HAC determined with the Department?
    Secretary Gates. The Department did not submit military 
requirements for the stimulus bill to the HAC. What occurred was this: 
About December 23, 2008, I responded to questions from Representatives 
Murtha and Edwards regarding possible DOD funding in a future stimulus 
bill. This was merely a response to specific questions, not a finalized 
list of requirements. The President Elect's economic team, led by Larry 
Summers, developed the stimulus bill proposal, and DOD was not directly 
involved.

    92. Senator McCain. Secretary Gates, can this committee have full, 
open, and immediate access to all documents provided to members of the 
HAC to support the request for MILCON so that we can perform due 
diligence and oversight?
    Secretary Gates. I would be happy to provide access to such a 
budget request, but in fact the DOD did not provide documents to the 
HAC as part of an official request for MILCON in the stimulus bill. The 
actual request for the stimulus bill was developed by the President-
elect's team.

    93. Senator McCain. Secretary Gates, is the potential for quick 
jobs creation resulting from MILCON that the Department has proposed 
contingent on circumventing laws, related to free and open competition 
as well as requirements set forth in NEPA?
    Secretary Gates. The Department does not intend to circumvent any 
laws, including the NEPA, in execution of MILCON projects proposed for 
the economic stimulus package. One of the criteria considered for 
potential projects was that they must have NEPA documentation completed 
(including categorical exclusions) or projected for completion prior to 
execution. As with all MILCON projects executed by the Department, all 
contracts are in compliance with applicable acquisition laws, rules, 
and regulations.

    94. Senator McCain. Secretary Gates, during the process of 
proposing areas for military funding to help stimulate the economy, did 
the Department consider investments in equipment and materials that 
would have a direct impact on the readiness of our forces as well as 
generating jobs on assembly lines around the country?
    Secretary Gates. In considering input for the President-Elect's 
team, the Department focused primarily on infrastructure, not readiness 
because we understood that infrastructure (including energy 
conservation) was the team's focus. Of course, most infrastructure 
improvements--e.g. better barracks and health care facilities--support 
readiness of our forces.

                                EARMARKS

    95. Senator McCain. Secretary Gates, former President Bush signed 
an Executive order last year intended to reduce the number and cost of 
earmarks and make their origin and purpose transparent. It directed 
that executive agencies not expend funds on earmarks listed in non-
statutory sources, like congressional reporting or explanatory 
language. What direction have you given the Department with regard to 
this Executive order?
    Secretary Gates. I have not given any new direction because I 
expect President Obama will be deciding what to do about that Executive 
order.

    96. Senator McCain. Secretary Gates, do you anticipate that the new 
administration will alter the order?
    Secretary Gates. I anticipate that President Obama will make a 
decision on what he wants done regarding this order.

    97. Senator McCain. Secretary Gates, what is your understanding of 
the effect of unrequested earmarks on the Department's ability to 
maintain stable funding for meritoriously-selected programs?
    Secretary Gates. Unrequested congressional funding within a 
constrained budget topline causes reductions in requested funding, and 
thus threatens the stable funding of programs that are Defense 
priorities which were included in the President's budget request.

                              F-22 RAPTOR

    98. Senator McCain. Secretary Gates, Deputy Secretary England 
recently stated, that investing in fifth-generation fighters for all 
three Services, by committing to the F-35 Joint Strike Fighter program, 
provides more effective capability to the joint force commander than 
concentrating investments in a single Service by buying more F-22As. Do 
you agree with Secretary England? Please explain.
    Secretary Gates. The F-22, when combined with the F-35 Joint Strike 
Fighter, will provide the Nation with the most capable and lethal mix 
of fifth generation aircraft available for the foreseeable future. Each 
fills different capability gaps for the Joint Force Commander and are 
equally important investments. The critical question is the appropriate 
mix between the F-22 and F-35. The Department is reviewing whether to 
procure more F-22 aircraft beyond its current Program of Record 
quantity of 183 and will make a recommendation to the administration.

    99. Senator McCain. Secretary Gates, although this does not 
represent my views, others have stated that military requirements 
should consider the need to sustain our industrial base, which would 
argue against discontinuing a weapons program and a basis for keeping 
the production-line open indefinitely. What are your views?
    Secretary Gates. The Department is currently reviewing whether to 
procure more F-22A aircraft beyond its current Program of Record 
quantity of 183. Some of the factors that will go into the Department's 
recommendation to the administration are: compliance in meeting the 
requirements of the current National Military Strategy; affordability 
of additional F-22A aircraft within the Department's resource 
constrained environment; and consideration of the national technology 
and industrial base.

    100. Senator McCain. Secretary Gates, recently, the DBB warned that 
the DOD's ability to see through its current plans and programs over 
the long-term is ``not sustainable''. The Board advised that the 
current financial crisis will require that the Department (and 
Congress) make hard budget decisions on some of the Department's 
largest weapons programs. Only by doing so, according to the Board, can 
other military priorities be met. As the Board indicated, ``[b]usiness 
as usual is no longer an option; the current and future fiscal 
environments facing the Department demand bold action.'' In light of 
sustained military requirements from continued troop deployments on the 
global war on terror, would you characterize a decision to purchase 
additional F-22A Raptor aircraft as business as usual?
    Secretary Gates. A decision to purchase additional F-22A Raptor 
aircraft would not be characterized as business as usual. The 
Department is currently reviewing whether to procure more F-22A 
aircraft beyond its current Program of Record quantity of 183. 
Affordability, in light of the Department's fiscal constraints, whether 
continued production or termination is in the national interest of the 
United States, as well as military requirements, will go into the 
Department's recommendation to the administration on whether to procure 
additional F-22A aircraft.

    101. Senator McCain. Secretary Gates, through fiscal year 2008, 
over $58 billion have been spent on the F-22 program. With unit costs 
having risen over 177 percent, the F-22's program acquisition unit cost 
is $350 million per aircraft. We have learned that other traditional 
Air Force superiority fighter aircraft lines remain open for some 
limited foreign sales--specifically the F-15 and F-16 lines--fighter 
aircraft that are significantly less expensive. I believe I am uniquely 
suited to understand the importance of the need for U.S. air 
superiority to counter future perceived threats--something, I realize, 
buying many more F-22 aircraft ostensibly provides; however, I would 
like to know whether such air superiority simply be achieved by 
another, more cost-effective approach?
    Secretary Gates. The F-22 Raptor is the most advanced tactical 
fighter in the world and, when combined with the F-35 Joint Strike 
Fighter, will provide the Nation with the most capable and lethal mix 
of fifth generation aircraft available for the foreseeable future. The 
tremendous capability of the F-22 is a critical element in the 
Department's overall tactical aircraft force structure requirements. 
The Department's decision to transition from legacy tactical aircraft 
to a mix of fifth generation fighters, in essence, allows the 
Department to buy fewer aircraft while meeting and exceeding the 
capability requirements of the legacy fleet. While fifth generation 
fighters, such as the F-22 and F-35, have higher unit costs than the 
legacy fighters they will replace, there are savings to be realized by 
avoiding the increasing operations and support costs of the aging fleet 
and the costs of maintaining that force structure. Air superiority can 
be achieved through an appropriate mix of F-22, F-35, and other 
tactical fighters. The Department is currently reviewing what this 
appropriate mix should be.

    102. Senator McCain. Secretary Gates, has the F-22 flown a single 
combat sortie in the CENTCOM theater?
    Secretary Gates. No.

    103. Senator McCain. Secretary Gates, how long has the F-22 been 
operational?
    Secretary Gates. The F-22 was declared operational (initial 
operational capability) December 15, 2005, at Langley AFB, VA.

    104. Senator McCain. Secretary Gates, what is the F-22's relevance 
to the current or reasonably foreseeable threat environment, dominated 
by non-State actors and asymmetrical threats?
    Secretary Gates. Today, the U.S. is faced with a wide range of 
threats and much uncertainty. As a result, we must ensure balance 
across our force application and battle space awareness portfolios, to 
shape and react to a host of scenarios. The F-22 will represent a 
relatively small percentage of the total U.S. fighter/attack inventory, 
but represents a significant capability.
    We need not envision a replay of earlier conflicts to acknowledge 
that the U.S. may yet again find itself challenged by hostile actors 
capable of denying our use of the air or space in engagements across 
the full spectrum of military operations. Highly capable ground and 
sea-based air defenses, enabled by advancements in computer processing 
and digital technology, offer increasingly attractive alternatives to 
the fielding of modern air forces for many would-be adversaries. The 
proliferation of such weapons will effectively inhibit airspace access 
to non-stealth platforms, and can radically alter our thinking about 
what it means for any actor to be considered a viable threat to the 
U.S. military. We may also plausibly encounter an enemy willing and 
able to exploit the air domain to threaten security of an Ally or 
region, in a manner similar to Hezbollah's use of cruise missiles and 
unmanned aircraft in its 2007 war with Israel. These challenges are not 
particular to any specific category of conflict, yet all put a premium 
on America's ability to dominate the air. Although none of the actors 
we face directly in ongoing operations in Afghanistan and Iraq have 
demonstrated the combination of ability and willingness to deny use of 
the air, nor exploit its use to challenge U.S. and coalition forces, we 
should consider whether this will always be the case.
    The F-22 is best associated with its air dominance mission but it 
is also important to recall that two decades of development and 
innovation have resulted in much more than just an air-to-air fighter. 
The aircraft also provides the ability to negate or defeat advanced air 
defenses, provides significant surface attack capability, and is a 
capable surveillance and reconnaissance platform. It is the synergy of 
these attributes that best summarizes the F-22's relevance in the 
Department's overall portfolio, both from the perspective of deterrence 
and as an effective enabler. This is especially true given that many of 
the world's most prominent supporters of terrorist organizations are 
acquiring or will soon acquire counter-air systems that render some of 
our aircraft incapable of accomplishing the mission. The F 22's 
capability to find, fix, track, target, and engage these threats 
provides significant advantage to gain operational access in order to 
conduct the direct support mission for the Joint Force Commander. The 
F-22 may not be the most efficient force application or battle space 
awareness solution for every problem we may face, but for some of the 
toughest ones, it may be one of a very small group of viable options.

                          FUTURE COMBAT SYSTEM

    105. Senator McCain. Secretary Gates, you have set, as a priority, 
to concentrate the minds of the defense establishment on the wars in 
Iraq and Afghanistan. Last May you said, ``I have noticed too much of a 
tendency towards what might be called `next-war-it-is,' the propensity 
of much of the defense establishment to be in favor of what might be 
needed in future conflicts.'' Instead of large, complex weapons 
systems, you called for simpler, more numerous and presumably more 
affordable designs for new equipment. You also said every new weapons 
system would have to be useful for fighting irregular wars. How would 
you assess your progress?
    Secretary Gates. As I stated in my testimony, my strategy involves 
going after greater quantities of systems that represent the 75 percent 
solution versus smaller quantities of the 99 percent solution. This 
strategy has not yet been fully manifested in the acquisition system, 
but I expect it will over time. We continue to make progress in 
institutionalizing responses to irregular warfare across the 
Department, and--as requirements are defined to meet operational 
needs--these requirements will flow to the acquisition process. For 
example, irregular warfare has been formally established as a Core 
Mission Area and our joint commanders now have a Joint Operating 
Concept that describes how they might employ capabilities to meet 
future irregular warfare operational challenges. At the component 
level, the Services have established irregular warfare-related training 
and education centers, and together with the Joint Staff, we are 
conducting studies of irregular warfare-relevant requirements. While 
these efforts reflect progress, we acknowledge more has to be done to 
achieve our irregular warfare vision. Gaps still exist, and we are 
developing a resource strategy that achieves the right balance of 
capabilities needed to meet future challenges across the spectrum of 
operations.

    106. Senator McCain. Secretary Gates, in that same speech you 
specifically cited the Army's Future Combat System (FCS), a multi-
billion dollar program of interlinked armored fighting vehicles, 
unmanned aircraft and cannons and said: ``a program like FCS . . . must 
continue to demonstrate its value for the types of irregular challenges 
we will face as well as for full-spectrum warfare.'' The FCS is a 
multi-year, multi-billion dollar program at the heart of the Army's 
transformation efforts. Some question if FCS, envisioned and designed 
prior to September 11, 2001 to combat conventional land forces, is 
relevant in this current national security environment where 
counterinsurgency and stabilization operations feature prominently.
    The FCS program has achieved a number of programmatic milestones 
and is transitioning from a purely conceptual program to one where 
prototypes of many of the 14 FCS systems are under development. With a 
variety of estimates on the total cost of the FCS program, questions 
have been raised about FCS affordability. In 2007, citing the impact of 
past budget cuts, the Army restructured the program from 18 to 14 
systems. In 2008, in response to both congressional and DOD concerns, 
the Army restructured the program again.
    Assessing the current national security environment, the current 
readiness of the Army, and the economic situation facing the Nation, 
how will the Department proceed on the development of FCS?
    Secretary Gates. In my Foreign Affairs article, ``A Balanced 
Strategy,'' I addressed the importance of developing a strategy, and 
the force structure to implement the strategy, that balances: ``between 
trying to prevail in current conflicts and preparing for other 
contingencies, between institutionalizing capabilities such as 
counterinsurgency and foreign military assistance and maintaining the 
United States' existing conventional and strategic technological edge 
against other military forces.'' The kinds of capabilities we will most 
likely need in the years ahead will often resemble the kinds of 
capabilities we need today. This understanding is driving the Army's 
approach to FCS where defeating a specific threat, in a specific 
context, often for a specific geographical area is not entirely 
adequate.
    The Army continues to review and adjust the FCS program to address 
the operational needs of commanders, incorporate lessons learned from 
current operations, and accelerate FCS capabilities to soldiers engaged 
in the prolonged, worldwide irregular campaign. The decision to field 
FCS capabilities to the infantry brigade combat teams first, the Army's 
highest demand and most vulnerable BCTs, is a clear example of how the 
Army adjusted the FCS program based on operational needs and lessons 
learned from the current fight. We will continue to look for 
opportunities to adjust the program in order to provide capabilities to 
commanders and enhance the effectiveness and survivability of soldiers.

    107. Senator McCain. Secretary Gates, both the Army and the Marine 
Corps have accelerated their efforts to grow their end strength in 
order to meet the continued high tempo of contingency operations. While 
I am encouraged by this development, I am concerned that each Service 
may grow beyond their capacity to provide adequate support for the new 
military personnel and their families. Potential shortages in barracks, 
housing, and family support facilities will cause hardship for ALL 
soldiers, marines, and their families over the next 3-5 years.
    In your view, do we have challenges in this area? If so, what is 
being done within the Department to ensure the rapid pace of end 
strength growth can be supported with adequate facilities meeting the 
standards we have provided to our personnel?
    Secretary Gates. With full funding of the President's fiscal year 
2010 budget request, we can support our servicemembers and their 
families as we grow the force over the next 3 to 5 years. The 
Department has been planning for this growth in barracks, family 
housing, and family support facilities since the initial Grow the Force 
announcement was made in December 2007. The Department continues to 
provide adequate facilities in a timely manner to meet these 
requirements.

                       QUADRENNIAL DEFENSE REVIEW

    108. Senator McCain. Secretary Gates, every 4 years, the DOD is 
required by law to conduct a QDR, a comprehensive review of the 
Nation's defense strategy, force structure, modernization plans, 
infrastructure, and budget. The most recent QDR was issued in February 
2006 and the next one is scheduled for release in 2010.
    Broadly speaking, the QDR was originally intended to be a vehicle 
for making strategic shifts in the department's orientation, sizing and 
shaping forces, and managing risks. Have you reviewed the process used 
to prepare the 2006 QDR?
    Secretary Gates. The Department has conducted an extensive review 
of the process used to prepare the 2006 QDR.

    109. Senator McCain. Secretary Gates, what strengths and weaknesses 
did you find in it?
    Secretary Gates. The 2006 QDR went a long way toward establishing 
the foundation for new approaches to address our most pressing 
challenges. In terms of process strengths, through the 2006 QDR we 
established a senior deliberative body to guide the process. Combatant 
commands, other Federal agencies, and multinational partners 
participated in the 2006 process at unprecedented levels.
    However, the review of the 2006 QDR showed some areas for 
improvement, including the importance of working with Congress. 
Additionally, the need for whole-of-government solutions to national 
security problems and to balance current and future threats continues 
to be a key focus area.

    110. Senator McCain. Secretary Gates, describe the process you 
intend to use in the 2010 QDR.
    Secretary Gates. Broadly speaking, my intention is to use this QDR 
to make difficult choices and immediately influence defense budgeting. 
In terms of process, I see great value in continuing to engage U.S. 
Government stakeholders, Congress, and international partners. To be 
effective, the 2010 QDR must lay the foundation for an effective force 
for the 21st century and establish the right balance for addressing the 
complex and hybrid forms of warfare we face today and those we will 
face in the future.

    111. Senator McCain. Secretary Gates, in an article entitled ``Did 
the Pentagon Get the Quadrennial Defense Review Right?'' which appeared 
in the Washington Quarterly in spring 2006, Michele Flournoy, the 
President's nominee to be the Under Secretary of Defense for Policy 
wrote that the 2006 QDR ``did not include a regular consultation 
process with the process with the chairs and ranking members of the key 
defense committees in the Senate and the House of Representatives.'' Do 
you believe that political engagement on the QDR is important and would 
you consider including it in the process?
    Secretary Gates. I believe regular engagement with all stakeholders 
in the Nation's defense enterprise is an important part of QDRs. The 
Department must regularly consult with Congress, other U.S. Government 
partners, defense industry, and key international partners with whom 
the United States works to meet the challenges of today's security 
environment.
    The Department's engagement with Congress throughout the QDR 
process is especially important to ensure a smooth transition between 
QDR decisionmaking and any related legislation, including 
appropriations. We expect to make hard choices in this QDR and will 
depend on the support of Congress to be successful.

          RELATIONS WITH THE DIRECTOR OF NATIONAL INTELLIGENCE

    112. Senator McCain. Secretary Gates, at his confirmation hearing 
before the Senate Select Committee on Intelligence on January 22, 
Admiral Blair, the President's nominee to be the Director of National 
Intelligence (DNI), said that there are coordination issues between the 
DNI and the DOD regarding the global war on terror.
    Admiral Blair said ``I think we need to get rid of this artificial 
division in this global campaign against terrorists when the tools that 
are available in the DOD and the Intelligence agency are both 
applicable and both need to be put together to get the job done. And I 
find that operational effectiveness is in fact distorted by the way the 
authorities which are written for a different area--era come down. But 
I think that in the meantime given what we have, we should not use 
different Titles as a shell game to try to keep information from 
Congress who has the oversight responsibility and the funding 
responsibility for these programs and I can undertake to you that I 
will make sure that we don't use a different title to hide something, 
that people who have knowledge and responsibility and oversight 
responsibility to carry out are kept in the dark.'' How are your 
relations with DNI?
    Secretary Gates. In order for us to achieve the full scope of our 
national security objectives, the burgeoning requirements within 
Defense for timely, relevant and actionable intelligence must be 
carefully balanced against the DNI's national intelligence priorities. 
This cannot be done unless the Secretary of Defense and the DNI work in 
full partnership as I did with Director McConnell during his tenure. I 
have spoken to the DNI about the need to stay closely linked on these 
issues, and he has responded favorably. In fact, we have committed to 
meeting regularly to discuss issues of mutual importance. I have also 
agreed to dual-hat the Under Secretary of Defense for Intelligence as 
the Director, Defense Intelligence and in that capacity he will work on 
behalf of the DNI. The current Under Secretary of Defense for 
Intelligence, James R. Clapper, meets weekly with the DNI and even sits 
in on his staff meetings. So I believe my relations with the new DNI 
are already on a very positive footing.

    113. Senator McCain. Secretary Gates, how serious are the divisions 
between the DOD and the Intelligence Community?
    Secretary Gates. I do not think that there are serious divisions 
between the two at all. Instead I tend to agree with the following 
statement from the DNI: ``The issues that often arise between the 
demands of military operations and of other intelligence requirements 
have to do with the capacity of collection systems and with assignment 
of analysts. Sometimes multi-purpose collections systems for signals 
and imagery intelligence do not have the capacity to handle all 
requirements. Sometimes analysts are taken from one area and assigned 
to another. It is incorrect always to characterize these priority-based 
decisions as conflicts between military and national requirements. They 
are rather the decisions that have to be made by the intelligence 
enterprise of a global power that needs good intelligence in many 
different areas of the world and for many different potential 
threats.'' This statement I think accurately characterizes the 
relationship between the DOD and Intelligence Community as well 
considering that many of non-DOD Intelligence Community members are 
also national level customers of the DOD components of the Intelligence 
Community.

    114. Senator McCain. Secretary Gates, do authorities in title 10 
and title 50 require clarification?
    Secretary Gates. No, I have a clear understanding of my 
responsibilities and authorities under both title 10 and title 50 of 
the United States Code. In order to discharge my statutory 
responsibilities as Secretary of Defense, I provide authority, 
direction, and control over the DOD and its components. DOD engages in 
traditional military activities as directed by the President of the 
United States and by the Secretary of Defense. Traditional military 
activities include both overt and clandestine activities. These 
activities are reported to the appropriate oversight committees of 
Congress based upon committee jurisdiction.

                     RESET - CURRENT UNIT READINESS

    115. Senator McCain. Secretary Gates, on the issue of the readiness 
of our combat units, which I mentioned in my opening statement, 
Congress has provided over the past 3 years more than $25 billion to 
repair or replace equipment used by our forces in Iraq or Afghanistan. 
Yet, in quarterly readiness reports received by our committee, we see a 
significant number of combat units with degraded readiness ratings due 
to a lack of equipment. What kind of risk are we taking by having such 
a high number of our combat units assessed as not ready to take on a 
full range of missions?
    Secretary Gates. Current funding for repair and replacement of 
equipment used in Iraq and Afghanistan is approximately $25 billion per 
year. That funding is sufficient to keep up with equipment losses and 
increased wear and tear due to combat operations. In addition to the 
$25 billion of annual equipment repair and replacement costs, there is 
an overall liability of $41 billion to repair or replace equipment 
returning from theater that will need to be funded when we reduce 
forces in Iraq and Afghanistan.
    While our deploying forces' readiness for ongoing counterinsurgency 
missions is high, we lack the dwell time required to train ground 
forces for the full range of military operations. This impacts our 
readiness to counter future threats, providing potential opportunities 
for adversaries to act as if they are undeterred by a less capable 
force. We must continue to balance the force for an uncertain future 
while remaining focused not only on dwell time but on restoring and 
repairing equipment to levels that support training and response 
capability for a full range of missions. It is important to strike a 
balance between retaining prudent and appropriate conventional 
capabilities while ensuring that we fully develop the flexible force we 
need to overcome ever-changing irregular challenges.

    116. Senator McCain. Secretary Gates, what more can Congress do to 
assist the Services in restoring the readiness of major combat units?
    Secretary Gates. In the current fiscally-constrained environment, 
it is critical to fully fund the president's budget and to continue to 
support the supplementals that are necessary for equipment repair and 
replacement throughout the duration of our commitment in Iraq and 
Afghanistan and the subsequent reset, reconstitution and 
recapitalization of the force.

    117. Senator McCain. Secretary Gates, do you have any unfunded 
requirements related to the reset that should be included in the 
pending economic recovery package?
    Secretary Gates. DOD has and continues to request reset funding 
through War Supplemental Appropriations. With the support of Congress, 
we continue to receive the necessary funding to enable operations and 
to reset the force. The Department does not have any near-term unfunded 
requirements related to reset that should be included in the economic 
recovery package. We provided the White House an economic stimulus 
submission consisting of construction projects that can start within 
months to help address the needs of our servicemembers and their 
families and the near-term economic state of the economy.

    118. Senator McCain. Secretary Gates, do you have any concerns 
that, with competing budget priorities, we run the risk of not fully 
investing heavily in reset requirements and ending up with a hollow 
force?
    Secretary Gates. Yes, I do have such concerns, and that is why we 
are making hard choices to ensure our military does not become a hollow 
force. As President Obama has said, we must scrutinize all our programs 
to cut unnecessary funding. We must have sufficient resources for 
resetting forces returning from combat.

            RELOCATION OF U.S. MARINES FROM OKINAWA TO GUAM

    119. Senator McCain. Secretary Gates, I have a question about the 
agreement between our Government and the Government of Japan to realign 
U.S. marines on Okinawa, and to station 8,000 marines and their 
families on the Island of Guam. This committee most likely will see in 
the fiscal year 2010 budget a substantial request for investment in new 
facilities to support movement of the marines to Guam. How do you view 
the agreement from a theater-wide strategic perspective?
    Secretary Gates. As the western-most U.S. territory for basing in 
the Pacific, Guam provides the strategic flexibility and freedom of 
action necessary to support peacetime engagement, crisis response, 
theater security cooperation, and partner capacity building.
    By implementing our bilateral agreement with Japan and carrying out 
our other plans to expand military presence in and around Guam, we send 
a message of assurance to our Allies, partners, and friends in Asia and 
beyond. Security in the Pacific is key to not just our national 
security and that of our treaty allies, but also to our neighbors 
throughout the Americas, whose economic future is linked more and more 
to cross-Pacific trade and exchanges.
    Guam also serves as a logical and cost-effective location for 
training with our regional allies. The agreement with Japan to relocate 
Marine forces also builds on other changes the U.S. is making that will 
support forward-basing of submarines and transient aircraft carriers, 
provide a hub from which to project Intelligence, Surveillance, and 
Reconnaissance and strike assets, and increase logistical sustainment 
capabilities and prepositioning in the Western Pacific. The relocation 
of 8,000 marines and their dependents to Guam is also key to a much 
broader strategic effort to transform the U.S.-Japan Alliance 
relationship in ways that will strengthen the political support in 
Japan for our reduced and consolidated presence on Okinawa, while also 
expanding the roles and missions cooperation between U.S. and Japan 
forces. Overall, these efforts will strengthen the stand-off deterrent 
effect of U.S. Forces regionally and assure our regional allies and 
partners of an enduring U.S. forward presence in the Asia/Pacific.

    120. Senator McCain. Secretary Gates, the current estimate for the 
costs to relocate the marines from Okinawa to Guam is at least $10 
billion, with the Government of Japan directly contributing $2.8 
billion. The remainder will be funded by DOD through MILCON or loans 
paid back through future housing allowances. With all the other 
modernization, recapitalization, and reset requirements facing the 
Department in the next 4 years, in your opinion, can we afford this 
move?
    Secretary Gates. Executing the relocation of marines from Okinawa 
to Guam and completing the military build-up of Guam is an important 
long-term investment in our enduring regional posture. Japan shares our 
view that this is a worthy and critical investment and as such is 
committing up to $6.09 billion in total funding. The Department will 
ensure fiscal discipline is exercised throughout the duration of this 
effort. We look forward to working with Congress to ensure that we 
appropriately fund this important strategic priority.

    121. Senator McCain. Secretary Gates, there has also been 
discussion about the significant investment necessary to upgrade port, 
road, and utility infrastructure on Guam to support the stationing of 
marines and their families. Do you believe the DOD should assume this 
financial obligation as well?
    Secretary Gates. Executing the relocation of marines from Okinawa 
to Guam and completing the military build-up of Guam is an important 
long-term investment in our enduring regional posture. Japan shares our 
view that this is a worthy and critical investment and as such is 
committing up to $6.09 billion in total funding. The Department will 
ensure fiscal discipline is exercised throughout the duration of this 
effort. We look forward to working with Congress to ensure that we 
appropriately fund this important strategic priority.

                             CHINA - TAIWAN

    122. Senator McCain. Secretary Gates, this year marks the 30th 
anniversary of the Taiwan Relation Act (TRA). Given China's rapid 
military modernization, please discuss the relevancy of the TRA today 
and how do you suggest we move forward as China's military grows more 
capable of projecting power beyond the Taiwan Straits?
    Secretary Gates. U.S. policy toward China and Taiwan is a 
longstanding one, based on the three U.S.-China joint communiques, and 
the 1979 Taiwan Relations Act. This policy, which includes making 
available to Taiwan defense articles and services necessary to enable 
Taiwan to maintain a sufficient self-defense capability, has served the 
interests of the United States and of the region well for the past 30 
years. In light of the rapid buildup of military capabilities on the 
Mainland, I believe the Taiwan Relations Act continues to serve the 
interests of peace and stability in the Taiwan Strait, and East Asia 
writ large.
    As China's military grows more capable of operating beyond the 
Taiwan Straits, we have the opportunity to work with China in pursuit 
of common goals as we are doing in our naval efforts off the Horn of 
Africa. China's increasing capabilities also present us with potential 
challenges. We need to both prepare for these challenges and work with 
China to ensure we understand each other and find ways to work 
together.

    123. Senator McCain. Secretary Gates, how do you suggest we come to 
a common conclusion with our NATO allies about how to address narcotics 
trafficking that by all accounts is funding the insurgency?
    Secretary Gates. We are working closely with our NATO Allies to 
address narcotics trafficking in Afghanistan. Allied Ministers agreed 
at the October 2008 NATO Defense Ministerial in Budapest that ISAF has 
the authority to take action in concert with Afghans against narcotics 
facilities and facilitators supporting the insurgency. As an example of 
exercising this authority, ISAF has reported three interdiction 
operations, security support for eradication efforts, and 
counternarcotics public information efforts for the first 15 days in 
February 2009. Additionally, CENTCOM updated the U.S. Forces' ROE in 
Afghanistan to support participation in counternarcotics activities. 
Counternarcotics activities now need to be integrated into the 
counterinsurgency campaign, recognizing that where a nexus between the 
narcotics trade and the insurgency exists, military action must be 
taken, either directly or in support of law enforcement agencies and 
host nation security forces.

                        NATIONAL MISSILE DEFENSE

    124. Senator McCain. Secretary Gates, we have seen great 
improvements and recent testing success of a national missile defense 
system. In addition, our allies continue to support our efforts, 
despite extreme pressure from their neighbors in the region. The U.S. 
is in the process of finalizing arrangements with the Poles and the 
Czechs to place components of a fixed Ballistic Missile Defense (BMD) 
site in their two countries. Construction is scheduled to start in late 
2009. What is your current assessment of this program and the near-term 
plans for construction of facilities in Poland and the Czech Republic?
    Secretary Gates. The United States and Poland are continuing to 
negotiate the supplemental agreement to the NATO Status of Forces 
Agreement (SOFA), which is necessary to provide the legal basis for 
U.S. personnel to perform their functions in Poland under the U.S.-
Poland missile defense basing agreement. There has been a great deal of 
progress in the talks, but there remain important issues to resolve. We 
hope to conclude negotiations soon, followed shortly thereafter by 
ratification by the Polish Parliament. The United States and the Czech 
Republic have signed a BMD Basing Agreement and a supplemental SOFA. 
These agreements await ratification by the Czech Parliament. The 
National Defense Authorization Act for Fiscal Year 2009 provides that 
no fiscal year 2009 funds may be obligated or expended for the 
interceptor site in Poland until both host nations have ratified the 
missile defense agreements and the SOFA supplemental agreements. Once 
the necessary agreements are ratified, the United States could begin 
construction, if a decision is made to do so.

    125. Senator McCain. Secretary Gates, do you anticipate any major 
policy changes with the new administration related to national missile 
defense?
    Secretary Gates. The United States will continue to develop and 
field missile defenses that are technologically sound and cost-
effective. We will also develop missile defenses in consultation with 
our friends and allies.

              CARE FOR WOUNDED WARRIORS AND THEIR FAMILIES

    126. Senator McCain. Secretary Gates, you have stated that with 
regard to care for our wounded warriors, ``. . . apart from the war 
itself, this Department and I have no higher priority.'' I commend you 
Mr. Secretary for your recognition of the debt owed by our Nation to 
wounded servicemembers and their families who have sacrificed so much 
for our freedom.
    Last June you wrote a memo to the Deputy Secretary in which you 
called for additional focus within the Department on four critical 
objectives in support of our wounded warriors: disability ratings, 
support for families, medical related research and the signature 
injuries of the war--PTSD and TBI. What progress has been made in the 
areas you identified, and what remains to be done?
    Secretary Gates. A foremost priority of the DOD, in close 
collaboration with the Department of Veterans' Affairs (VA), continues 
to be caring for our Nations' wounded warriors and their families. 
Significant progress has been made on the critical objectives.
    Disability Evaluation System (DES) improvements have successfully 
made the process less complex and provided faster adjudication in the 
pilot program. A DES pilot final report is due in August 2009 and will 
include recommendations for system-wide improvements being implemented 
in an expansion program now. Additionally, a priority DES program is 
being developed for use by catastrophically injured servicemembers.
    The DOD is providing more for family members of wounded 
servicemembers today than at any time in our history. Last year (2008) 
was a banner year for wounded warrior family initiatives to include: 
creation of an online national resource directory, with over 10,000 
services and family resources; launching a wounded warrior resource 
center, providing around-the-clock assistance for family members to 
report concerns with facilities, benefits, or services; holding a 
family summit to share ``best practices'' for care management and 
family issues; publication of a family handbook to provide care 
information; and, publication of a benefits and compensation handbook. 
Additionally, Military OneSource is an important around-the-clock 
resource for military members and their families. Case managers and 
care coordinators are available and trained to provide personal 
assistance to servicemembers and families of recovering servicemembers.
    DOD is committed to providing excellence in protection, prevention, 
diagnosis, research, treatment, recovery, and care transition for our 
servicemembers and their families who experience a mental health 
condition or TBI. In accomplishing those objectives, we have worked 
hand-in-hand with our Federal partners in the VA, as well as the 
Department of Health and Human Services.
    A comprehensive plan has been developed for PTSD/TBI centered upon 
seven strategic goals: the leadership and advocacy of the Defense 
Centers of Excellence for Psychological Health and TBI; care quality at 
medical treatment facilities and TRICARE providers; access to care; 
psychological resilience program promotion; screening and surveillance; 
transition and coordination of care; and, research and development.
    The future should continue to be focused on these critical 
objectives with additional emphasis on the ability to attract and 
retain all healthcare personnel to include mental health staff, 
continued and expanded research within the Centers of Excellence, and 
continue the push towards reducing suicide rates.

    127. Senator McCain. Secretary Gates, do you believe these are 
enduring requirements for the Department, and should be funded through 
the normal program and budgeting process of the Department rather than 
through supplemental appropriations?
    Secretary Gates. Yes, care for our wounded warriors are enduring 
requirements for DOD. And yes, as I have said before, war-related 
requirements that are occurring every year should be funded through the 
Department's normal program and budgeting process rather than through 
supplemental appropriations.

               CHANGE TO THE DISABILITY EVALUATION SYSTEM

    128. Senator McCain. Secretary Gates, you also asked: ``. . . is 
there a reason why we could not change the disability rating 
presumption for wounded warriors to a minimum of 30 percent . . . (to) 
provide a foundational base of lifetime support that could then be 
supplemented based on specific circumstances.'' What answer have you 
received to that question?
    Secretary Gates. I am told that an assumed rating of all members 
who have combat-related conditions that render them unfit on the 
permanent disability retirement list (rating of 30 percent) is subject 
to the presumption of fitness rule and the statute governing ratings. 
There are options within policy that could come very close to achieving 
this outcome.

    129. Senator McCain. Secretary Gates, have you formulated a view on 
the best way forward in modernizing this antiquated system?
    Secretary Gates. Yes, the Department of Veterans' Affairs (VA) and 
DOD, through the Senior Oversight Committee, agreed that the VA would 
lead the interagency development of a legislative package that would 
transform the DES toward the construct envisioned by the Dole-Shalala 
Commission. I applaud the VA's willingness to manage the lead in this 
difficult endeavor and look forward to working with Secretary Shinseki.

                 APPEAL PROCESS FOR DISABILITY RATINGS

    130. Senator McCain. Secretary Gates, in the Wounded Warrior Act, 
Congress created a special appeals board to review disability ratings 
of 20 percent and below, because many injured and ill servicemembers 
felt their disabilities had been rated unfairly by the DOD; those who 
are discharged with lower ratings are eligible for care from the VA, 
but their families lose their Government-provided care through TRICARE.
    This Board was intended to right the wrongs, where they exist, in 
the results of disability evaluations for wounded and ill warriors 
since 2001. Are you committed to ensuring that the intent of Congress 
will be achieved when the Board finally begins its work this year?
    Secretary Gates. Yes, I am committed and will ensure that the 
Physical Disability Board of Review achieves the intent of Congress.

                           ARMY END STRENGTH

    131. Senator McCain. Secretary Gates, in late 2007 you approved the 
Army's and Marine Corps' proposal to accelerate by 2 years their growth 
in Active-Duty soldiers to 547,000 and 202,000 respectively. With a 
commitment to eliminating the use of stop-loss as soon as feasible and 
to ensure a minimum of 1 year ``dwell time,'' it seems likely that the 
Army may need to grow even larger to fulfill its operational 
requirements. What is your assessment of the Active-Duty manpower needs 
for the Army and Marine Corps and will the 2010 budget support these 
numbers?
    Secretary Gates. I believe the increases in our Ground Forces (Army 
and Marines) are necessary, and will strengthen the ability of the 
Department to continue to support our deployment needs. We must have 
the right numbers and kinds of uniformed personnel to win our wars, and 
to deter potential adversaries. Additionally, our Forces (Active and 
Reserve) must be large enough to not only satisfy deployed demands, but 
have a rotation base that recognizes the personal needs of our 
volunteers and their families. At the same time, our volunteers must 
have the weapons, equipment, and support that will enable mission 
success. Striking the right balance between personnel, 
recapitalization, and the resources of operational and support costs 
will be a challenging imperative and I look forward to working with 
Congress.

    132. Senator McCain. Secretary Gates, are you satisfied that the 
quality of new recruits coming into the Armed Forces--and the Army in 
particular--is satisfactory?
    Secretary Gates. The quality of new recruits is above the average 
of that in the civilian youth population. For the Active component, at 
the end of January 2009, 70 percent of new recruits were drawn from the 
top half of America in math/verbal aptitude, and 94 percent possessed a 
high school diploma, compared to about 75 percent of American youth. 
The Army's quality has significantly improved since fiscal year 2008, 
and is on track to meet or exceed the Department's quality benchmarks 
for fiscal year 2009.

    133. Senator McCain. Secretary Gates, how about the National Guard 
and Army and Marine Corps Reserve? Are they sized correctly for the 
requirements being placed upon them?
    Secretary Gates. We are well on the way towards increasing the size 
of the Army and Marine Corps. We are in the middle of growing the Army 
by 74,000 (Active, Guard, and Reserve). In fiscal year 2009, the Army 
National Guard (ARNG) has an authorized end strength of 352,600. The 
National Guard will grow to 358,200 spaces by fiscal year 2013. The 
Army Reserve will grow by 1,000 spaces. This growth in end strength is 
a continuation of growth that began last year and is expected to 
continue through fiscal year 2013.
    The Marine Corps growth is in the Active component to enable the 
Corps to build three Marine Expeditionary Force units and to increase 
time at home stations between deployments. This growth provides 
additional Ground Forces to meet strategic demands and mitigate 
persistent capability shortfalls.

               MEDICAL SUPPORT FOR TROOPS IN AFGHANISTAN

    134. Senator McCain. Secretary Gates, advances in battlefield care 
and MEDEVAC yielded the lowest mortality rate in history for U.S. 
Forces serving in Iraq, due largely to the ability to provide care 
within the first ``golden hour'' following injury. Does the Department 
have the resources it needs in Afghanistan to achieve the same standard 
of lifesaving care for U.S. service men and women who may be injured 
while serving there?
    Secretary Gates. The DOD currently provides the highest standards 
of lifesaving care for all of its U.S. service men and women whether 
they are injured in Afghanistan or Iraq.
    As a means of background, metrics used for measuring performance of 
MEDEVAC is from receipt of 9-line MEDEVAC request to drop-off at a 
medical/surgical facility. Analysis of recent data shows that OEF 
MEDEVAC currently uses the Joint and NATO doctrinal standards as the 
mission planning factor, where OIF MEDEVAC uses a more compressed 
mission complete planning factor.
    Despite the differences between OIF and OEF average MEDEVAC mission 
times, the Joint Theater Trauma Registry shows that the survivability 
rates of our servicemembers deployed to OIF and OEF are comparable, 
within 1-2 percent of each other, with OEF having a higher survival 
rate than OIF. From a medical perspective, our experiences suggest far-
forward resuscitation and stabilization rendered during the ``platinum 
10 minutes'' by combat lifesavers, medics and corpsmen have contributed 
far more to our survival rates than efforts to meet a ``golden hour'' 
standard. Recent data and literature support rapid resuscitation, 
stabilization and evacuation to surgical care after the trauma improves 
survival for periods of 90-120 minutes--except for a small number of 
noncompressable thoracic trauma cases. With these early interventions, 
the cumulative Died of Wounds (DOW) rates in Afghanistan and Iraq are 
also comparable, with OEF having the lower DOW rate between the two 
theaters. Nonetheless, we are taking measures to reduce average MEDEVAC 
mission times in Afghanistan to be comparable with Iraq.

    CHANGES IN THE ROLE OF THE NATIONAL GUARD AND RESERVE COMPONENTS

    135. Senator McCain. Secretary Gates, the changes in expectations 
for national guardsmen and reservists about the nature of the service 
they will be expected to perform have been pronounced. We have an 
Operational Reserve now, and you have been instrumental in ensuring 
that DOD policies and organizational changes keep up with the new 
requirements that now exist. Do you think that the Department and the 
individual Services have made adequate progress in making the best use 
of the professionals of the Reserve and Guard?
    Secretary Gates. Your point that the Guard and Reserve are manned 
by professionals is a very good one. These citizen-warriors are among 
the best our Nation has to offer. They serve locally in their 
communities as civilian professionals and they serve their States and 
Nation as professionals of their respective Services. These are truly 
great Americans to whom we owe it to get the best, the most effective, 
use of their specific and varied expertise. I believe that the DOD is 
making tremendous strides in capturing and utilizing civilian acquired 
skills; skills that are often not found in our Active components. One 
excellent example of this is the Afghan Agriculture-business 
Development Teams. Guardsmen from across the Nation are using their 
expertise in Agri-business to coach and mentor Afghan farmers, 
universities, and the Ministry officials on innovative techniques. More 
programs like this can be developed and we are working with the 
Services and their Reserve components to find appropriate force 
structures that can capitalize on the professional skills of reservists 
and Guardsmen, while not detracting from the readiness in our 
conventional formations.

    136. Senator McCain. Secretary Gates, what progress has been made 
in ensuring that the Department, Northern Command, the Department of 
Homeland Security, and States and their Governors are ready for a 
natural or man-made disaster?
    Secretary Gates. The DOD, including U.S. Northern Command and U.S. 
Pacific Command, are well prepared to provide substantial lifesaving 
and life-sustaining assistance, with a sense of urgency, when needed. 
During the past 8 years, the Department has developed unprecedented 
capabilities to respond to natural or manmade disasters and has trained 
and exercised its forces (in more than 40 exercises) to employ these 
capabilities to provide timely, efficient, and effective support to 
civil authorities. Consistent with the Department's 2005 Strategy for 
Homeland Defense and Civil Support,\1\ priority has been given to 
preparing to provide forces and capabilities in support of civil 
authorities in responses to chemical, biological, radiological, 
nuclear, and high-yield explosives (CBRNE) incidents, with an emphasis 
on preparing for multiple, simultaneous mass casualty incidents. On 
September 11, 2001, DOD had approximately 400 specially trained and 
equipped personnel ready to assist civil authorities in the response to 
a domestic CBRNE incident; DOD has more than 9,000 such personnel today 
and, by 2011, will have nearly 20,000.
---------------------------------------------------------------------------
    \1\ DOD, The Strategy for Homeland Defense and Civil Support, June 
2005, page 3.
---------------------------------------------------------------------------
    As required by the Post-Katrina Emergency Management Reform Act of 
2006, DOD and the Federal Emergency Management Agency (FEMA) have 
developed prescripted mission assignments to expedite the process for 
requesting DOD assistance.\2\ Current DOD prescripted mission 
assignments include support in several critical resource areas, 
including transportation, communications, debris removal, wide-area 
damage assessment, patient evacuation, incident management, mass care 
and shelter, resources support, and health and medical support.
---------------------------------------------------------------------------
    \2\ Section 653(c) of Title VI (the Post-Katrina Emergency 
Management Reform Act of 2006) of Public Law 109-295 (Department of 
Homeland Security Appropriations Act for Fiscal Year 2007) (6 U.S.C. 
Sec. 753(c)).
---------------------------------------------------------------------------
    Progress also has been made in the arena of planning. Our nation 
needs realistic, detailed, and coordinated planning at the Federal, 
State, and local level to eliminate organizational, jurisdictional, and 
operational seams and gaps, solve shortfalls in needed resources, and 
ensure a unity of effort in future responses.
    In accordance with a December 2007 Presidential directive,\3\ 
Federal agencies with homeland security responsibilities, led by the 
Department of Homeland Security, are developing Federal plans 
addressing the 15 National Planning Scenarios, which are representative 
examples of the gravest dangers facing the United States and have been 
accorded the highest priority for Federal planning.\4\
---------------------------------------------------------------------------
    \3\ President of the United States, Homeland Security Presidential 
Directive-8, National Preparedness, Annex I, National Planning, 
December 2007.
    \4\ National Response Framework, January 2008, page 73.
---------------------------------------------------------------------------
    This is, however, only the beginning. Incidents begin and end 
locally, and most can be managed at the local or State level. Federal 
plans need to complement and supplement State and local plans. To this 
end, in 2008, FEMA, with DOD support, started a pilot program known as 
the ``Task Force for Emergency Readiness'' (TFER) initiative. A TFER 
will be a planning activity, operating under the authority and 
direction of a Governor, supported by the Secretary of Homeland 
Security and Secretary of Defense and augmented by the expertise of the 
National Guard, that will (a) support participating States' Hazard 
Identification and Risk Assessment processes to identify threats/
hazards, vulnerabilities, and consequences; (b) develop State 
operations plans for the national planning scenarios; (c) synchronize 
and integrate, as appropriate, State operations plans with Federal 
operations plans for the national planning scenarios; (d) synchronize 
and integrate such State operations plans with those of other States; 
(e) support the use of State operations plans for training and 
exercises consistent with section 648 of the Post-Katrina Emergency 
Management Reform Act of 2006 (6 U.S.C.  748); and (f) support State 
efforts to monitor and improve their operational readiness consistent 
with the national preparedness system required by sections 641-647 of 
the Post-Katrina Emergency Management Reform Act of 2006 (6 U.S.C.  
741-747). Currently, the TFER initiative is a pilot program in five 
States (Hawaii, Massachusetts, South Carolina, Washington, and West 
Virginia); in the future, we hope to see a TFER established and 
developing plans in every State. With a TFER in every State, we will 
have taken a revolutionary step from asking questions about needed 
capabilities and resources, proper response actions, and responder 
readiness to having the answers to these questions.

    137. Senator McCain. Secretary Gates, from what you have seen, are 
the Army and Air Force fully integrating their National Guard 
components into their planning and resourcing?
    Secretary Gates. The integration of National Guard capabilities is 
paramount to our ability to perform assigned missions in response to 
the Global Strategic Environment. The Army and Air Force Departments 
are working with the National Guard Bureau, through the Directors of 
the ARNG and Air National Guard (ANG), to fully integrate National 
Guard components into the planning and resourcing programs of their 
respective Services. As the Services refine their planning and 
resourcing efforts, they are also developing processes to provide 
greater transparency and accountability for the funding and equipment 
provided to the National Guard and Reserve components. The DOD is 
committed to making the changes necessary to ensure that the National 
Guard and Reserve components are resourced and ready to support our 
Nation both abroad and at home.

    138. Senator McCain. Secretary Gates, what are your current views 
about the need for further changes to the organizational structure of 
the Army, Air Force and the National Guard?
    Secretary Gates. The National Guard is comprised of the ARNG and 
ANG. The ARNG and ANG are Reserve components of the Army and Air Force, 
respectively. The National Guard Bureau was recently designated as a 
Joint Activity of the DOD and the Chief of the National Guard Bureau 
promoted to General. These changes are commensurate with the shift in 
the Guard's role that we have seen in recent years from a strategic 
Reserve to an operational Reserve as well as the commitment of National 
Guard forces to expeditionary and domestic operations. The Army and Air 
Force both maintain Title 10 responsibilities to organize, man, train, 
and equip their formations, to include the National Guard components in 
their respective service. The NGB assists the Services with their Title 
10 responsibilities, and facilitates, through the several Joint Force 
Headquarters, their statutory responsibilities under Title 32, U.S.C., 
and their duty to their Governors. Full recognition of Joint Force 
Headquarters-State is a vital next step in ensuring the most effective 
use of National Guard forces in providing support to civil authorities. 
I believe that this structural framework is the best way to ensure that 
the Services as well as the National Guard are able to most effectively 
operate in their new role.

    139. Senator McCain. Secretary Gates, do you think that the Chief 
of the National Guard Bureau should be a member of the Joint Chiefs of 
Staff (JCS)?
    Secretary Gates. No, I do not. The idea of making the Chief of the 
National Guard Bureau (CNGB) a member of the JCS has been debated for 
quite some time. The Commission on the National Guard and Reserves 
(CNGR), in fact, took a very detailed look at the concept and 
recommended that the CNGB not be a member of the JCS. The DOD concurred 
with the CNGR in 2006 and I reaffirm my belief that CNGB should not be 
a member of the JCS. The JCS consists of the Chairman, Vice Chairman 
and the Chiefs of Staff of the Armed Services. The National Guard is a 
component of the Armed Services and is represented on the JCS by the 
Chiefs of Staff of the Army and the Air Force. A separate 
representation of a portion of the Reserve components from a portion of 
the services would be inappropriate, and in my view divisive of a Total 
Force. As a four star general officer, the CNGB is already 
participating in all appropriate JCS tank sessions when domestic issues 
which fall under the purview of our National Guard are involved. This 
is similar to the methodology used to include the Commandant of the 
U.S. Coast Guard when specific Coast Guard equities are involved.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

                    AIR FORCE GLOBAL STRIKE COMMAND

    140. Senator Vitter. Secretary Gates, from what I've read, it seems 
that most of the bomber portion of Air Force Global Strike Command 
(AFGSC) is already part of Eighth Air Force's mission. Would it be more 
cost efficient to have the Eighth Air Force designated as the AFGSC 
since many of the assets are already in place?
    Secretary Gates. The Task Force I directed on DOD Nuclear Weapons 
Management made a number of recommendations regarding the Air Force 
nuclear enterprise. The Air Force has made great strides concerning 
these recommendations having completed or is in the process of taking 
action on all 35 recommendations.
    The Air Force thoroughly evaluated the organizational 
recommendation made in the Task Force report and concluded the best way 
to address the issues highlighted in the report was to establish a new 
Major Command (MAJCOM) dedicated to the nuclear and global strike 
missions. The establishment of AFGSC will clearly align nuclear 
operational units under a single command and demonstrates an Air Force 
commitment to the nuclear deterrence and global strike missions.
    AFGSC will be a component MAJCOM to United States Strategic Command 
(STRATCOM), and a lead MAJCOM for all nuclear organizing, training and 
equipping functions. By keeping its focus on the nuclear mission, AFGSC 
will foster a robust nuclear culture and establish an effective self-
assessment climate while at the same time allowing Eighth Air Force to 
focus on its operational warfighting mission in support of STRATCOM.

    141. Senator Vitter. Secretary Gates, if the Global Strike Command 
is focused totally on the nuclear role, will the B-52 and B-2 still 
have a conventional role?
    Secretary Gates. The B-52 and B-2 will continue to maintain their 
conventional role in supporting all combatant commanders. AFGSC is 
organizing all contiguous United States-based nuclear-capable missiles 
and aircraft under one MAJCOM. AFGSC bombers will support both nuclear 
and conventional missions just as the current forces do. The only 
difference evident to the combatant commanders will be that a different 
Air Force MAJCOM will be providing the forces. Additionally, the 
command will work closely with Air Combat Command (ACC) to ensure 
continued commitment of bombers to current Irregular Warfare/Close Air 
Support roles in support of CENTCOM operations.

    142. Senator Vitter. Secretary Gates, there has been discussion to 
downgrade the Eighth Air Force commander's position from a three-star 
general to a two-star general, does that make sense when the Air Force 
is emphasizing the nuclear bomber mission?
    Secretary Gates. The realignment of Eighth Air Force commander's 
grade structure is a decision that our Air Force takes very seriously. 
These grade changes were deemed necessary by the Air Force as a result 
of organizational changes underway, and in no way undermine the 
emphasis being placed on the nuclear mission. Changes made to the eight 
AF/CC grade structure will align it with that of the 20th Air Force 
Commander; the other numbered Air Force to be aligned under AFGSC, and 
will have no impact on the 8th Air Force Commander's ability to execute 
his or her role as the commander.

    143. Senator Vitter. Secretary Gates, I understand that Eighth Air 
Force and ACC have made a number of changes as a result of the transfer 
of nuclear-armed cruise missiles from Minot, SD, to Barksdale, AZ. Some 
of these include toughening the inspection process, putting Eighth Air 
Force in the operational chain of command, creating a fourth B-52 
squadron, revising the nuclear weapons handling regulations. Is there 
more that Eighth Air Force and ACC could or should have done that would 
have avoided the Air Force changes being contemplated?
    Secretary Gates. We should have recognized the symptoms in the 
erosion of the nuclear culture much earlier. Both the daily focus 
required for nuclear surety compliance and the robustness of nuclear 
exercises had decreased due to continuous conventional deployments and 
readiness requirements centered on the conflicts in Iraq and 
Afghanistan. Key to this result was a lack of comprehensive self 
assessment, as highlighted by several investigations and reports. The 
use of no-notice inspections, which are now required, could have been 
better used to gauge the day-to-day status of compliance. Robust 
nuclear exercises could have been accomplished to stress the 
sustainment and operational systems in order to identify any 
weaknesses. I have asked for help from external Task Forces and Boards 
in identifying the root cause of these problems, and the Air Force has 
welcomed these studies. The Air Force has taken positive action to re-
establish a culture of excellence and superior performance within the 
nuclear enterprise and to better organize its nuclear forces. I am 
pleased with their response and progress to date, but there remains a 
significant amount of work to be done.

    144. Senator Vitter. Secretary Gates, since Barksdale currently 
operates the Provisional Cyber Command, should the Air Force conclude 
that the Cyber Numbered Air Force be located elsewhere, would it not be 
cost-efficient to keep the current cyber assets at Barksdale operating 
under the Numbered Air Force?
    Secretary Gates. Barksdale is one of the bases being considered for 
basing 24th Air Force, and one of the criteria being evaluated is 
proximity to an operational cyber unit. While cost efficiency is part 
of the reason for that criteria, mission effectiveness and synergy are 
also part of the equation. We will consider all of this and more as we 
decide where best to base 24th Air Force and organize for effective 
cyberspace operations.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                              SHIPBUILDING

    145. Senator Collins. Secretary Gates, a stable shipbuilding 
industrial base and predictable levels of funding are critical to 
achieving shipbuilding cost projections. As has been evident in the 
shipbuilding industry, the lack of a stable, fully funded shipbuilding 
plan causes disruptions in the industrial base and leads to 
uneconomical rates of production. While I applaud Secretary Winter and 
Admiral Roughead for continuing to state that the Navy's goal is a 313-
ship fleet, I was very concerned with their decision last summer to 
suddenly change, without any consultation with Congress, the Navy's 
shipbuilding plan. Our shipyards make strategic decisions based upon 
long term plans, such sudden changes have significant impacts, one of 
which is cost. As we move forward toward this year's budget, what will 
you do to help stabilize our country's shipbuilding industrial base?
    Secretary Gates. The Annual Report to Congress on the Long-Range 
Plan for Construction of Naval Vessels (commonly referred to as the 30 
Year Shipbuilding plan) is the Department's strategic plan to field the 
force structure to meet the requirements of the National Security 
Strategy and the QDR meeting the fiscal year 2020 threat. This year's 
plan will be submitted with the President's budget and represents the 
best balance of available resources and acceptable risk in meeting the 
security demands of the 21st century.

         The Navy's decision last summer to restart the DDG 51 program 
        in lieu of continuing the DDG 1000 program was not reached 
        lightly or without due consideration of the ramifications of 
        such a dramatic change in our shipbuilding program. While the 
        CNO's early testimony supported the existing program of record, 
        and by extension continued procurement of the DDG 1000, the 
        assessment of the intelligence community regarding future 
        threats caused the CNO to question the efficacy of the DDG 1000 
        to meet the growing demands for Integrated Air and Missile 
        Defense and the DDG 1000's ability to serve as the foundation 
        for the CG(X). Navy's challenge was to find a solution that 
        reduced risk and cost, while providing more ships with better 
        capability to address evolving threats. The Navy presented many 
        options for the most appropriate path forward. While there were 
        concerns, similar to yours, the data supported restarting the 
        DDG 51 line which was already in production. The primary 
        arguments were related to the warfighting capabilities these 
        two ship-types possessed, with a discussion of the relative 
        options for upgrade, merit of those upgrades in meeting the 
        threat we face today and room for additional growth as the 
        threat evolves. Finally, the costs of the options were 
        considered with a view toward finding the solution that had the 
        greatest likelihood of defeating the threat at the lowest 
        overall cost with the least risk.
         In order to better support a stable shipbuilding plan, the 
        Department has been exploring alternatives with the 
        shipbuilding industry to mitigate workload fluctuations among 
        shipyards to maintain a stable and skilled workforce across 
        shipbuilding industry sectors.

                 Level loading of ship procurements helps sustain 
                minimum employment levels and skill retention and will 
                promote a healthier U.S. shipbuilding industrial base.
                 To achieve affordability goals, the Navy plans to 
                make greater use of other contract incentives, such as 
                multi-year procurements, fixed-price contracts (when 
                and where appropriate), and increased use of 
                competition. These efforts are expected to contribute 
                to real cost containment in future shipbuilding plans. 
                The Navy's shipbuilding plan requires a balance among 
                operational requirements and risk, affordability, and 
                industrial base utilization. Keeping the shipbuilding 
                plan affordable and achievable also requires long-term 
                stability in the plan.
                 Implementation of Acquisition Governance to improve 
                oversight of shipbuilding programs and better integrate 
                the requirement and the acquisition communities have 
                been implemented.
                 Navy's long range vision reduces the types and models 
                of ships, maximizes the reuse of ship designs and 
                components, and implements open architecture for 
                software and hardware systems. The Navy will continue 
                to focus on affordability of programs of record by 
                ensuring ship designs are mature prior to the start of 
                construction and emphasizing design for affordability 
                concepts in both the initial design and follow-on 
                ships. These efforts will improve cost and schedule 
                performance which will reduce the growth and variation 
                in existing shipbuilding programs that impact shipyard 
                planning and execution.
                 Navy continues to work with shipbuilders to strive 
                for level loading of production facilities. Workload 
                peaks and valleys are mitigated through work share 
                opportunities and regional outsourcing.
                 Sustaining procurement rates can contribute to 
                reducing the magnitude of annual funding variations and 
                will provide a more stable demand signal to industry. 
                Sustaining procurement rates are planned for aircraft 
                carriers, major surface combatants, attack submarines, 
                and amphibious ships.

    The Department believes that future stability in the shipbuilding 
program is a cornerstone in sustaining a cost effective and affordable 
future maritime capability supporting the National Security Strategy. 
Toward that end, the Department of the Navy will continue to work with 
Congress to ensure a stable shipbuilding strategy that is aligned with 
the fiscal year 2010 President's budget.

       NATIONAL GUARD AND RESERVE SUPPORTING GLOBAL WAR ON TERROR

    146. Senator Collins. Secretary Gates, it has now been over 7 years 
since the initial call up and mobilization of National Guard and 
Reserve Forces in support of the global war on terrorism. In the Afghan 
Study Report of 2007, it stated that ``Afghanistan stands at a 
crossroads,'' and that the progress achieved over the previous 6 years 
was threatened by resurgent Taliban violence. The report recommended 
that the ``light footprint'' in Afghanistan be replaced by the ``right 
footprint'' of U.S. and Allied force levels.
    Unfortunately, it appears that the gains that we made in the past 
are eroding. President Bush indicated that as troop levels in Iraq 
decreased, many of those forces would be redeployed to Afghanistan, and 
I understand that President Obama will continue to refocus our 
military's efforts to this region.
    Last year, Congress authorized an increase in end strength for both 
the Army and Marine Corps to help address the pressure the wars in Iraq 
and Afghanistan had caused to the military. Given the strain on the 
Active-Duty Forces and the over-usage of the National Guard and 
Reserves, do you think the current end strength numbers for the Armed 
Forces are sufficient to meet today's current needs and threats while 
reducing the strain on our Active, Reserve, and National Guard troops?
    Secretary Gates. All of our servicemembers (Active and Reserve) 
continue to perform extraordinarily in light of the demands we have 
placed upon them. I believe the increases in our Ground Forces (Army 
and Marines) are necessary, and will strengthen the ability of the 
Department to continue to support the global war on terror. We cannot 
fail to have the right numbers and kinds of uniformed personnel to win 
our wars and to deter potential adversaries. Additionally, our Forces 
(Active and Reserve) must be large enough to not only satisfy deployed 
demands, but also have a rotation base that recognizes the personal 
needs of our volunteers and their families. At the same time, our 
volunteers must have the weapons, equipment, and support that will 
enable mission success. Striking the right balance between personnel, 
recapitalization, and operational and support costs will be a 
challenging imperative and I look forward to working with Congress.

                              AFGHANISTAN

    147. Senator Collins. Secretary Gates, the new administration has 
already committed to sending additional forces to Afghanistan. Many of 
us are concerned about the lack of any publicly described theater 
strategy for using those additional forces. I am also concerned about 
the apparent lack of a coherent civil-military plan for integrating our 
military operations with economic and political development that is so 
essential to success in counterinsurgency. Is there a plan, and if so, 
will it be articulated publicly?
    Secretary Gates. President Obama has not yet made any decisions on 
the deployment of additional military forces to Afghanistan. The 
administration will conduct a strategic review of our policies toward 
Afghanistan. As we move forward, we will come to this committee and 
other Members of Congress for advice and support.
    Decisions on further deployments of military forces to Afghanistan 
will be informed by that review.

                                  NATO

    148. Senator Collins. Secretary Gates, Article 5 of the NATO 
Alliance states ``an armed attack against one or more . . . shall be 
considered an attack against . . . all''. Do you believe that Article 5 
of the NATO Alliance is still credible in the eyes of the new, and old, 
NATO members?
    Secretary Gates. Yes. The commitment stated in Article 5 is the 
fundamental bedrock of shared security among members of the Alliance. 
Its universal application was demonstrated following the September 11, 
2001 attacks on the United States, when NATO formally invoked Article 5 
to provide support to our country.
    Last year's events have further highlighted the critical importance 
of Article 5 to all members of the Alliance, particularly for newer 
NATO members. The Alliance has been considering a range of options to 
underscore the fundamental nature of this commitment, including prudent 
planning, exercises, and the continued development of capabilities such 
as the NATO Response Force to handle the full range of crisis response 
operations up to and including responding to an Article 5 situation.

    149. Senator Collins. Secretary Gates, do you believe it is 
credible to potential adversaries of the members of the NATO Alliance?
    Secretary Gates. Yes, Allies have always been united in their 
conviction that the Article 5 collective defense provision of the North 
Atlantic Treaty is the essential foundation of the Alliance. That 
Alliance solidarity, backed up by the enduring U.S. commitment to the 
idea that the security of Europe is inextricably linked to the security 
of North America, is a credible deterrent to potential adversaries of 
the members of the NATO Alliance.

    150. Senator Collins. Secretary Gates, in your opinion, what should 
the priorities of the Obama administration be for NATO during the next 
4 years?
    Secretary Gates. I expect we will all hear President Obama himself 
lay out his priorities for NATO at the 60th Anniversary Summit in 
April. My own view is that the United States has enormous stakes in a 
strong, mutually supportive NATO Alliance that is organized and has the 
capabilities to meet 21st century security challenges. NATO has made a 
great deal of progress in these areas and continues to evolve as it 
conducts the largest and most important operation in Alliance history 
in Afghanistan. However, challenges remain. These include, first and 
foremost, achieving durable progress in Afghanistan, while also 
developing a common approach toward managing relations with Russia. We 
also want to keep the door open to qualified aspirants, and improve the 
prospects for unity-of-action between NATO and the EU. Finally, it is 
important for Allies to continue to seek common ground across the 
Alliance on emerging threats and opportunities.

    151. Senator Collins. Secretary Gates, what do you believe is the 
proper role for NATO in meeting the foreign policy challenges that the 
United States and our allies face today?
    Secretary Gates. NATO is, first and foremost, a military alliance 
committed to the security of its members. The greatest challenge to 
that security, today, emanates from Afghanistan, so it must be our top 
priority. In a broader sense, NATO also serves as a valuable forum for 
cooperation and consultation among the U.S. Allies, partners, and other 
European organizations such as the EU.
    In addition, NATO has the opportunity to strengthen its security 
capacity by continuing to professionalize, transform, and develop the 
forces of its newer members to work in challenging operational 
environments.

                                PAKISTAN

    152. Senator Collins. Secretary Gates, the situation in Pakistan is 
extremely worrisome, not only because Taliban fighters are using 
Pakistani bases to attack our soldiers in Afghanistan, but also because 
of the persistence of the sanctuaries of al Qaeda and affiliated groups 
within Pakistan itself. The PAK MIL has been making much of its recent 
operations in portions of the FATA, but it is very hard to tell from 
this distance how serious those operations are. Do you believe that the 
PAK MIL is making sustainable progress?
    Secretary Gates. I believe the PAK MIL has been making progress in 
counterinsurgency missions in the FATA, but that progress has not been 
wholly adequate to the threat or capabilities of the militant, nor has 
it been sustained long enough to make a significant impact. 
Counterinsurgency is a relatively new mission area for the PAK MIL and 
Frontier Corps, one for which they were ill-prepared and poorly 
trained. We are assisting them in that training requirement, and in 
providing some technical assistance, but much more needs to be done to 
make an effective clear, hold, build strategy. Without the holding 
capacity provided by effective security, the military's progress is 
unsustainable, since terrorists and militants will reoccupy those 
areas. Additionally, peace agreements that are supposed to allow the 
Federal and provincial governments to provide the local populace with 
development often undermine the military's progress by allowing 
terrorists and militants time to regroup. The government also does not 
follow through on their development promises, which results in a 
frustrated local populace and a security vacuum which can be exploited.

    153. Senator Collins. Secretary Gates, is it willing and able to do 
what is necessary to finish the job?
    Secretary Gates. Although Pakistan continues to assist in the fight 
against extremists, its participation does not come without a domestic 
price. The Army's reputation has suffered as a result of these efforts. 
Army senior leaders appear committed to combating the terrorist threat, 
but they have other concerns that at times trump their commitment, such 
as Pakistan's stability, domestic opposition, Army morale, and 
potential conflict with India. Pakistan's Army and security forces 
historically have had little counterinsurgency training. Their 
capability has and will continue to improve through combat experience 
and training, but faces continued manpower and equipment shortfalls, 
particularly in the current global economic environment, which has hit 
Pakistan hard.

    154. Senator Collins. Secretary Gates, are we doing everything we 
can to help?
    Secretary Gates. Senator, your question is very timely. The 
administration will conduct a strategic review of our policies toward 
Pakistan and Afghanistan to determine what we should and can do. As we 
move forward, we will be coming to you and other Members of Congress 
for advice and support as we determine what we can do to help with 
Pakistan.
    The U.S. has worked closely with Pakistan to provide the Frontier 
Corps and elements of Pakistan's Army--including its SOF--with the 
training and equipment necessary to enhance its ability to secure the 
border, deny terrorists safe havens, and provide a secure environment 
for the border population so that investments in development can yield 
results.
    The United States reimburses Pakistan through Coalition Support 
Funds for the incremental costs it incurs while conducting operations 
in support of OEF. These reimbursements are enablers that allow a 
country like Pakistan, which is undergoing severe economic pressure, to 
continue operations against extremists. Nevertheless, more needs to be 
done to enhance Pakistan's counterterrorism and counterinsurgency 
capabilities to defeat extremists within its borders. To this end, DOD 
will seek to expand its train-and-equip mission to help Pakistan's Army 
improve its ability to conduct counterterrorism and counterinsurgency 
missions.

                                  IRAQ

    155. Senator Collins. Secretary Gates, the situation in Iraq is 
improving, but as all of the commanders and our ambassador constantly 
repeat, it remains fragile and potentially reversible. Iraq is 
scheduled to hold provincial elections at the end of this month, a 
referendum on the Strategic Framework Agreement in the summer, and 
parliamentary elections at the end of the year. Each event offers 
opportunities for the U.S. and the Iraqis, but also dangers. How 
confident are you that the current plans for American force levels, and 
proposed funding levels for nonmilitary tasks, are adequate to ensure 
the success of our efforts in Iraq?
    Secretary Gates. The President's plan represents a responsible and 
reasonable drawdown of combat units in Iraq to an initial transitional 
force that will help consolidate the hard-fought gains that coalition 
and Iraqi forces have made over the last several years. This plan, 
based on an assessment of conditions in Iraq that includes 
significantly reduced levels of violence, more capable ISF, and recent 
successful provincial elections, provides our military commanders with 
the flexibility they will require during this critical time in Iraq.
    Because progress remains fragile, a U.S. military presence will be 
necessary to support the Iraqis while they conduct national elections 
and further develop the ISF's capabilities through 2009. After an 
initial drawdown this year, U.S. force levels will likely remain at a 
robust level in the period immediately preceding until shortly after 
the national elections, currently expected to take place before the end 
of January 2010.
    As we redeploy our combat brigades, we will simultaneously pursue 
the second part of the U.S. strategy: sustained political and 
diplomatic efforts to secure a more peaceful and prosperous Iraq. 
Although Iraq's long-term success depends on its leaders and the 
fortitude of the Iraqi people, a strong political, diplomatic, and 
civilian capacity-building effort can advance progress and lay a 
foundation for lasting peace and security. The Department recognizes 
that resources applied to non-military efforts are critical to success 
in Iraq, and fully supports the State Department's funding requests for 
these vital activities.

                                  F-22

    156. Senator Collins. Secretary Gates, you will be advising the 
President on the certification of the F-22 program. Will you seek the 
position of ACC as well as the Pacific and European Air Component 
Commanders to inform your decision on this issue?
    Secretary Gates. The Department is currently reviewing whether to 
procure more F-22A aircraft beyond its current Program of Record 
quantity of 183. We will take into consideration all appropriate data 
from the necessary sources in the development of our recommendation to 
the administration.

    157. Senator Collins. Secretary Gates, our economy is in a deep 
recession, and the defense industrial base is an important part of our 
economy. I believe that the administration must consider the defense 
industrial base, such as the 95,000 (direct and indirect) jobs 
associated with the F-22 program. Will industrial base considerations 
be a factor in this vital decision?
    Secretary Gates. The Department will consider all appropriate 
factors in making a recommendation to the administration on whether to 
continue or terminate F-22 production. Some of the factors that will go 
into the Department's recommendation are: compliance in meeting the 
requirements of the current National Military Strategy; the 
affordability of additional F-22 aircraft within the Department's 
resource constrained environment; and consideration of the national 
technology and industrial base.

    [Whereupon, at 12:18 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
